<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              


                        WEDNESDAY, MARCH 3, 2010

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:31 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Dorgan, Shelby, and Brownback.

                         DEPARTMENT OF DEFENSE

                         Department of the Army

                        Office of the Secretary

STATEMENTS OF:
        HON. JOHN M. McHUGH, SECRETARY
        GENERAL GEORGE W. CASEY, CHIEF OF STAFF


             OPENING STATEMENT OF CHAIRMAN DANIEL K. INOUYE


    Chairman Inouye. The hearing will come to order.
    This morning, we welcome the Honorable John McHugh, 
Secretary of the Army, along with General George Casey, the 
Chief of Staff of the United States Army.
    Gentlemen, we thank you for being here with us today as we 
review the Army's budget request for fiscal year 2011.
    Before proceeding, I'd like to announce that, because of 
illness, the vice chairman will not be with us this morning. In 
his place, we have the gentleman from Alabama.
    The Department of the Army's fiscal year 2011 budget 
request is $143.4 billion, an increase of $2.5 billion over 
last year's enacted budget, excluding funding appropriated to 
the Army in the fiscal year 2010 supplemental.
    The Army also has requested $20 billion for overseas 
contingency operations for the remainder of this fiscal year, 
primarily to fund surge operations in Afghanistan. In April of 
last year, President Obama and Secretary Gates announced 
substantial initiatives within the Department of Defense to 
strengthen our All-Volunteer Force, change how and what the 
Department buys, and rebalance military capabilities.
    After an overhaul of the Army's modernization effort last 
year, fiscal year 2011 budget request includes $3.2 billion for 
the Army's revamped Brigade Combat Team Modernization Program 
and provides $6 billion for Army aviation. The fiscal year 2011 
budget request builds upon the reform agenda set by Secretary 
Gates last year and supports the final year of a 5-year plan to 
restore balance to an Army that has experienced the cumulative 
effects of years upon years of conflict.
    The subcommittee is looking forward to hearing not only 
about these efforts, but also about the Department's vision to 
rebalance and reshape, as directed in the Quadrennial Defense 
Review (QDR) completed this past January. One of the central 
themes of the 2010 Quadrennial Defense Review is balance. The 
Department needs to find balance between providing capabilities 
to prevail in today's wars, while building the capabilities 
needed to counter future threats. The Army is shouldering a 
very heavy burden, since it has been conducting combat 
operations in two theaters while transforming and modernizing 
at the same time. However, budget pressures to support current 
operations have made it very difficult to allow for the 
investment in modernization.
    Not only is balance included and needed between meeting the 
demands of today and the threats of the future, it is also 
needed within each of the military services, and the Army has 
continued to answer the Nation's call, but it has been at the 
expense of maintaining a well-balanced force.
    We are aware of the demands created by more than 8 years of 
continuous war. Repeated and lengthy deployments have stressed 
our soldiers, their families, and our support systems and 
equipment. Currently the Department is managing a shift in 
focus in our overseas contingency operations. While the 
withdrawal of U.S. forces from Iraq has begun, an additional 
30,000 troops have been committed to supporting operations in 
Afghanistan.
    Since the Army is the service most heavily engaged in these 
operations, the Secretary of Defense has permitted the Army to 
retain 22,000 soldiers, temporarily, above the authorized end 
strength of 547,000. This decision was made to acknowledge the 
fact that future readiness is dependent upon restoring balance 
and lessening the strain upon the force.
    Finally, there is one other type of balance that this 
subcommittee will be looking for during the budget review, the 
balance between risk and resources. The Quadrennial Defense 
Review has set the agenda and defined requirements, and 
presumably the Department has budgeted for those priorities. 
However, there will never be enough resources to eliminate all 
risk. It is our hope that today's hearing will help illuminate 
how the Army's fiscal year 2011 budget request addresses the 
recommendations of the Quadrennial Defense Review while 
maintaining balance among a number of valued, yet equally 
important, priorities.
    Gentlemen, we sincerely appreciate your service to our 
Nation and your dedication and sacrifices made daily by the men 
and women in our Army. We could not be more grateful for what 
those who wear our Nation's uniform do for our country each and 
every day.
    Gentlemen, your full statements will be made a part of the 
record.
    And I would now wish to turn to the Senator from Alabama.


                 STATEMENT OF SENATOR RICHARD C. SHELBY


    Senator Shelby. Thank you, Mr. Chairman. I'll be brief. I 
just want to join you in welcoming Secretary McHugh and General 
Casey to this subcommittee. They're no strangers here.
    Thank you.
    Chairman Inouye. I thank you very much.
    Now, with that, Secretary, we are depending on you, sir.


                 SUMMARY STATEMENT OF HON. JOHN MC HUGH


    Mr. McHugh. Thank you very much, Mr. Chairman.
    As you noted, we'll enter, with your permission, our full 
statements into the record. And I know time is of some concern 
here this morning, so I just would like to summarize a few of 
those points.
    First of all, I want to, at the risk of stating the 
obvious, say what an honor it is to be here today. I had the 
distinct honor of serving for 17 years on the House Armed 
Services Committee, and in that time I gained a great 
appreciation for the great work this subcommittee does, for the 
enormous support that it has, historically, and certainly under 
the leadership of you, the vice chairman, and the current 
members, have continued in support of not just our Army, but 
all of our services. I certainly want to take this opportunity 
to express my personal appreciation and thanks for all that you 
do, and all that you will continue to do.
    If I may, Mr. Chairman, just a few comments on my now 5 
months as the 21st Secretary of the Army. And while it's been a 
crash course of learning, I think some things are obvious. And 
I would add, Mr. Chairman, in listening to your opening 
comments, I think you've encapsulated very well the key 
questions, the key challenges that lie before us.
    As you've said, Mr. Chairman, and as I have seen from the 
first day I walked into that hallowed building on the other 
side of the Potomac, this is an Army that clearly is fatigued, 
is stressed by nearly 9 years of combat. But, it is still an 
Army that is amazingly resilient, that is amazingly effective. 
Today, as you know, this is an Army that has more expertise, 
more education, it has more capability and lethality than any 
Army in our Nation's history. That is, in no small measure, 
because of the great support and leadership that has come out 
of this great subcommittee.
    Those are significant gains, but, in spite of those gains, 
this is, quite simply, an Army that is, and remains, out of 
balance. The Chief of Staff--General Casey--and my predecessor, 
Pete Geren, the Army leadership, along in partnership with the 
Congress have made great progress in bringing that balance 
back. I think, one of the key assets and key attributes of the 
President's proposed budget is that it allows us to continue 
the regaining of balance, and, in fact, should allow us to 
finish it. But, this is a very delicate balance, and we need to 
stay focused on that objective.
    You noted, Mr. Chairman, the variety of appropriations that 
take us toward that goal, the $1.7 billion in requests to 
continue to fund our vital family programs in support of those 
amazing families, and other initiatives. I won't continue to 
repeat those, but a couple of other points, I think, do bear 
noting.
    We remain extraordinarily committed to our wounded 
warriors. Tomorrow, I will have the opportunity to pay my 
regular visit to Walter Reed, and I know what I will see. I 
will see a cadre of individuals who have stepped forward, who 
have given more in their time on the battlefield than most 
Americans could possibly imagine, and who will ask one simple 
question, ``What can I do to serve more?'' We recognize the 
obligation we have to provide world-class transition, world-
class healthcare services to those heroes. This budget provides 
us with that opportunity and allows us to go forward in that 
solemn obligation.
    It also allows us to do something very important, in terms 
of recapitalizing, rebalancing, and modernizing our equipment 
systems that require those kinds of adjustments. And, as you 
noted, Mr. Chairman, that's a significant challenge under the 
best of circumstances, but clearly, at time of war, becomes 
even more problematic. But, with your support, we will continue 
to do that. The funding is there--$3.1--$31.7 billion in 
research and development, brigade combat team modernization 
funds, et cetera, et cetera.
    The other thing--and it's something that this Congress 
recognized last year--that we need help in is acquisition 
reform. I think it's necessary to give our acquisition people, 
who have also been at war for nearly 9 years, their due. Over 
the last 10 years, they've had a 15-percent cut in personnel 
and a 500-percent increase in their dollars to bring under 
contract. And in spite of that, in that time, 1,000 protests 
brought against the decisions that they made, and only 8 of 
those 1,000 protests upheld. Still, they would be the first to 
recognize they need help. We need to continue to redevelop the 
acquisition rules and regulations to allow us to be more 
effective in support of the warfighter, and, equally important, 
more efficient in support of our taxpayer dollars. We look 
forward in engaging with this Congress, with this great 
subcommittee, in bringing that about.


                           PREPARED STATEMENT


    In the end, I would tell you, we have an Army that is 
strong in spirit, it is strong in ability and in results. But, 
as I said in my opening comments, and as you noted, Mr. 
Chairman, it is an Army that is greatly stressed. We can do 
better by them. We feel that's our obligation and what this 
budget brings to the table and allows us the opportunity to do. 
And, in partnership with you, we look forward to pursuing that 
very worthy goal.
    With that, Mr. Chairman, I'd yield back.
    Chairman Inouye. I thank you very much, Mr. Secretary.
    [The statement follows:]

 Prepared Statement of John M. McHugh and General George W. Casey, Jr.

                              INTRODUCTION

    America's Army continues to answer the Nation's call, as it has 
since it was established nearly 235 years ago. Today our Army is 
fighting two wars, assisting other nations as they build their own 
security capacity, supporting civil authorities at home, helping the 
people of Haiti rebuild after a devastating earthquake, and preparing 
to deter and defeat new threats. The Army's Soldiers, Civilians, and 
Families faithfully shoulder the load that our Nation asks of them. 
With the support of the Congress, we are on track with our 4-year plan 
to put the Army back in balance.
    Though their sacrifices can never be fully repaid, the Nation 
continues to recognize and honor our Soldiers and their Families by 
supporting them before, during, and following deployments. Our Soldiers 
rely upon the best training and equipment that our Nation can provide 
to accomplish their mission. Yet even with this continued support, the 
demands of 8 years of war weigh heavily on our Army. The strain of 
multiple deployments is evident on Soldiers and their Families. 
Equipment is used at a pace that seriously challenges our maintenance 
and replacement capabilities and resources. The stress is present in 
our institutions as we change 20th century systems and processes to 
meet the demands of the 21st century.
    Our Nation faces the difficult challenge of balancing when, where, 
and how to engage in a dynamic and uncertain world while meeting 
important priorities at home. However, when the security of our 
citizens or allies is threatened, the Nation can depend on America's 
Army--the Strength of the Nation.

                           STRATEGIC CONTEXT

    The United States faces a complex strategic landscape with an array 
of diverse security challenges. We are fighting wars in Iraq and 
Afghanistan while preparing for future challenges to our national 
security. For the foreseeable future, violent extremist movements such 
as Al Qaeda and other terrorist organizations comprise the most 
immediate threats. Current global economic conditions, changes in 
demographics, cultural pressures associated with globalization, and 
competition for scarce resources exacerbate the uncertainty and 
volatility of the strategic environment. Within this setting, the 
American Soldier stands as our Nation's most visible and enduring 
symbol of commitment in an era of persistent conflict.

                          PERSISTENT CONFLICT

    For the near future, persistent conflict--protracted confrontation 
among state, non-state, and individual actors that are increasingly 
willing to use violence to achieve their political and ideological 
ends--will characterize the global security environment. Security 
crises will arise unpredictably, vary in intensity and scope, and last 
for uncertain durations. These challenges will take place in all 
domains: land, sea, air, space, and cyberspace. Natural disasters and 
humanitarian emergencies will continue to be frequent and unpredictable 
missions, requiring the commitment of Soldiers and resources. In this 
dynamic environment, the Army will conduct operations that span the 
spectrum of conflict from humanitarian and civil support to 
counterinsurgency to general war, often simultaneously.

                             GLOBAL TRENDS

    Several global trends will continue to shape the international 
security environment and the conflicts confronting our Nation. 
Globalization may increase prosperity, but it can also spread 
destabilizing influences. The unequal distribution of benefits creates 
societies with divisions between ``haves'' and ``have nots''--divisions 
that can be exploited by extremist ideologies and lead to conflict. 
Fault lines reflecting protracted competition and friction can erupt 
unpredictably as societies struggle to adjust to the move toward 
modernity and greater interdependence. Meanwhile, increasingly 
available and affordable technology provides our adversaries 
sophisticated tools to enable a networked approach to recruiting the 
disenfranchised and exporting terror.
    Shifting demographics and rapid population growth that is 
increasingly urbanized can continue to break down traditional, 
localized norms of governance, behavior, and identity, and further 
strain already stressed governments. This is especially true where a 
lack of economic opportunity increases the potential for instability 
and extremism. Those who are disaffected may rebel against perceived 
Western interference, challenges to traditional values, and ineffective 
governments. Increased resource demand, in particular energy, water, 
and food, is a consequence of growing prosperity and populations. The 
growing global competition for resources will continue to produce 
friction and increase opportunities for conflict. In this environment, 
climate change and natural disasters will compound already difficult 
conditions in developing countries by igniting humanitarian crises, 
causing destabilizing population migrations, and raising the potential 
for epidemic diseases.
    The two trends of greatest concern are the proliferation of weapons 
of mass destruction (WMD) and failed or failing states. A catastrophic 
attack utilizing WMD has the potential to be globally destabilizing. 
Failed or failing states, lacking the will or capacity to maintain 
effective territorial control, contribute to regional instability and 
provide ideal environments for terrorist groups to plan and export 
operations. The merging of these two trends constitutes a significant 
and compelling threat. Together, these trends make conflict in the 
decades ahead more likely.

               CHARACTER OF CONFLICT IN THE 21ST CENTURY

    Global trends and recent conflicts--such as those in Lebanon and 
Georgia--and our own recent combat experience indicate the evolving 
character of conflict in the 21st century.
    Conflicts will be waged among diverse actors--state and non-state--
with the latter employing capabilities that, during the last century, 
remained largely the purview of nation-states. Motives, objectives, and 
often the identities of these actors will be difficult to discern, and 
are likely to shift as some act covertly and others use proxies. The 
battle to gain influence over, and support from, populations will be 
central to our success. Therefore, conflict will be unavoidably waged 
among the people.
    The initiation, location, duration, and intensity of conflicts are 
increasingly unpredictable. In an interdependent world, conflicts are 
more susceptible to the potential for spillover, creating regionally, 
and potentially globally, destabilizing effects. All of this will occur 
under the unblinking scrutiny of the 24-hour global media cycle and the 
Internet. Details of conflict as well as misinformation will flow 
equally across social, communications, and cyber networks. Our 
adversaries will exploit these media and communication sources locally 
and globally.
    We are more likely to face hybrid threats--diverse and dynamic 
combinations of conventional, irregular, terrorist, and criminal 
capabilities employed asymmetrically to counter our advantages. Hybrid 
threats require hybrid solutions--adaptive military forces that can 
function in a variety of situations with a diverse set of national, 
allied, and indigenous partners. Given the strategic environment, 
enduring global trends, and the character of 21st century conflict, the 
Army will operate as part of a Joint, interagency, inter-governmental, 
and multi-national team to fulfill its global commitments.

                          ROLES OF LAND FORCES

    More than one million of our men and women have served in the 
ongoing campaigns in Iraq and Afghanistan. Over 3,900 American Soldiers 
have given their lives, and more than 25,000 others have been wounded 
during this longest period of sustained conflict ever fought by an all-
volunteer force. Today, America's Army has over 255,000 Soldiers and 
more than 18,500 Army Civilians serving in nearly 80 countries around 
the world--with the remainder stationed within the United States 
supporting domestic missions, resetting from recent deployments, or 
preparing for an upcoming deployment.
    Our Soldiers are performing magnificently around the world every 
day, and the roles for land forces in this environment are becoming 
increasingly clear.
    First, the Army must prevail in protracted counter-insurgency 
(COIN) operations. Not only must we prevail in our current missions in 
Iraq, Afghanistan, and the Philippines, we must be prepared to prevail 
in any future COIN operation.
    Second, the Army must engage to help other nations build capacity 
and to assure our friends and allies. Through security force 
assistance, we can increase the capacity of other nations' military and 
police to uphold the rule of law, ensure domestic order, and deny 
sanctuary to terrorists--thereby helping avoid future conflicts that 
might otherwise develop. American Soldiers are currently deployed to 
Central America and the Balkans, building the capacity of indigenous 
security forces. Additionally, the Army has established an Army Service 
Component Command for U.S. Africa Command to assist partner nations and 
humanitarian organizations in Africa.
    A third role that the Army fulfills is to provide support to civil 
authorities at home and abroad. In the past year alone, American 
Soldiers have fought fires in the west, conducted search and rescue 
operations in the Rockies and Alaska, and assisted with tsunami relief 
in American Samoa, in support of civil authorities. The Army has also 
provided a sizeable force to support the relief efforts in Haiti 
following the catastrophic earthquake that destroyed its capital. Army 
units from both the active and reserve components remain prepared to 
react to a variety of crises as consequence management and response 
forces. The U.S. Army Corps of Engineers is a lead organization in 
providing DOD support to civil authorities for disaster relief at home 
and engineering support to USAID overseas. Abroad, the Army has also 
supported civil authorities in many ways, such as sending Agribusiness 
Development Teams from the Army National Guard to Afghanistan.
    Finally, the Army must deter and defeat hybrid threats and hostile 
state actors. As an Army, we recognize that we must remain prepared to 
meet and defeat hostile state actors that threaten our national 
security. But we recognize that the probability of facing a nation that 
will challenge America's military head-on is lower than it was during 
the Cold War and other periods in our history. Our readiness and 
capability to confront near-peer competitors also deters war by raising 
the stakes for nation-state and hybrid actors who would threaten our 
security interests.
    To meet these threats, Army units continue to participate in Joint 
and international training exercises around the world, ensuring that 
military skills and cooperative partnerships remain strong. The Army 
continues to position forces in Korea and at various missile defense 
sites in order to discourage actors who seek to disrupt regional 
stability and security.

                        TWO CRITICAL CHALLENGES

    The Army has operated at a demanding pace for the last 8 years, and 
while it has met each challenge, the strain has placed the Army out of 
balance. Demand for Army forces continues to exceed the sustainable 
supply. Against that backdrop, the Army continues to meet the wartime 
requirements of our Nation while it addresses the two major challenges 
facing our force--restoring balance and setting conditions for the 
future. In 2007, we established a 4-year plan to restore balance to an 
Army that had experienced the cumulative effects of years of conflict. 
The fiscal year 2011 budget supports the final year in that plan. As we 
continue to restore balance to the force, we are also setting the 
conditions for the Army of the 21st century--an Army that fulfills our 
strategic role as an integral part of our Joint Force.

             RESTORING BALANCE: THE ARMY'S FOUR IMPERATIVES

    With the help of Congress, we have made significant progress over 
the past 3 years in our plan to restore balance--a plan founded on four 
imperatives. Yet today the Army remains out of balance. We've improved 
our ability to sustain the Army's Soldiers, Families, and Civilians; 
prepare forces for success in the current conflict; reset returning 
units to rebuild the readiness consumed in operations and to prepare 
for future deployments and contingencies; and transform to meet the 
demands of the 21st century. As a result of this progress we now are in 
a better position to achieve balance than we were 2 years ago. Critical 
to this was the growth in the size of the Army.
    The security agreement with Iraq that transferred security in urban 
areas to Iraqis was a momentous and welcomed accomplishment. The hard 
work and sacrifice of our Soldiers with the support of Congress helped 
make this achievement possible and set the conditions for our 
responsible drawdown of combat forces in Iraq this year. Coupled with 
our growth, the drawdown in Iraq allowed for our increased commitment 
of forces to Afghanistan to stem the rising violence, and disrupt, 
dismantle, and defeat al-Qaeda while reversing the momentum of the 
Taliban insurgency. However, the campaigns in Iraq and Afghanistan 
continue to create demands that have our Army operating beyond 
sustainable capacity. In fact, in 2009 more Soldiers were deployed in 
Iraq and Afghanistan combined than during the height of the Iraq surge.
    Presently, and for the short term, we lack sufficient strategic 
flexibility, and we continue to accumulate risk. We continue to stress 
our Soldiers, Families, Civilians, equipment, and institutional 
systems, so our efforts to restore balance must not waiver.

Sustain
    Sustaining our all-volunteer force is our first imperative. Nowhere 
is the stress on our force more profound than in the toll it takes on 
our people, as is tragically evident in the rising number of suicides 
and increasing need for counseling among our Soldiers and Families. We 
are aggressively addressing the causes of stress on individuals 
resulting from the cumulative effects of multiple deployments, and 
seeking to build resilience in Soldiers, Families and Civilians. The 
Army is committed to ensuring that the quality of life of those who 
serve the Nation is commensurate with the quality of their service.

            Goals
    To sustain the force, the Army continues to pursue four major 
goals. Our first goal is to Recruit and Retain quality Soldiers and 
Civilians dedicated to service to the Nation. Next, we are committed to 
furnishing the best Care, Support, and Services for Soldiers, Families, 
and Civilians by improving quality of life through meaningful 
initiatives such as the Army Family Action Plan, the Army Family 
Covenant, Army Community Covenants, and the Comprehensive Soldier 
Fitness Program. It is our solemn obligation to provide world-class 
Warrior Care and Transition to our wounded, ill, and injured Warriors 
through properly led and resourced Warrior Transition Units. Finally, 
by Supporting the Families of our Fallen Comrades we honor their 
service and sacrifice.

            Progress and Accomplishments
    The Army met 104 percent of its recruiting goals for 2009, and 
achieved both numeric goals and quality benchmarks for new recruits.
    All components exceeded 105 percent of their reenlistment goals.
    We reduced off-duty fatalities by 20 percent, to include a 15 
percent reduction in overall privately-owned-vehicle fatalities and 37 
percent reduction in motorcycle fatalities.
    In collaboration with the National Institute of Mental Health, the 
Army began a seminal study into suicide prevention that will inform the 
Army Suicide Prevention Program and society's approach to suicide.
    We began instituting Comprehensive Soldier Fitness--an all-
inclusive approach to emotional, social, spiritual, family, and 
physical fitness--as the foundation to building resiliency within the 
Army.
    We initiated an unprecedented series of construction projects at 
five major hospitals as part of our commitment to modernize our 
healthcare system.
    The Army established the Warrior Transition Command and reorganized 
Warrior Transition Brigades to provide centralized support, 
rehabilitation, and individualized transition planning to our 
recovering Warriors.
    We expanded Survivor Outreach Services to over 26,000 Family 
members, providing unified support and advocacy, and enhancing survivor 
benefits for the Families of our Soldiers who have made the ultimate 
sacrifice.
    We implemented the Post 9/11 GI Bill, significantly increasing 
educational benefits for active duty Soldiers, Veterans, and Family 
members.
    The Army Reserve established Army Strong Community Centers to 
support geographically-dispersed Soldiers and Families. Together with 
Army National Guard Family Assistance Centers and Soldier and Family 
Assistance Centers on active duty installations, these centers provide 
help to Soldiers' Families near their hometowns.

            Fiscal Year 2011 Budget Highlights
    Provides $1.7 billion to standardize and fund vital Family programs 
and services to include welfare and recreation; youth services and 
child care; Survivor Outreach Services; and expanded education and 
employment opportunities for Family members.
    Provides a 1.4 percent military basic pay raise and Civilian pay 
raise, a 3.9 percent basic allowance for housing increase, and a 3.4 
percent basic allowance for subsistence increase.
    Warrior Transition Units for our wounded Soldiers will continue to 
receive strong support in fiscal year 2011 with $18 million in Military 
Construction funds allocated to resource construction of barracks 
spaces.
    Supports Residential Communities Initiatives program, which 
provides quality, sustainable residential communities for Soldiers and 
their Families living on-post, and continues to offset out-of-pocket 
housing expenses for those residing off-post.
Prepare
    Our Soldiers face determined enemies--so preparing the force for 
our current conflict is complex and time-consuming, but essential for 
success. Our units must have the people, training, and equipment they 
need to prevail. Meanwhile, our institutions and systems must adapt to 
provide those critical capabilities in a timely manner and in 
sufficient quantities.

            Goals
    To prepare the force, we have four key goals. First, we accelerated 
the pace at which we needed to Grow the Army to our end strength and to 
grow our modular brigades to 73 Brigade Combat Teams (BCTs) and nearly 
230 Support Brigades. Second, the Army is committed to improving 
individual and collective Training to better prepare Soldiers and 
leaders for a complex and challenging operational environment. Next, we 
continuously work to provide our formations with effective Equipment in 
a timely manner that maintains our technological edge and protects our 
most critical resource--the Soldier. Finally, we must transform the 
Army to a rotational model--Army Force Generation (ARFORGEN)--the core 
process for generating trained, ready, and cohesive units on a 
sustained and rotational basis--to meet current and future strategic 
demands.

            Progress and Accomplishments
    We began the phase-out of stop-loss, starting with the Reserve 
Component in August 2009 and the Army National Guard in September 2009, 
and followed by the Active Army in January 2010. Today, no mobilizing 
or deploying units have stop-loss Soldiers in their ranks.
    The force achieved its ``Grow the Army'' end strength goal of 1.1 
million in 2009. The active component continues to grow toward its 
additional authorized Temporary End Strength in order to improve unit 
manning within the already existing Army structure as we eliminate 
stop-loss.
    Fifteen month tours effectively ended in November 2009, when the 
last Soldiers on those extended deployments returned.
    We completed fielding nearly 12,000 Mine Resistant Ambush Protected 
(MRAP) vehicles in Iraq and Afghanistan and delivered the first MRAP 
All-Terrain Vehicles (M-ATVs) to Afghanistan--just 15 months after 
identifying the need for that capability. As of the beginning of 
February, we have provided nearly 800 M-ATVs to Afghanistan.
    This year, we successfully manned, trained, equipped, and deployed 
67 brigade equivalents.
    The Army exceeded fleet readiness of 90 percent for ground 
equipment, to include MRAPs, and 75 percent for aviation.
    We established Army Training Network (ATN)--a 21st Century Approach 
to Army Training. This revolution in training knowledge access is now 
providing a one-stop portal to share training best practices, 
solutions, and products across the Army.
    The Army increased its employment of biometric technologies 
enabling the Army to better identify the enemy among the populace.
Fiscal Year 2011 Budget Highlights
    Funds permanent, active component end strength at 547,400; Army 
Reserve at 205,000; and National Guard at 358,200 in the base budget 
and supports a 22,000 temporary increase in the active component 
through the Overseas Contingency Operations (OCO) request.
    Procures and upgrades the Army's UH-60 Black Hawk, CH-47 Chinook, 
and AH-64 Apache helicopters, which are vital to operations in 
Afghanistan and Iraq.
    Provides over $1 billion for flight crew training in all components 
to fund flying hours, maintenance, fuel, airfield operations, and 
specialized skill training.
Reset
    With the pace of continuous combat operations in two wars for the 
past 8 years, we are consuming our readiness as fast as we can build 
it. Reset restores returning units--their Soldiers, Families, and 
equipment--to a level of readiness necessary for future missions.

            Goals
    Our Reset plans include four goals. Our efforts to Revitalize 
Soldiers and Families seek to reestablish and strengthen relationships 
following deployments. The Army's comprehensive efforts to Repair, 
Replace, and Recapitalize Equipment affected by the harsh environments 
of the war are essential to resetting units. In particular, achieving 
responsible drawdown in Iraq while increasing our commitment of forces 
and equipment to Afghanistan will require an unprecedented reset 
effort. The Army must Retrain Soldiers, Leaders, and Units to build 
critical skills necessary to operate across the spectrum of conflict in 
the current security environment. Lastly, we are identifying and 
applying the lessons learned from the Reset Pilot Program that was 
designed to improve the efficiency and effectiveness of the Reset 
process. Army Reset is a necessary process that must continue not only 
as long as we have forces deployed, but an additional two to three 
years after major deployments end.

            Progress and Accomplishments
    The Army completed the reset of 29 brigades' worth of equipment in 
fiscal year 2009 and continued the reset of 13 more. In total, we have 
reset more than 98,000 pieces of equipment as depot production has 
doubled since September 11, 2001.
    We began executing a responsible drawdown in Iraq which will 
redistribute, transfer, or dispose of 3.4 million pieces of equipment; 
redeploy 143,000 military and Civilian personnel, and 147,000 
contractors; close 22 supply support activities; and consume or dispose 
of over 21,000 short tons of supplies.
    In 2009, more than 160,000 Soldiers and Family members participated 
in over 2,600 Strong Bonds events designed to strengthen Army Families.
    The Army continues to revise its approach to training by 
emphasizing doing fewer tasks better, making judicious use of field 
time, and maximizing the use of mobile training teams and distributed 
learning.
    We completed our Reset Pilot Program and will begin instituting the 
full Reset model across the Army in 2010.
    The Army fostered partnerships by executing more than $24 billion 
in new foreign military sales.

            Fiscal Year 2011 Budget Highlights
    Provides $10.8 billion to reset Army equipment through the Overseas 
Contingency Operations (OCO) request.
    Supports training and sustainment of Army forces to include 
individual skills and leader training; combined arms training toward 
full spectrum operations; and adaptable, phased training based on the 
ARFORGEN process.
Transform
    Since 2004, the Army has been transforming our force to provide the 
combatant commanders tailored, strategically responsive forces that can 
dominate across the spectrum of conflict. Transformation is a 
continuous process that sets the conditions for success against both 
near-term and future enemies.

            Goals
    Our goals for transformation include continued Modular 
Reorganization to standardize our formations to create a more 
deployable, adaptable, and versatile force. We will accelerate fielding 
of Advanced Technologies to ensure our Soldiers retain their 
technological edge. The Army will Operationalize the Reserve Components 
by systematically building and sustaining readiness while increasing 
predictability for these Soldiers, Families, employers, and 
communities.
    Completing the requirements of the Base Realignment and Closure 
(BRAC) statutes is central to Restationing Forces. Soldier and Leader 
Development will ensure that we produce the next generation of agile 
and adaptive military and Civilian leaders who are supremely competent 
in their core proficiencies and sufficiently broad enough to operate 
effectively in the Joint, interagency, intergovernmental, and multi-
national environments.

            Progress and Accomplishments
    The Army is 88 percent complete on the modular conversion of its 
brigades. The fiscal year 2011 budget will support the near completion 
of this process.
    The Army consolidated existing aviation force structure to create a 
12th active component combat aviation brigade (CAB) forming an 
additional deployable CAB without adding force structure.
    The Army activated the 162nd Infantry Brigade at Fort Polk, 
Louisiana, providing a dedicated and enduring capability to prepare 
combat advisors to train and build capacity in foreign security forces. 
Trainers from the brigade are now deployed to Afghanistan to assist 
with the training and development of the Afghan Security Forces.
    The Army developed a new incremental capability package approach to 
modernization which will allow technologically mature, Soldier-tested, 
proven technologies to be prioritized, bundled in time, and fielded to 
the force more quickly than ever before.
    We provided combatant commanders with dedicated, regionally based 
network operations support, and integrated cyber security capability in 
the form of Theater Network Operations and Security Centers, unique 
within the Department of Defense.
    This past year, the Army closed three active installations and five 
U.S. Army Reserve Centers and is on course to complete BRAC in fiscal 
year 2011. To date, we have awarded 265 major military construction 
projects, of which 59 are complete.
    The Army built a Leader Development Strategy that balances 
experience, greater opportunities for professional education, and 
training in full spectrum operations.

            Fiscal Year 2011 Budget Highlights
    Invests nearly $3.2 billion in BCT modernization programs that 
include procurement of the first incremental changes packages for 
Infantry BCTs and additional research, development, testing, and 
evaluation funding for subsequent change packages as well as initial 
development of the Ground Combat Vehicle (GCV).
    Provides funds to begin equipping a 13th Combat Aviation Brigade.
    Supports the increase in ISR platforms to include the Extended 
Range/Multi-Purpose, Raven, Shadow unmanned aerial vehicles (UAVs) and 
the Extended Medium Altitude Reconnaissance and Surveillance System.

                   SETTING CONDITIONS FOR THE FUTURE

21st Century Army
    The second critical challenge facing the Army is setting the 
conditions for the future through a continuous process of 
transformation. We must ensure that our Nation has the capability and 
range of military options to meet the evolving challenges we face in 
the 21st century. We need an Army that is a versatile mix of tailorable 
and networked organizations, operating on a rotational cycle, to 
provide a sustained flow of trained and ready forces for full spectrum 
operations and to hedge against unexpected contingencies--at a tempo 
that is predictable and sustainable for our all-volunteer force.
    Versatility is the central organizing principle of a balanced Army. 
It enables our forces and institutions to effectively execute 
operations across the spectrum of conflict. Our modular heavy, Stryker, 
and light brigades provide a versatile mix of forces that can be 
combined to provide multi-purpose capabilities, and sufficient capacity 
to accomplish a broad range of tasks from peacetime engagement to major 
combat operations.
    Our modular units are designed to be tailorable. Brigades now have 
capabilities previously found at division level and higher. These 
brigades can be tailored for specific missions and combined with 
support units and key enablers such as ISR, communications, civil 
affairs, psychological operations, public affairs capabilities, and 
expanded logistics support, to accomplish a wide variety of missions 
and increase the land options available to combatant commanders.
    The network is essential to a 21st century Army. Networked 
organizations improve the situational awareness and understanding 
leaders need to act decisively at all points along the spectrum of 
conflict, while providing connectivity down to the individual Soldier. 
The network allows dispersed Army organizations to plan and operate 
together, and provides connectivity to Joint, combined, and interagency 
assets. To support this objective, the Army will use the Global Network 
Enterprise Construct (GNEC) as our strategy to transform LandWarNet to 
a centralized, more secure, operationalized, and sustainable network 
capable of supporting an expeditionary Army.
    To provide a sustained flow of trained and ready forces at a tempo 
sustainable for our all-volunteer force, we will put the whole Army 
under a rotational model--ARFORGEN.
    The ARFORGEN process includes three force pools--Reset, Train-
Ready, and Available. Each of the three force pools contains a 
versatile force package, available at varying time intervals based on 
its readiness level. Each force pool consists of an operational 
headquarters (a corps), five division headquarters (of which one or two 
are National Guard), twenty brigade combat teams (three or four are 
National Guard), and 90,000 enablers (about half of those are Guard and 
Reserve). Each will be capable of full spectrum operations once we 
reach a steady-state, ratio of time deployed (known as ``boots on the 
ground'' or BOG) to time at home (dwell) of 1:2 (BOG:dwell) for active 
component forces and 1:4 for reserve component forces. This versatile 
mix of land forces could sustain operations in Iraq and Afghanistan. At 
lower demand levels, a sustainable BOG:dwell ratio of 1:3 for active 
component forces and 1:5 for reserve component forces provides ready, 
global reaction forces and regionally-oriented forces for engagement in 
support of Theater Security Cooperation Programs. This process also 
allows strategic flexibility to surge in response to unexpected 
contingencies across the spectrum of conflict, and provides operational 
depth with more forces available for longer commitment times.
    The increased demands of our combatant commanders, coupled with the 
size of our active component (AC) force, require that we continue to 
integrate reserve component (RC) forces as part of our operational 
force. Continued and routine access to our RC forces is essential to 
sustaining current operations, and is improving the overall operational 
experience and quality of our RC forces. Additionally, sufficient Army 
National Guard (ARNG) forces must be ready and immediately available to 
their state and territorial authorities to respond to domestic crises. 
We are building an integrated Army in which our RC forces are included 
in the rotational cycle, but at a deployment rate of about half that of 
their AC counterparts.
    The ARFORGEN process increases predictability for Soldiers, 
Families, employers, and communities, and enables our RC to remain an 
integral element of the operational force while providing the Nation 
with the strategic depth (i.e. those non-deployed units which are 2 to 
3 years from commitment) and operational flexibility to meet unexpected 
contingencies.
    The Army has undergone significant changes in recent years, and we 
must continue to change in order to keep pace with an environment of 
uncertainty and complexity in this era of persistent conflict. The same 
requirements that drive the imperative to change also drive our 
modernization efforts and need for institutional adaptation.

Realizing Change
    To become the Army the Nation needs in the second decade of the 
21st century, we are transforming the Army and prioritizing programs 
and efforts that show the most promise for today and tomorrow. 
Similarly, we are transforming business processes across the Army, 
including how we identify requirements, acquire, and provide materiel 
capabilities to our Soldiers, and how we adapt our institutions to 
align with the ARFORGEN process.
    On April 6, 2009, Secretary Gates announced his adjustments to the 
defense program as part of the President's budget proposal for fiscal 
year 2010. The Secretary's decisions had an immediate and major impact 
on our FCS-centric Army modernization effort. He terminated the MGV 
portion of FCS, directing that we ``reevaluate the requirements, 
technology, and approach--and then re-launch the Army's vehicle 
modernization program. . . .'' He further directed the Army to 
``accelerate the initial increment of the program to spin out 
technology enhancements to all combat brigades,'' and retain and 
deliver software and network development program in increments, and 
incorporate MRAP into our force structure. Secretary Gates' intent for 
these bold adjustments was clear--to better reflect the lessons that we 
were learning from ongoing operations and better posture Army forces 
for a broader range of future challenges.
    To fully implement the Secretary of Defense's direction, the Army 
has developed a comprehensive plan. We refer to this new program as the 
Army's ``Brigade Combat Team Modernization Plan,'' which is a subset of 
our overall Army Modernization Strategy.

            BCT Modernization Plan
    We will leverage the lessons learned from the last 8 years to 
provide effective and affordable equipment now, while reducing the time 
it takes to develop and field new and updated materiel solutions. BCT 
Modernization includes four elements: modernizing the network over time 
to take advantage of technology upgrades, while simultaneously 
expanding it to cover ever increasing portions of the force; 
incorporating MRAPs into our force; rapidly developing and fielding a 
new Ground Combat Vehicle that meets the requirements of the 21st 
century Army; and incrementally fielding Capability Packages that best 
meet the needs of Soldiers and units as they train and then deploy.
    Army Network.--Central to the Army's modernization efforts is an 
enhanced and interoperable communication network that gives the Army a 
decisive advantage across the spectrum of conflict. The network 
supports leaders in making timely, informed decisions, and supports 
organizational agility, lethality, and sustainability. It allows our 
Soldiers to know where the enemy is, where other friendly forces and 
civilian populations are, and what weapon systems are available for 
them at any given time. The network links Soldiers on the battlefield 
with space-based and aerial sensors, robots, and command posts--
providing unprecedented situational awareness and control and enabling 
the application of precise lethal fires on the modern battlefield.
    Maintaining our technological advantage is a constant challenge. 
The Army's battle command network must be continuously upgraded to 
ensure security and provide improved capability, capacity, connectivity 
and operational effectiveness. The Warfighter Information Network 
(Tactical) (WIN-T) is designed to extend the network ultimately to the 
company level for BCTs and provide real-time information, such as high 
definition imagery, from surveillance sources. The Joint Tactical Radio 
System (JTRS) was born Joint with the specific requirement to resolve 
radio interoperability among the services. It will provide Soldiers at 
the tactical level with connectivity at extended ranges, including 
voice, data, and video, enabling them to move information from platoon 
to higher-level command posts in complex terrain (including urban and 
mountainous areas).
    MRAP Strategy.--In response to deadly IEDs in Iraq and Afghanistan, 
the Nation made a tremendous investment in fielding MRAPs that have 
saved lives by providing significantly improved protection for our 
Soldiers. The Army is incorporating these vehicles throughout its unit 
formations. Additionally, we used the basic design of the MRAP as the 
foundation for the M-ATV, modifying it for the mountainous terrain in 
Afghanistan and in other regions around the world. The MRAP family of 
vehicles provides the versatility our forces need to rapidly move 
around the battlefield, particularly in an IED environment, with the 
best protection we can provide.
    Ground Combat Vehicle.--Combining the lessons learned from the 
survivability of the MRAP, the tactical mobility of the Bradley 
Fighting Vehicle, and the operational mobility of the Stryker, the Army 
is developing a Ground Combat Vehicle (GCV) that possesses all of these 
qualities. Providing Soldiers protected mobility is our top design 
criteria. The first combat vehicle designed from the ground up to 
operate in an IED environment, the GCV will have enhanced mobility that 
will allow it to operate effectively in both urban and off-road 
environments. It will be designed to host the Army's network. And 
perhaps most importantly, it will have the capacity available to accept 
future upgrades incrementally as technologies mature and threats 
change.
    The GCV will be versatile enough to support our expeditionary 
requirements and be capable of carrying an infantry squad. It will 
combine sustainability features that match the availability rates of 
the Stryker while consuming less fuel than current vehicles of similar 
weight and power. The pace of change and the operational environment 
demand an expedited acquisition timeline, so the Army is pursuing a GCV 
program timeline that provides the first production vehicles in seven 
years.
    Capability Packages.--Capability packages provide the Army a 
regular, timely process to enable our deployable units with the latest 
materiel and non-materiel solutions based on the evolving challenges of 
the operating environment. The best available capabilities will go to 
the Soldiers who need them most, based on the threats they are likely 
to face. These bundles of capabilities will include materiel, doctrine, 
organization, and training to fill the highest priority requirements 
and mitigate risk for Soldiers. This incremental packaging approach 
will enable leaders to make timely, resource-informed decisions, and 
will help ensure that we provide the best available technologies to 
fulfill urgent needs to Soldiers in the fight--all driven by the cyclic 
readiness produced by ARFORGEN. These capability packages will upgrade 
our units as they prepare to deploy by providing them improved 
capabilities such as precision fires and advanced Intelligence, 
Surveillance and Reconnaissance (ISR).

            The Army Modernization Strategy
    The Army's Brigade Combat Team Modernization Plan is a key element 
of our overall Army Modernization Strategy. The Army Modernization 
Strategy reflects our overarching vision of how we will achieve our 
ends, which is to:
  --Develop and field an affordable and interoperable mix of the best 
        equipment available to allow Soldiers and units to succeed in 
        both today's and tomorrow's full spectrum military operations.
    The Army Modernization Strategy relies on three interrelated lines 
of effort:
  --Develop and field new capabilities to meet identified capability 
        ``gaps'' through traditional or rapid acquisition processes. In 
        support of this Line of Effort in fiscal year 2011 we have 
        requested $934 million to develop the Army's new Ground Combat 
        Vehicle (GCV), which will overcome critical capability gaps in 
        both current and future operations. It is envisioned to have 
        the tactical mobility of a Bradley, the operational mobility of 
        a Stryker, and the protection of an MRAP. We are also 
        requesting $459 million to procure the Extended Range Multi-
        Purpose Unmanned Aerial Vehicle. This extraordinarily capable 
        platform, which is already making a difference in Operation 
        Enduring Freedom, gives commanders longer dwell ISR 
        capabilities across a joint area of operations.
  --Continuously modernize equipment to meet current and future 
        capability needs through upgrade, replacement, 
        recapitalization, refurbishment, and technology insertions. 
        Army efforts in this Line of Effort include our request for 
        $887 million for the procurement of 16 Block III AH-64 Apache 
        Helicopters, as well as the upgrade of 13 AH-64 Helicopters to 
        Block II. Block III Apache is part of a long-term effort to 
        improve situational awareness, performance, reliability, and 
        sustainment of the Apache. Block II upgrades continue our 
        commitment to modernize the Army National Guard Aviation Fleet. 
        Additionally, in this line of effort, we have requested $505 
        million to upgrade Shadow RQ-7 UAVs. This key upgrade will 
        increase the payload capacity and enhance the performance of 
        this key ISR asset for our BCT Commanders.
  --Meet continuously evolving force requirements in the current 
        operational environment by fielding and distributing 
        capabilities in accordance with the Army Resource Priorities 
        List (ARPL) and Army Force Generation (ARFORGEN) Model. Meeting 
        the constantly evolving needs of theater commanders and the 
        demands of persistent conflict will require unprecedented 
        agility in our equipping and modernization programs. One 
        example of this agility can be found in our Kiowa Warrior 
        fleet. We are currently maneuvering our fleet of OH-58D Kiowa 
        Warrior Light Helicopters to meet Army and COCOM requirements 
        based on the ARFORGEN model. As Air Cavalry Squadrons return 
        from conflict, their OH-58D helicopters are placed into Reset. 
        Units in Reset have very few aircraft, if any. Because the 
        Kiowa Warrior fleet is short 35 aircraft overall, when the 
        squadrons transition into the Train/Ready Phase of ARFORGEN, 
        they are provided a number of helicopters sufficient to conduct 
        training (25), but less than what they are fully authorized 
        (30). When the units move into the Available phase, they are 
        provided their full complement of aircraft. It is this agility 
        that has allowed Army forces to meet the needs of theater 
        commanders for over eight years of sustained combat.
    What do we need? Congress has been very supportive of Army 
Modernization needs in the past. Their tremendous support has ensured 
that the Army Soldier is the best equipped and most respected combatant 
in the world. In order to execute Army Modernization and ensure the 
continued success of Soldiers and units, we depend on a variety of 
resources, not the least of which is predictable funding. For fiscal 
year 2011, we have requested $31.7 billion for procurement and 
Research, Development, Test and Evaluation (RDT&E) efforts.

            Adapting the Institution and Transforming Business 
                    Practices
    In addition to modernizing our operating force, we are transforming 
our institutional Army. As required by Section 904 of the 2008 National 
Defense Authorization Act (NDAA), the appointment of the Under 
Secretary of the Army as the Army's Chief Management Officer (CMO) has 
allowed the Army to develop a series of initiatives to adapt the 
institutional Army and transform our business practices. In accordance 
with Section 908 of the 2009 NDAA, these efforts will result in the 
development and implementation of a comprehensive program that 
establishes a series of measurable performance goals and objectives. 
Specifically, the comprehensive program will address the following:
 --Developing and implementing a business transformation plan focused 
        on running the Army as effectively and efficiently as possible.
 --Continuing the Army's business process reengineering activities, led 
        by OSD's Business Transformation Agency.
 --Developing an integrated business systems architecture that 
        emphasizes transparency and seamless access to data, and 
        provides timely and accurate information to decision makers.
 --Preparing Army leaders to take a greater role in inculcating the 
        Army with a cost-conscious culture.
    While the Army transformed its operating force--building versatile, 
agile units capable of adapting to changing environments--the 
institutional Army continued to use processes and procedures that were 
designed to support a pre-9/11 Army based on tiered levels of 
readiness. To support this new operating force, the Army must have an 
updated institutional Army--our generating force.
    Once the mission is defined, our institutions must seamlessly and 
continuously adapt--tailoring force packages and quickly adjusting 
training, manning, and equipping--to ensure units have all of the 
physical and mental tools necessary to succeed.
    Institutional agility allows us to adapt to the realities that 
present themselves. To that end, the CMO and Office of Business 
Transformation will build upon progress that has already been made 
toward the Army's institutional adaptation, specifically:
 --Improvement of the ARFORGEN process--aligning the generating force 
        and its processes to better support Soldiers, Families, and 
        units within the operating force.
 --Adoption of an Enterprise Approach--developing civilian and military 
        leaders who take a collaborative, holistic view of Army 
        objectives and resources to make better decisions for the Army.
 --Reformation of the requirements and resource processes--delivering 
        timely and necessary capabilities at best value.
    This transformational approach will overlay everything that the 
institutional Army does, with the unwavering goal of effectively and 
efficiently providing trained and ready forces to meet combatant 
commander requirements.

                       STEWARDSHIP AND INNOVATION

    The Army remains devoted to the best possible stewardship of the 
resources it is provided by the American people through Congress. The 
establishment of the CMO and initiatives related to the transformation 
of Army business practices represent the Army's effort to act as a 
responsible steward. Several other initiatives serve to conserve 
resources and to reduce waste and inefficiencies wherever possible.
    The Army achieved full operating capability of the new Army 
Contracting Command, Expeditionary Contracting Command, and Mission and 
Installation Contracting Command in 2009. These organizations are 
dedicated to ensuring professional, ethical, efficient, and responsive 
contracting.
    Civilians are assuming increased responsibilities within the Army. 
The Army is recouping intellectual capital by in-sourcing former 
contracted positions that were associated with inherently governmental 
functions. In fiscal year 2009, the Army saved significant resources by 
in-sourcing more than 900 core governmental functions to Army 
Civilians. We plan to in-source 7,162 positions in fiscal year 2010, 
and are programmed to in-source 11,084 positions during fiscal year 
2011-2015, of which 3,988 are acquisition positions. These positions 
were identified in the Army's ongoing contractor inventory review 
process.
    In the Employer Partnership program, the Army Reserve works with 
public agencies and private employers to leverage their shared 
interests in recruiting, training, and credentialing highly skilled 
Citizen-Soldiers. The Army Reserve has signed more than 800 partnership 
agreements with corporations, state agencies, and local police 
departments.
    Energy security is a key component of Army installations, weapons 
systems, and operations. The Army has developed a comprehensive energy 
security strategy, and is acting now to implement initiatives to make 
us less dependent on foreign sources of fuel and better stewards of our 
nation's energy resources. In support of these goals, we fielded the 
largest hybrid vehicle fleet within the Department of Defense. Energy 
will continue to be a key consideration in all Army activities in order 
to reduce demand, increase efficiency, seek alternative sources, and 
create a culture of energy accountability, while sustaining or 
enhancing operational capabilities.
    The Army is committed to environmental stewardship. Through 
cooperative partner agreements and the Army Compatible Use Buffer 
Program, the Army protected more than 28,000 acres of land at 14 
locations in fiscal year 2009. Through creative solutions, the Army 
continues to conduct realistic training on its installations while 
protecting threatened and endangered species on Army lands.

               AMERICA'S ARMY--THE STRENGTH OF THE NATION

    The professionalism, dedicated service, and sacrifice of our all-
volunteer force are hallmarks of the Army--the Strength of our Nation.
    Our Soldiers and their Families quietly bear the burdens of a 
Nation at war. Our Civilians stand with them, dedicated to the Nation 
and the Army that serves it. Despite the toll that 8 years of combat 
has taken, these great Americans continue to step forward to answer our 
Nation's call. In an environment in which we must make hard choices, 
they deserve the very best we can offer, commensurate with their 
dedication and sacrifice.
    To continue to fulfill our vital role for the Nation, the Army must 
sustain its efforts to restore balance and set conditions for the 
future. We have made significant progress this year, but challenges 
remain. The continued support of Congress will ensure that the Army 
remains manned, trained, and equipped to protect our national security 
interests at home and abroad, now and in the future. America's Army--
the Strength of the Nation.

          ADDENDUM A--THE FISCAL YEAR 2011 PRESIDENT'S BUDGET

    The fiscal year 2011 President's budget asks for $245.6 billion for 
the Army. This budget, which includes $143.4 billion for the Base and 
$102.2 billion for the Overseas Contingency Operations (OCO) request, 
is necessary to: support current operations, increase forces in 
Afghanistan, responsibly drawdown in Iraq, sustain the all-volunteer 
force, and prepare for future threats.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Amounts requested by major appropriation category in the fiscal 
year 2011 President's budget include:
Military Personnel
    The fiscal year 2011 budget requests $71.0 billion, a $300 million 
increase over fiscal year 2010. Military Personnel funds support Army 
end-strength requirements for a Nation at war. This includes $1.2 
billion for the temporary wartime increase in personnel, an increase of 
$684 million over fiscal year 2010.
    This amount funds pay, benefits, and associated personnel costs for 
1,110,600 Soldiers: 547,400 Active, 358,200 Army National Guard, 
205,000 Army Reserve and funds an active component temporary end 
strength increase of 22,000.
    The OCO request will fund special pays, incentives, and the 
mobilization of reserve component Soldiers.

            Compelling Needs
    Support the Army's base endstrength and the temporary end strength 
increase in fiscal year 2011 to reduce strain on the force.
    Sustain authorities and funding of programs in support of wounded, 
ill, and injured Warriors and their Families as they transition back to 
duty or to civilian life.
    Provide recruiting and retention incentives and benefits to sustain 
the quality of our all-volunteer force, allow the Army to meet end-
strength objectives, and achieve Army standards for recruit quality.
    Enable the transition of the reserve component to an operational 
force by systematically building and sustaining readiness across the 
force and fund mobilization of RC units to support growing demand.
Operation and Maintenance
    The fiscal year 2011 budget requests $107.3 billion--a $7 billion 
increase from fiscal year 2010. Operation and maintenance funds Soldier 
and unit training; ground and air vehicle operating costs; depot 
maintenance; base operations, sustainment, restoration, and 
modernization; and a 1.4 percent Civilian pay raise.
    The OCO portion of the request includes $628 million for the 
training and sustainment of the temporary wartime increase in 
personnel--an increase of $242 million from fiscal year 2010.
    The budget request works to restore balance to the force by 
recognizing $587 million of enduring requirements for training and 
depot maintenance in the base rather than in OCO. The base funds home 
station training for 59 brigade combat teams, 24 rotations through the 
Army's combined arms training centers, and an increased investment of 
$154 million in scholarships, language and individual training. It 
improves network security; operationalizes the LandWarNet; supports 
continued development and fielding of administrative systems; and 
provides funding for improvements in financial audit readiness (as 
required in NDAA 2009) by requesting an additional $578 million above 
the fiscal year 2010 levels for these activities. The base budget also 
increases funding for facilities sustainment restoration and 
modernization by $320 million and includes one-time requests to support 
BRAC and the transition out of NSPS.
    The OCO request will fund the day-to-day cost of the wars, training 
to prepare units for deployment, force protection, in-theater 
maintenance and repair, drawdown of equipment from Iraq, and reset of 
Army Prepositioned Stocks and equipment returning from deployment.

            Compelling Needs
    Sustain readiness through Soldier and unit training, including 
realistic, full spectrum training at the Army's three combat training 
centers.
    Fund the reset of 30 brigades, other enabling units, and equipment.
    Resource installation services worldwide and support the Army 
Family Covenant to provide Soldiers and their Families the quality of 
life they deserve and to enhance the health of the force.
Procurement
    The fiscal year 2011 budget requests $30.3 billion--a $200 million 
decrease from fiscal year 2010. Procurement funds the Army's future 
force equipment requirements; sustains modernization and 
recapitalization; and fills equipment shortages. The OCO request will 
fund procurement of weapon systems to replace battle losses, 
replacement of equipment taken for current operations from the reserve 
components, and to fill urgent operational needs for deployed forces.

            Compelling Needs
    Fund the fielding of the first Capability Packages to two more Army 
brigades.
    Enhance Army command and control by providing an initial on-the-
move networking capability resident in the Warfighter Information 
Network--Tactical (WIN-T), Increment 2.
    Increase the Army's tactical agility through an aviation 
modernization strategy that highlights the increasing importance of 
unmanned aerial systems (ERMP, Shadow and Raven) and rotary wing 
aviation (AH-64D Block III Apache, UH-60M Black Hawk and CH-47F 
Chinook).
    Improve lethality and precision fires by modernizing the Patriot 
PAC-3 missile, the Guided Multiple Launch Rocket System, the High 
Mobility Artillery Rocket System, and the Paladin howitzer.
    Sustain access to training and war reserve ammunition by restoring 
stocks and the selective repair, upgrade and replacement of key 
ammunition production base equipment and facilities.
Research, Development, Test and Evaluation
    The fiscal year 2011 budget requests $10.5 billion, approximately 
the same amount requested last year.

            Compelling Needs
    Fund Brigade Combat Team modernization including initial Ground 
Combat Vehicle development and further development of the second set of 
Capability Packages.
    Support Network modernization including continued development of 
WIN-T increment 2 and increment 3.
    Continues the international partnership to develop the Patriot 
Medium Extended Air Defense systems (MEADS)
Construction, Base Realignment and Closure (BRAC), and Army Housing
    Fiscal year 2011 is a critical year for BRAC since this will be the 
final budget executed to meet the statutory deadline for many of the 
BRAC actions. fiscal year 2011 will be a particularly challenging year 
for BRAC as four of our major command headquarters and many of our 
military schools will be moving to new locations. The fiscal year 2011 
budget requests $7.9 billion--a $2.5 billion decrease from fiscal year 
2010. This funding supports the construction of facilities to support 
the growth and re-stationing of Army forces. The OCO request will fund 
construction in Afghanistan.

            Compelling Needs
    Fund BRAC requirements to meet fiscal year 2011 statutory 
timelines.
    Support construction of new family housing and improvements to 
existing housing.
    Support construction of permanent party and training barracks.
Other Accounts
    The Army is the executive agent for a variety of critical functions 
within the Department of Defense, to include the Chemical Agents and 
Munitions Destruction Program. Funding for this account is $1.6 billion 
in fiscal year 2011--a decrease of $100 million from fiscal year 2010. 
The Army also has responsibility for the Iraq Security Forces Fund 
(ISFF), Afghanistan Security Forces Fund (ASFF), and Joint Improvised 
Explosive Device Defeat Organization (JIEDDO) appropriations. The Army 
budgets for recurring sustainment costs of JIEDDO with fiscal year 2011 
funds at $200 million--an increase of $100 million from fiscal year 
2010. The OCO Request will fund JIEDDO initiatives. The ISFF and ASFF 
are funded entirely through the OCO request.

            Compelling Needs
    Fund the Afghan Security Forces Fund and the Iraq Security Forces 
Fund to enable building essential security capacity.
    Support JIEDDO appropriations and initiatives to combat the most 
dangerous threat to U.S. forces.
    Continue the safe destruction of chemical agents and munitions and 
the closure activities at selected chemical demilitarization sites.
Restoring Fiscal Balance
    Timely and full funding of the Army's fiscal year 2011 request of 
$245.6 billion will help ensure the Army is ready to meet the needs of 
the Nation and continue the process of restoring balance while setting 
the conditions for the future. Over the last 8 years, the Army has 
received significant portions of its funding for combat readiness 
through OCO appropriations. This recurring reliance on OCO funds and an 
overlap between base and OCO sustainment programs means that the Army's 
base budget does not fully cover the cost of both current and future 
readiness requirements. Because of this reliance, a precipitous drop or 
delay in OCO funding does not fully fund the readiness of our Army for 
the current conflict. Army continues the orderly restoration of the 
balance between base and OCO requirements in its fiscal year 2011 base 
budget request. This request fully funds Army authorized end strength 
and brings $965 million in O&M expenses back into the base rather than 
finance those requirements in OCO.

                ADDENDUM B--RESERVE COMPONENT READINESS

    Sections 517 and 521 of the National Defense Authorization Act 
(NDAA) 1994 require the information in this addendum be reported. 
Section 517 requires a report relating to implementation of the pilot 
Program for Active Component Support of the Reserves under Section 414 
of the NDAA 1992 and 1993. Section 521 requires a detailed presentation 
concerning the Army National Guard (ARNG), including information 
relating to implementation of the ARNG Combat Readiness Reform Act of 
1992 (Title XI of Public Law 102-484, referred to in this addendum as 
ANGCRRA). Section 521 reporting was later amended by Section 704 of 
NDAA 1996. U.S. Army Reserve information is also presented using 
Section 521 report criteria.
    Section 517(b)(2)(A).--The promotion rate for officers considered 
for promotion from within the promotion zone who are serving as active 
component advisors to units of the Selected Reserve of the Ready 
Reserve (in accordance with that program) compared with the promotion 
rate for other officers considered for promotion from within the 
promotion zone in the same pay grade and the same competitive category, 
shown for all officers of the Army.

----------------------------------------------------------------------------------------------------------------
                                                  Fiscal year 2008                     Fiscal year 2009
                                       -------------------------------------------------------------------------
              In the Zone                AC in RC              Army Average              AC in RC   Army Average
                                           \1\      Percent   (percent) \2\   Percent      \1\     (percent) \2\
----------------------------------------------------------------------------------------------------------------
Major.................................     0 of 1  .........         92.8     56 of 63       88.9         94.1
Lieutenant Colonel....................     1 of 1        100         89.1     16 of 20       80.0         87.9
----------------------------------------------------------------------------------------------------------------
\1\ Active component officers serving in reserve component assignments at time of consideration.
\2\ Active component officers not serving in reserve component assignments at the time of consideration.

    Section 517(b)(2)(B).--The promotion rate for officers considered 
for promotion from below the promotion zone who are serving as active 
component advisors to units of the Selected Reserve of the Ready 
Reserve (in accordance with that program) compared in the same manner 
as specified in subparagraph (A) (the paragraph above).

----------------------------------------------------------------------------------------------------------------
                                                  Fiscal year 2008                     Fiscal year 2009
                                       -------------------------------------------------------------------------
            Below the Zone               AC in RC              Army Average              AC in RC   Army Average
                                           \1\      Percent   (percent) \2\   Percent      \1\     (percent) \2\
----------------------------------------------------------------------------------------------------------------
Major.................................     0 of 4  .........          4.9       2 of 4       50.0          6.0
Lieutenant Colonel....................     0 of 0  .........         13.5       0 of 1  .........          7.2
----------------------------------------------------------------------------------------------------------------
\1\ Below the zone active component officers serving in reserve component assignments at time of consideration.
\2\ Below-the-zone active component officers not serving in reserve component assignments at time of
  consideration.

Section 521(b)
    1. The number and percentage of officers with at least 2 years of 
active-duty before becoming a member of the Army National Guard or the 
U.S. Army Reserve Selected Reserve units.
    ARNG officers: 14,760 or 36.3 percent
    Army Reserve officers: 19,573 or 59 percent
    2. The number and percentage of enlisted personnel with at least 2 
years of active-duty before becoming a member of the Army National 
Guard or the U.S. Army Reserve Selected Reserve units.
    ARNG enlisted: 85,255 or 26.8 percent
    Army Reserve enlisted: 63,311 or 41.6 percent
    3. The number of officers who are graduates of one of the service 
academies and were released from active duty before the completion of 
their active-duty service obligation and, of those officers:
  --The number who are serving the remaining period of their active-
        duty service obligation as a member of the Selected Reserve 
        pursuant to section 1112(a)(1) of ANGCRRA:
    --In fiscal year 2009, 10 graduates from Service Academies were 
            serving in the Army National Guard to complete their 
            service obligation.
    --In fiscal year 2009, 0 graduates from Service Academies were 
            serving in the Army Reserve to complete their service 
            obligation.
  --The number for whom waivers were granted by the Secretary of the 
        Army under section 1112(a)(2) of ANGCRRA, together with the 
        reason for each waiver:
    --In fiscal year 2009, no waivers were granted by the Secretary of 
            the Army.
    4. The number of officers who were commissioned as distinguished 
Reserve Officers' Training Corps graduates and were released from 
active duty before the completion of their active-duty service 
obligation and, of those officers:
  --The number who are serving the remaining period of their active-
        duty service obligation as a member of the Selected Reserve 
        pursuant to section 1112(a)(1) of ANGCRRA:
    --In fiscal year 2009, no distinguished Reserve Officers' Training 
            Corps (ROTC) graduate was released before completing their 
            active-duty service obligation.
  --The number for whom waivers were granted by the Secretary of the 
        Army under section 1112(a)(2) of ANGCRRA, together with the 
        reason for each waiver:
    --In fiscal year 2009, no waivers were granted by the Secretary of 
            the Army.
    5. The number of officers who are graduates of the Reserve 
Officers' Training Corps program and who are performing their minimum 
period of obligated service in accordance with section 1112(b) of 
ANGCRRA by a combination of (a) 2 years of active duty, and (b) such 
additional period of service as is necessary to complete the remainder 
of such obligation served in the National Guard and, of those officers, 
the number for whom permission to perform their minimum period of 
obligated service in accordance with that section was granted during 
the preceding fiscal year:
  --In fiscal year 2009, one ROTC graduate was released early from 
        their active-duty obligation. The officer is serving the 
        remainder of his/her obligation in the ARNG
    6. The number of officers for whom recommendations were made during 
the preceding fiscal year for a unit vacancy promotion to a grade above 
first lieutenant, and of those recommendations, the number and 
percentage that were concurred in by an active duty officer under 
section 1113(a) of ANGCRRA, shown separately for each of the three 
categories of officers set forth in section 1113(b) of ANGCRRA (with 
Army Reserve data also reported).
  --There are no longer active and reserve component associations due 
        to operational mission requirements and deployment tempo. 
        Active component officers no longer concur or non-concur with 
        unit vacancy promotion recommendations for officers in 
        associated units according to section 1113(a). However, unit 
        vacancy promotion boards have active component representation.
  --In fiscal year 2009, 2,223 ARNG officers from units were 
        recommended for position-vacancy promotion and promoted. This 
        number consists of 319 U.S. Army Medical Department, 1,864 Army 
        Promotion List and 40 Chaplains.
  --In fiscal year 2009 the estimated percentage of Unit Vacancy 
        Promotions CPT through COL in which an active component 
        representation was on the state unit vacancy promotion board is 
        as follows:

------------------------------------------------------------------------
                                                                Percent
------------------------------------------------------------------------
AMEDD........................................................         12
APL..........................................................         10
Chaplain.....................................................         13
------------------------------------------------------------------------

  --In fiscal year 2009, 59 Army Reserve officers from units were 
        recommended for position-vacancy promotion and promoted. This 
        number consists of 9 U.S. Army Medical Department, 47 Army 
        Promotion List, and 3 Chaplains.
    7. The number of waivers during the preceding fiscal year under 
section 1114(a) of ANGCRRA of any standard prescribed by the Secretary 
establishing a military education requirement for non-commissioned 
officers and the reason for each such waiver.
  --In fiscal year 2009, the ARNG had a total of 201 Noncommissioned 
        Officers receive a military education waiver. As of September 
        30, 2009 all those waiver recipients were eligible for 
        promotion to the next rank, but none have obtained the military 
        education requirement that was previously waived.
  --In fiscal year 2009, the Army Reserve had a total of 331 Soldiers 
        receive a military education waiver. Of these, 124 were SGTs in 
        need of a waiver for Warrior Leader Course (WLC) as a result of 
        being deployed or assigned to Warrior Transition Units (WTU) 
        (Medical Hold or Medical Hold-Over Units) whose medical 
        condition was incurred in direct support of Overseas 
        Contingency Operations and who were otherwise eligible for 
        promotion, if recommended. Furthermore, eligible Soldiers 
        lacking the prerequisite level of military education due to 
        operational deployment conflicts or the inability of the Army 
        to schedule the course, were granted waivers. This included 173 
        Soldiers who were granted waivers for the Basic NCO Course (Now 
        Advanced Leader Course) and 34 Soldiers who were granted 
        waivers for the Advanced NCO Course (now Senior Leader Course).
  --The Secretary of the Army has delegated the authority for the 
        waivers referred to in section 1114(a) of ANGCRRA to the 
        Director, ARNG and to the Commander, U.S. Army Reserve Command. 
        A majority of these waivers were approved due to the Soldiers 
        being deployed and/or performing operational missions. Each 
        reserve component maintains details for each waiver.
    8. The number and distribution by grade, shown for each State, of 
personnel in the initial entry training and non-deployability personnel 
accounting category established under section 1115 of ANGCRRA for 
members of the Army National Guard who have not completed the minimum 
training required for deployment or who are otherwise not available for 
deployment. (A narrative summary of information pertaining to the Army 
Reserve is also provided.)
  --In fiscal year 2009, the ARNG had 61,812 Soldiers considered non-
        deployable for reasons outlined in Army Regulation 220-1, Unit 
        Status Reporting (e.g., pending administrative/legal discharge 
        or separation, medical non-availability, incomplete initial 
        entry training, officer transition, unsatisfactory 
        participation, or restrictions on the use or possession of 
        weapons and ammunition under the Lautenberg Amendment).
  --In fiscal year 2009, the Army Reserve had 49,330 Soldiers 
        considered non-deployable for reasons outlined in Army 
        Regulation 220-1, Unit Status Reporting (e.g., pending 
        administrative/legal discharge or separation, medical non-
        availability, incomplete initial entry training, officer 
        transition, unsatisfactory participation, or restrictions on 
        the use or possession of weapons and ammunition under the 
        Lautenberg Amendment).
    9. The number of members of the Army National Guard, shown for each 
State, that were discharged during the previous fiscal year pursuant to 
section 1115(c)(1) of ANGCRRA for not completing the minimum training 
required for deployment within 24 months after entering the National 
Guard. (Army Reserve data also reported.)
  --The number of ARNG Soldiers discharged during fiscal year 2009 
        pursuant to section 1115(c)(1) of ANGCRRA for not completing 
        the minimum training required for deployment within 24 months 
        after entering the Army National Guard is 141 officers and 
        15,105 enlisted Soldiers from all U.S. states and territories. 
        The breakdown by each state is maintained by the NGB.
  --The number of Army Reserve Soldiers discharged during fiscal year 
        2009 for not completing the minimum training required for 
        deployment within 24 months after entering the Army Reserve is 
        63 officers and 2,910 enlisted Soldiers. Soldiers who have not 
        completed the required initial entry training within the first 
        24 months are discharged from the Army Reserve under AR 135-
        178, Separation of Enlisted Personnel. Officers who have not 
        completed a basic branch course within 36 months after 
        commissioning are separated under AR 135-175, Separation of 
        Officers.
    10. The number of waivers, shown for each State, that were granted 
by the Secretary of the Army during the previous fiscal year under 
section 1115(c)(2) of ANGCRRA of the requirement in section 1115(c)(1) 
of ANGCRRA described in paragraph (9), together with the reason for 
each waiver.
  --In fiscal year 2009, no waivers were granted by the Secretary of 
        the Army for the Army National Guard or the U.S. Army Reserve.
    11. The number of Army National Guard members, shown for each 
State, (and the number of AR members), who were screened during the 
preceding fiscal year to determine whether they meet minimum physical 
profile standards required for deployment and, of those members: (a) 
the number and percentage that did not meet minimum physical profile 
standards for deployment; and (b) the number and percentage who were 
transferred pursuant to section 1116 of ANGCRRA to the personnel 
accounting category described in paragraph (8).
  --The number and percentage who did not meet minimum physical profile 
        standards required for deployment:
    --In fiscal year 2009, 242,777 ARNG Soldiers underwent a Periodic 
            Health Assessment (PHA) physical. Of these personnel 18,830 
            or 7.7 percent were identified for review due to a possible 
            deployment limiting condition or failure to meet retention 
            standards.
    --In fiscal year 2009, 115,133 Army Reserve Soldiers underwent a 
            PHA physical. Of these personnel 21,505, or 18.68 percent 
            were identified for review due to a possible deployment 
            limiting condition or failure to meet retention standards. 
            The fiscal year 2008-2009 increase is most attributable to 
            PHA physicals now being required annually.
  --The number and percentage that were transferred pursuant to section 
        1116 of ANGCRRA to the personnel accounting category described 
        in paragraph (8).
    --In fiscal year 2009, 18,830 ARNG Soldiers were transferred from 
            deployable to nondeployable status for failing to meet 
            medical deployability standards. This number includes 
            Soldiers returning from a mobilization with a new medical 
            condition and reflects an increase in the accuracy of 
            electronic databases.
    --In fiscal year 2009, 21,505 Army Reserve Soldiers were considered 
            non-available for deployment for failing to meet medical 
            deployability standards. The new PHA physicals being 
            required annually may account for the increase in those 
            being found to be non-deployable.
    12. The number of members and the percentage total membership of 
the Army National Guard shown for each State who underwent a medical 
screening during the previous fiscal year as provided in section 1117 
of ANGCRRA.
  --Repealed. Public Law 104-106 (NDAA 1996), Div. A, Title VII, 
        Section 704(b), February 10, 1996, repealed Section 1117 of 
        ANGCRRA.
    13. The number of members and the percentage of the total 
membership of the Army National Guard shown for each State who 
underwent a dental screening during the previous fiscal year as 
provided in section 1117 of ANGCRRA.
  --Repealed. Public Law 104-106 (NDAA 1996), Div. A, Title VII, 
        Section 704(b), February 10, 1996, repealed Section 1117 of 
        ANGCRRA.
    14. The number of members and the percentage of the total 
membership of the Army National Guard shown for each State, over the 
age of 40 who underwent a full physical examination during the previous 
fiscal year for purposes of section 1117 of ANGCRRA.
  --Repealed. Public Law 104-106 (NDAA 1996), Div. A, Title VII, 
        Section 704(b), February 10, 1996, repealed Section 1117 of 
        ANGCRRA.
    15. The number of units of the Army National Guard that are 
scheduled for early deployment in the event of a mobilization, and of 
those units, the number that are dentally ready for deployment in 
accordance with section 1118 of ANGCRRA.
  --Repealed. Public Law 104-106 (NDAA 1996), Div. A, Title VII, 
        Section 704(b), February 10, 1996, repealed Section 1118 of 
        ANGCRRA.
    16. The estimated post-mobilization training time for each Army 
National Guard combat unit (and Army Reserve unit), and a description, 
displayed in broad categories and by State of what training would need 
to be accomplished for Army National Guard combat units (and AR units) 
in a post-mobilization period for purposes of section 1119 of ANGCRRA.
  --Per January 2007 direction from the Secretary of Defense (SECDEF) 
        reserve component unit mobilizations are limited to 400-day 
        periods, including a 30-day post-mobilization leave and all 
        post-mobilization training.
  --The most significant impact of this policy change is that many 
        training tasks previously conducted during the first 3 to 6 
        months of mobilization have been identified for premobilization 
        training, and units are training to standard on as many of 
        these tasks as resources permit. Information on the type of 
        training required by units during postmobilization is 
        maintained by First Army. The data are not captured by state.
  --ARNG units strive to train in accordance with the Army Force 
        Generation (ARFORGEN) process in order to prepare for 
        operational missions and reduce post-mobilization training 
        time. The ARFORGEN process requires increased resources for 
        company-level training proficiency prior to mobilization. This 
        training generally consists of individual warrior training 
        tasks, weapons qualification and gunnery, battle staff 
        training, and maneuver training. This is followed by theater-
        specific tasks and higher level collective training to complete 
        the predeployment requirements for the unit's specific mission. 
        The goal for post-mobilization training time for a brigade-size 
        organization is approximately 60 days.
  --Post-mobilization training time is contingent upon the amount of 
        certified pre-mobilization training conducted, the type of 
        unit, and its assigned mission. In order to reduce post-
        mobilization training time, the ARNG has developed programs and 
        products such as the ARNG Battle Command Training Capability, 
        the eXportable Combat Training Capability (XCTC), training 
        devices, and range complexes for our units.
  --The combination of programs and products, provide units with the 
        capability to accomplish more during pre-mobilization training 
        and therefore reduce post-mobilization training time.
  --The Army Reserve developed the Regional Training Center (RTC) 
        concept in response to the SECDEF decision to restrict RC 
        mobilizations to 1 year. These centers provide the capability 
        for Army Reserve units to conduct training on Theater Specific 
        Required Training (TSRT) to theater standards and conditions. 
        The majority of training is on individual tasks but some 
        collective training is also conducted. Because of certification 
        by unit commanders, most of the training is not repeated in 
        post-mobilization status. Exceptions are for tasks incorporated 
        into other required training events and for convoy operations 
        training.
  --The TSRT training is for units that will deploy to theater, 
        including non-rotational forces (MTOE and TDA). Units 
        mobilizing for CONUS based missions do not require this 
        training.
  --Each RTC conducts standard rotations throughout the year although 
        each has the capability to adjust training for selected large 
        unit participation. Initially the Army Reserve provided a staff 
        projection to DA that the training would require 17 days, but 
        in actual implementation the training has required 21 days.
  --Army goals for post-mobilization training for Army Reserve 
        headquarters and combat support/combat service support units 
        range from 30 to 60 days. Post-mobilization training conducted 
        by First Army typically consists of counterinsurgency 
        operations, counter-improvised-explosive-device training, 
        convoy live-fire exercises, theater orientation, rules of 
        engagement/escalation-of-force training, and completion of any 
        theater-specified training not completed during the pre-
        mobilization period.
    17. A description of the measures taken during the preceding fiscal 
year to comply with the requirement in section 1120 of ANGCRRA to 
expand the use of simulations, simulators, and advanced training 
devices and technologies for members and units of the Army National 
Guard (and the Army Reserve).
  --During fiscal year 2009, the ARNG continued to synchronize the use 
        of existing and ongoing live, virtual, and constructive 
        training aids, devices, simulations and simulators (TADSS) 
        programs with the training requirements of the ARFORGEN 
        training model. By synchronizing the use of TADSS with 
        ARFORGEN, the ARNG continues to improve unit training 
        proficiency prior to mobilization.
  --To support the training requirements of M1A1 Abrams and M2A2 
        Bradley-equipped Brigade Combat Teams (BCT's), the ARNG 
        continued the fielding of the Advanced Bradley Full-Crew 
        Interactive Simulation Trainer, which provides full crew-
        simulations training for M2A2 units, Tabletop Full-fidelity 
        Trainers for the M2A2, and the Conduct of Fire Trainer XXI for 
        M1A1 and M2A2. When fully fielded, these devices, in addition 
        to the Abrams Full-Crew Interactive Simulation Trainer XXI, 
        will be the primary simulations trainers to meet the virtual 
        gunnery requirements of M1A1 and M2A2 crews.
  --In order to meet the virtual-maneuver training requirements in the 
        ARFORGEN process, M1A1 and M2A2 units use the Close-Combat 
        Tactical Trainer (CCTT) and the Rehosted Simulations Network 
        (SIMNET) XXI, in addition to the Rehosted SIMNET CCTT Core. The 
        CCTT, SIMNET XXI, and SIMNET CCTT provide a mobile training 
        capability to our dispersed units.
  --In order to train all ARNG units on the tactics, techniques, and 
        procedures (TTPs) of convoy operations, the ARNG is fielding 
        the Virtual Convoy Operations Trainer (VCOT). The VCOT, through 
        the use of geo-specific databases, provides commanders with a 
        unique and critical mission rehearsal tool. Currently, 32 VCOT 
        systems are positioned in the ARNG force to train units on the 
        fundamentals of convoy operations.
  --In order to meet basic and advanced rifle marksmanship 
        requirements, the ARNG is fielding the Engagement Skills 
        Trainer (EST 2000). This system is the Army's approved 
        marksmanship-training device. The ARNG is also continuing use 
        of its previously procured Fire Arms Training System (FATS) 
        until EST 2000 fielding is complete. The EST 2000 and FATS are 
        also used to provide unit collective tactical training for 
        dismounted Infantry, Special Operations Forces, Scouts, 
        Engineer, and Military Police squads, as well as combat support 
        and combat service support elements. These systems also support 
        units conducting vital homeland defense missions.
  --The ARNG supplements its marksmanship-training strategy with the 
        Laser Marksmanship Training System (LMTS). The ARNG currently 
        has over 900 systems fielded down to the company level. The 
        LMTS is a laser-based training device that replicates the 
        firing of the Soldier's weapon without live ammunition. It is 
        utilized for developing and sustaining marksmanship skills, 
        diagnosing and correcting marksmanship problems, and assessing 
        basic and advanced skills.
  --The ARNG has further developed its battle command training 
        capability through the three designated Battle Command Training 
        Centers (BCTCs) at Fort Leavenworth, Camp Dodge, and Fort 
        Indiantown Gap, and the Distributed Battle Simulation Program 
        (DBSP). BCTCs provide the backbone of the program as collective 
        hubs in the battle command training strategy. The DBSP provides 
        Commanders assistance from Commander's Operational Training 
        Assistants, TADSS facilitators, and Technical Support Teams. 
        BCTCs and the DBSP collectively help units in the planning, 
        preparation, and execution of simulations-based battle staff 
        training that augments the Department of the Army-directed 
        Warfighter Exercises and greatly enhances battle staff and unit 
        proficiency.
  --In order to provide the critical culminating training event of 
        ARFORGEN, the ARNG has implemented the XCTC. The XCTC program 
        provides the method to certify that ARNG combat units have 
        achieved company-level maneuver proficiency prior to 
        mobilization. The XCTC incorporates the use of advanced live, 
        virtual, and constructive training technologies to replicate 
        the training experience until now only found at one of the 
        Army's Combat Training Centers. The centerpiece of the XCTC is 
        the Deployable Force-on-Force Instrumented Range System 
        (DFIRST). DFIRST utilizes training technologies that allow for 
        full instrumentation of the training area from major combat 
        systems down to the individual Soldier, role player, and 
        Civilian on the battlefield.
  --The most important part of every training exercise is the After-
        Action Review (AAR). By full instrumentation of the units, 
        Soldiers, and training areas, units receive an AAR complete 
        with two-dimensional, three-dimensional, and video playback of 
        the actual training exercise. This allows Commanders and 
        Soldiers to see what occurred during the training exercise from 
        a different perspective, further enhancing the training 
        experience.
  --The Army Reserve continues to leverage--to the extent resources 
        permit--TADSS into its training program. Implementation of Army 
        Campaign Plan Decision Point 72 continues with establishment of 
        the 75th Battle Command Training Division (BCTD) (Provisional). 
        This division, with five battle command training brigades, 
        employs legacy constructive simulations to provide battle 
        command and staff training to Army Reserve and Army National 
        Guard battalion and brigade commanders and staffs during pre-
        mobilization and post-mobilization. The concept plan as well as 
        requirements for supporting Army battle command systems and 
        simulations drivers for the 75th BCTD is pending Headquarters 
        Department of the Army (HQDA) approval.
  --The Army Reserve continues to partner with the Program Executive 
        Office, Simulations, Training and Instrumentation; Training and 
        Doctrine Command agencies; and HQDA to define TADSS 
        requirements for combat support and combat service support 
        units. The 75th BCTD is on the Entity-level Resolution 
        Federation (ERF) fielding plan. The ERF provides a high-
        resolution (e.g., individual Soldier-level fidelity aggregated 
        to unit resolutions) joint constructive battle staff training 
        simulation.
  --The LMTS and EST 2000 remain essential elements of Army Reserve 
        marksmanship training. LMTS procurement continues, and 
        distribution throughout the Army Reserve force continues to 
        increase. The LMTS has also been adapted to support convoy 
        operations training. In either individual pre-marksmanship 
        training or convoy modes, the system allows the Soldier to use 
        an assigned weapon, as well as crew-served weapons, in a 
        simulation/training mode. EST 2000 systems have been fielded to 
        many Army Reserve Engineer and Military Police organizations to 
        enable full use of its training capabilities by units with high 
        densities of crew-served weapons their at home stations.
  --The Army Reserve also has a number of low-density simulators it 
        employs to reduce expensive ``live'' time for unique combat 
        service support equipment. For example, Army Reserve watercraft 
        units train on the Maritime Integrated Training System (MITS), 
        a bridge simulator that not only trains vessel captains but the 
        entire crew of Army watercraft. In 2007 the Army Reserve 
        invested in communications infrastructure so that the MITS at 
        Mare Island, California can communicate and interact with 
        another Army MITS at Fort Eustis, Virginia. This provides the 
        capability to conduct distributed multi-boat collective 
        training among all the simulators. Of note, the MITS is also 
        used by U.S. Navy, U.S. Coast Guard, and harbor management 
        agencies. Other simulators include locomotive simulators used 
        by Army Reserve railroad units and a barge derrick simulator 
        for floating watercraft maintenance units. Other simulator 
        requirements are being identified in requirements documents.
    18. Summary tables of unit readiness, shown for each State, (and 
for the Army Reserve), and drawn from the unit readiness rating system 
as required by section 1121 of ANGCRRA, including the personnel 
readiness rating information and the equipment readiness assessment 
information required by that section, together with:
  --Explanations of the information: Readiness tables are classified. 
        This information is maintained by the Department of the Army, 
        G-3.
  --Based on the information shown in the tables, the Secretary's 
        overall assessment of the deployability of units of the ARNG 
        (and Army Reserve), including a discussion of personnel 
        deficiencies and equipment shortfalls in accordance with 
        section 1121:
    --Summary tables and overall assessments are classified. This 
            information is maintained by the Department of the Army, G-
            3.
    19. Summary tables, shown for each State (and Army Reserve), of the 
results of inspections of units of the Army National Guard (and Army 
Reserve) by inspectors general or other commissioned officers of the 
Regular Army under the provisions of Section 105 of Title 32, together 
with explanations of the information shown in the tables, and including 
display of:
  --The number of such inspections;
  --Identification of the entity conducting each inspection;
  --The number of units inspected; and
  --The overall results of such inspections, including the inspector's 
        determination for each inspected unit of whether the unit met 
        deployability standards and, for those units not meeting 
        deployability standards, the reasons for such failure and the 
        status of corrective actions.
    --During fiscal year 2009, Inspectors General and other 
            commissioned officers of the Regular Army conducted 947 
            inspections of the ARNG, inspecting 1,403 ARNG units. The 
            bulk of these inspections, 711, were executed by Regular 
            Army officers assigned to the respective States and 
            Territories as Inspectors General. First Army and the 
            Department of the Army Inspectors General conducted 96 of 
            the inspections, and the remaining 140 by the U.S. Army 
            Forces Command (FORSCOM); Training and Doctrine Command 
            (TRADOC); Communications-Electronics Command (CECOM); and 
            the U.S. Army Audit Agency. Because the inspections 
            conducted by Inspectors General focused on findings and 
            recommendations, the units involved in these inspections 
            were not provided with a pass/fail rating. Results of such 
            inspections may be requested for release through The 
            Inspector General of the Army.
    --Operational Readiness Evaluation data for the Force Support 
            Package and expanded separate brigades are unavailable, as 
            inspections thereof were eliminated as requirements in 
            1997. Data available under the Training Assessment Model 
            (TAM) relates to readiness levels and is generally not 
            available in an unclassified format. TAM data are 
            maintained at the state level and are available upon 
            request from state level-training readiness officials.
    --In accordance with AR 1-201, Army Inspection Policy, the U.S. 
            Army Reserve Command (USARC) conducts inspections of 
            regional readiness commands and direct support units within 
            requirements of the USARC Organizational Inspection Program 
            (OIP). Per the Army Regulation, OIPs at division levels and 
            above mainly comprise staff inspections, staff assistance 
            visits, and Inspectors General. Staff inspections are only 
            one aspect by which Commanding Generals can evaluate the 
            readiness of their commands. The Inspector General conducts 
            inspections and special assessments based on systemic 
            issues and trends analysis with emphasis on issues that 
            could impede the readiness of the Army Reserve.
    --The Chief, Army Reserve, directed the Inspector General to 
            conduct special assessments in fiscal year 2009 prompted by 
            concerns over systemic issues. One was the Special 
            Assessment of Training Management. Its objective was to 
            determine if units in the Army Reserve were in compliance 
            with Command Training Guidance for Training Years 2008-
            2010, with emphasis on the execution of weapons training, 
            remedial training, qualification, and ammunition 
            availability. This assessment also encompassed an annual 
            regulatory review of compliance with and effectiveness of 
            the Army Voting Assistance Program, a program of special 
            interest to the Department of the Army. Another was the 
            Special Assessment of the Impact of Army Reserve Equipment 
            Shortages (Funding/Availability/Modernization) and Training 
            with the U.S. Army Reserve Command (USARC), which evaluated 
            training issues due to equipment shortages and the affect 
            it had on our Soldiers' morale.
    --The Army Reserve is meeting regulatory requirements through a 
            combination of Battle-Focused Readiness Reviews (BFRRs) and 
            staff assistance visits, with the assistance visits 
            conforming to regulatory requirements of AR 1-201. The BFRR 
            is the tool used by major subordinate Commanders to provide 
            the Army Reserve Commanding General a status on resources 
            and readiness of their commands, and resolve systemic 
            issues/trends in order to achieve continuous improvements 
            in readiness. The Army Reserve conducted 19 BFRRs in fiscal 
            year 2009, while inspecting 65 units. The staff assistance 
            visits were more oriented to a particular topic in the 
            staff proponent's area.
    20. A listing, for each ARNG combat unit (and U.S. Army Reserve FSP 
units) of the active-duty combat units (and other units) associated 
with that ARNG (and U.S. Army Reserve) unit in accordance with section 
1131(a) of ANGCRRA, shown by State, for each such ARNG unit (and for 
the U.S. Army Reserve) by: (A) the assessment of the commander of that 
associated active-duty unit of the manpower, equipment, and training 
resource requirements of that National Guard (and Army Reserve) unit in 
accordance with section 1131(b)(3) of the ANGCRRA; and (B) the results 
of the validation by the commander of that associated active-duty unit 
of the compatibility of that National Guard (or U.S. Army Reserve) unit 
with active duty forces in accordance with section 1131(b)(4) of 
ANGCRRA.
  --There are no longer ground combat active or reserve component 
        associations due to operational mission requirements and 
        deployment tempo.
  --As FORSCOM's executive agent, First Army and U.S. Army Pacific 
        (USARPAC) for Pacific based Reserve Component units, execute 
        active duty associate unit responsibilities through both their 
        pre-mobilization and post-mobilization efforts with reserve 
        component units. When reserve component units are mobilized, 
        they are thoroughly assessed in terms of manpower, equipment, 
        and training by the appropriate chain of command, and that 
        assessment is approved by First Army or USARPAC as part of the 
        validation for unit deployment.
  --Validation of the compatibility of the Reserve Component units with 
        the active duty forces occurs primarily during training and 
        readiness activities at mobilization stations, with direct 
        oversight by First Army, USARPAC, and FORSCOM.
    21. A specification of the active-duty personnel assigned to units 
of the Selected Reserve pursuant to section 414(c) of the National 
Defense Authorization Act for Fiscal Years 1992 and 1993 (10 U.S.C. 261 
note), shown (a) by State for the Army National Guard (and for the U.S. 
Army Reserve), (b) by rank of officers, warrant officers, and enlisted 
members assigned, and (c) by unit or other organizational entity of 
assignment.

               TITLE XI (FISCAL YEAR 2009) AUTHORIZATIONS
------------------------------------------------------------------------
                                 OFF        ENL         WO       TOTAL
------------------------------------------------------------------------
U.S. Army Reserve...........         97        110          8        215
TRADOC......................         50          3          0         53
FORSCOM.....................        979      2,165        101      3,245
USARPAC.....................         30         49          1         80
                             -------------------------------------------
      TOTAL.................      1,156      2,327        102      3,593
------------------------------------------------------------------------


                  TITLE XI (FISCAL YEAR 2009) ASSIGNED
------------------------------------------------------------------------
                                 OFF        ENL         WO       TOTAL
------------------------------------------------------------------------
U.S. Army Reserve...........         28         77          7        112
TRADOC......................          5          5          0         10
FORSCOM.....................        659      2,119         85      2,863
USARPAC.....................         28         53          1         82
                             -------------------------------------------
      TOTAL.................        720      2,254         93      3,067
------------------------------------------------------------------------

  --As of September 30, 2009, the Army had 3,067 active component 
        Soldiers assigned to Title XI positions. In fiscal year 2006, 
        the Army began reducing authorizations in accordance with the 
        National Defense Authorization Act 2005 (NDAA 2005, Public Laws 
        108-767, Section 515). Army G-1 and U.S. Army Human Resources 
        Command (HRC) carefully manage the authorizations and fill of 
        Title XI positions. The data is captured at the command level. 
        The actual duty location for each position is not captured down 
        to the state level of detail.

    Chairman Inouye. And, may I now call upon General Casey.

              SUMMARY STATEMENT OF GENERAL GEORGE W. CASEY

    General Casey. Thank you, Mr. Chairman, Senators. I'll give 
you my whole statement for the record, and just try to 
summarize here for you, because of time.
    What I'd like to do, Mr. Chairman, is give you a short 
update on where we are on restoring balance, and then talk 
briefly about three areas that are priorities for the Army and, 
I would hope, for this committee, and that's sustaining our 
soldiers and families, reset, and our modernization efforts.
    Now, if I might, just to give you a quick update on 
balance, I've been saying, since 2007, that we were out of 
balance, that we were so weighed down by our current 
commitments that we couldn't do the things we knew we needed to 
do to sustain this force for the long haul, this All-Volunteer 
Force, and to prepare ourselves to do other things. And, with 
you, we have been working steadily at this since 2007.
    I will tell you, this budget, this 2011 budget, plus the 
drawdown in Iraq, gives us the resources and the time to 
complete the efforts that we began in 2007 to get ourselves 
back in balance.
    Let me just give you an update on some key parameters:
    First of all, growth. We completed the personnel growth 
that President Bush directed in January 2007, late last summer. 
And that is a huge boost for us. But, even as we completed that 
growth, it was clear that, for a number of reasons, we needed 
to continue to grow. And, as you mentioned in your opening 
statement, Mr. Chairman, the Secretary of Defense did authorize 
us to grow by another 22,000, and we can talk a little bit more 
about that in the questions and answers.
    The second element of balance is probably the most 
important, and that's ``dwell,'' the amount of time the 
soldiers spend at home. We have intuitively known that it takes 
about 2 or 3 years to recover from a 12-month combat 
deployment, yet we have been returning soldiers to combat in 
about 12 months, because we've been too small. Well, we've now 
documented that with a scientific study that we finished last 
year that shows it takes 2 to 3 years to recover from a 12-
month combat deployment. And so it is critically important that 
we continue to make progress to our dwell goals of 1 year out, 
2 years back, for the Active force; 1 year out, 4 years back, 
for the Guard and Reserve.
    Because of our growth and the drawdown in Iraq, even with 
the plus-up in Afghanistan--and our portion of that plus-up is 
about 20,000--we will get 70 percent of the Army to our goal 
of--Active Army to our goal of 1 to 2 by 2011; and 80 percent 
of the Guard and Reserve to 1 to 4 by 2011. The rest will get 
there in 2012. So that's critically important for us.

                        MODULARITY AND REBALANCE

    Third element I'd update you on is modularity. And you'll 
remember, back in 2004, we came to the subcommittee and said we 
were a cold war Army. We weren't organized into formations that 
could be organized to deal with the threat that presented 
itself. We were designed to face a Warsaw Pact threat. And we 
have been progressing ever since. Well, we are 90 percent of 
the way through converting all 300 brigades in the Army to 
modular designs, and we will largely finish that by 2011, which 
was our goal.
    The other element of organizational change is rebalancing. 
We had a lot of skills that were needed in the cold war, but 
were not necessarily as needed today. And we've converted over 
200 tank companies, artillery batteries, air defense batteries, 
into civil affairs, psychological operations, special forces 
companies. So that change has been going on.
    So together, modularity and rebalancing--largest 
organizational change of the Army since World War II, and done 
while we've been deploying 150,000 soldiers over and back to 
Iraq and Afghanistan every year.
    Next element of balance, we feel we can get more out of our 
force if we organize it on a rotational model, much like the 
Navy and Marine Corps have been on for years. And we're moving 
toward that, and it'll pay great benefits.
    And last, restationing. With the base realignment and 
closure and the growth, we're moving 380,000 soldiers, 
civilians, and family members all around the world, here, over 
the next few years, to complete that. But, the end result will 
be much better facilities for our soldiers and families.
    So, that's an update on rebalancing. With your support, we 
expect to largely complete what we set out to do in 2007, and 
be in a much different position by the end of 2011. And this 
budget is what gets us there. Still got stresses and strains, 
as the Secretary said, and not out of the woods yet.
    Now, if I could, just three quick priorities:
    Sustaining soldiers and families. They're the heart and 
soul of this force. Two years ago, we doubled the amount of 
money we were putting toward soldiers and family programs. 
We've sustained that, and this budget continues that effort.
    Second, reset. This budget contains almost $11 billion to 
reset about 30 brigades worth of equipment. That's, one, 
absolutely critical to sustaining the operational ready rates 
in the field in Iraq and Afghanistan, and to the long-term 
health of the force. And as we come down--draw down in Iraq, 
all that equipment has to go through the depots and get 
reconditioned before it's put back in the force. And I worry 
that people will say, ``Yes, okay, we're out of Iraq, we don't 
need money for reset anymore.'' That's not the case.

                              MODERNIZING

    And then, last, modernization. As you mentioned in your 
statement, the FCS--future combat systems--program was 
terminated. And we have, in this budget, the beginning of a 
brigade combat team modernization strategy that we believe is 
both affordable and achievable. And that's based on four 
elements:
    First of all, incrementally modernizing our network. And we 
do that incrementally so that we can take advantage of 
continuing growth in information technology.
    Second is incrementally fielding capability packages. In 
the future combat systems, we talked about spinouts, about 
capabilities that we could put into the force, ahead of the 
full system. We've refined that concept into capability 
packages, where we will incrementally put ready capabilities 
into the force as they're ready, rather than wait for the whole 
system to be developed.
    Third, we've incorporated the MRAP, the mine resistant 
ambush protected, vehicles into our forces. There's a 
significant investment in those vehicles, and we've 
incorporated them into the force. And then, last, this budget 
includes just under $1 billion of research and development 
effort for a new ground combat vehicle. And this vehicle will--
is designed as a replacement for the Bradley. It is an infantry 
fighting vehicle, and it is the first infantry fighting vehicle 
designed, from the ground up, to operate in an improvised 
explosive device (IED) environment. And it will become a very 
important element for us.
    I'll close with saying that I share your pride in what the 
men and women of this Army are doing around the world every 
day. I couldn't be prouder of them.
    And so I'd look forward to taking your questions.
    Thanks very much.
    Chairman Inouye. Thank you.
    Senator Brownback.
    Senator Brownback. No, Mr. Chairman, I don't have a 
statement to make. I would like to put one into the record.
    And I certainly thank our two presenters here today. And I 
look forward to making a couple of questions when my turn 
comes.
    Chairman Inouye. Without objection, your statement will be 
made part of the record.
    [The statement follows:]

              Prepared Statement of Senator Sam Brownback

    Mr. Chairman, I thank you and am pleased to attend my first Senate 
Appropriations Subcommittee on Defense hearing. I welcome Secretary 
McHugh and General Casey and look forward to your testimonies. On 
behalf of my state, I would like to thank the Secretary and General 
Casey for their commitment to the military men and women in Kansas, 
particularly at Fort Riley and Fort Leavenworth.
    The Army faces a number of major challenges covered in the prepared 
statements of today's witnesses. In particular, however, I would like 
to focus on the subject of warrior care and our commitment to soldiers 
and families.
    First, I applaud the Army's new Comprehensive Soldier Fitness 
program, an all-inclusive approach to emotional, social, spiritual, 
family, and physical fitness, to build resiliency within the Army. 
Recently the Army began a brain mapping program and I encourage these 
types of efforts to more fully understand the effect that trauma and 
injury can have on the functionality of the brain. These efforts could 
be a huge step in the right direction in suicide prevention and drug 
and alcohol abuse prevention. I also want to commend the Army for their 
collaboration with the National Institute of Mental Health on suicide 
prevention and I look forward to the benefits we as a society can gain 
from the research and programs the Army implements.
    Next, I would note that the budget provides $1.7 billion to family 
programs and services and I commend the Army for making these programs 
an important part of its budget. The Army is built on the backs of the 
families of its soldiers. I am pleased with the commitment the Army has 
made to the military family and I encourage the continued investment in 
support services to these families. The implementation of the Army 
Strong Community Centers is a needed service for those family members 
of the Army Reserve who so often do not have a physical base to call 
home.
    In particular, I want to highlight a couple of items worth of 
additional attention from the Army. First, following the example in 
Illinois and other facilities, I encourage the Army to look at joint 
VA/DOD hospitals to streamline care and provide the best medical 
services to military members, their families, and military retirees. A 
related issue involves transitioning our active duty soldiers into the 
VA system. There are several pilot programs that attempt to seamlessly 
transition active duty soldiers into the VA system but they have had 
limited success. Obviously, the new electronic medical records will be 
a huge step in help transition a soldier from DOD to the VA. However, 
the disability rating system is still too slow and behind the times. I 
ask that you work closely with the VA to ensure these soldiers are 
getting the proper care and benefits they are entitled to.
    I also want to highlight an emerging problem at Fort Riley, in my 
state, as well as other Army posts: school overcrowding. Fort Riley is 
again the home of the headquarters of the First Infantry Division and 
the combination of that move with other BRAC and Grow the Force 
decisions has led to a dramatic expansion of this post. I am very proud 
that the surrounding communities stepped up to the plate to prepare for 
the thousands of soldiers and family members arriving in the area. But 
after exhausting their bonding capacity to provide classroom space off-
post (which has already been filled), the local communities lack the 
ability to handle a much larger than anticipated on-post student 
population. I know that the Army and the Department of Defense are not 
usually in the business of school construction, but I also know that 
Fort Riley is not the only installation facing this problem. Other 
posts are now or will soon face similar issues, and we have to find a 
way to make sure these children have a place to go to school.
    It is a huge concern in the Fort Riley school district, a top 
priority of Major General Brooks, who commands the First Infantry 
Division, and something that I intend to prioritize during the upcoming 
appropriations process. I hope to learn more from the Army about what 
can be done to address this concern.
    Again, I thank the panel for their time and look forward to hearing 
how the Army plans to use this budget to meet the needs of our nation's 
military.

    Chairman Inouye. Gentlemen, I have a few questions. I'd 
like to submit the rest because of the technological nature of 
the questions. They refer to the Stryker, the cargo ship, and 
your program on balance.

                          STRESS ON THE FORCE

    But, at this stage, may I ask--as noted by all the 
witnesses and everyone that has gone to Iraq and Afghanistan, 
if they would say that the troops are under great stress? And, 
as such, we have noted suicide rates rising, alcohol abuse, and 
divorce rates. And you have provided additional mental health 
providers and launched a suicide prevention education program. 
Can you give us an update, Mr. Secretary?
    Mr. McHugh. I can, Mr. Chairman, and I appreciate your 
starting with this question, because obviously it goes to the 
core of the stress and the pressure under which these brave 
soldiers have been for the last 8 years, but it also shows, I 
think, the extent to which it reaches beyond the soldier into 
the family structure. I think it is one of the most important 
things we've done--I want to start by giving a tip of the hat 
to the Chief, and to my predecessor Pete Geren--who helped 
establish the program called comprehensive soldier fitness.
    This is a program that was started to try to provide 
resiliency training--to provide resiliency trainers to go out, 
throughout the force. And perhaps the Chief would like to 
comment further. But it allows people the opportunity, on an 
anonymous basis, through computer technology, but in a very 
real way, to find particularly tailored programs to help them 
cope. And that's a great start.

                           BEHAVIORAL HEALTH

    But we have to get down on the ground on a one-to-one 
basis. And, as you noted, Mr. Chairman, we're working very hard 
to try to expand the wide range of programs, including a 
dramatic plus-up in behavioral health specialists. In fact, now 
we see, in forward-deployed positions, the availability of 
behavioral health specialists, which is rated, generally, the 
ideal of one to every 700 troops. We're actually below that 
level now, but we're continuing to grow to that. Like what 
happens in the private sector, of course, growing that cadre of 
specialists has been a challenge, but I think we're making good 
progress.
    With respect to suicide, the Vice Chief of Staff, General 
Pete Chiarelli, has taken that under his wing and, I think, has 
done a terrific job in establishing a way forward to try to 
provide stress release, to try to keep a better assessment, the 
pre- and during and post-assessment surveys that are required 
now, as mandated by this Congress, for each soldier, so we can, 
hopefully, identify problems that--as they emerge, to engaging 
in a pretty revolutionary 5-year longitudinal study, for the 
cost of $55 million, with suicide specialists and the National 
Academy of--National Institute of Mental Health, rather, to try 
to understand the causes of suicide. The specialists tell us 
that the exciting thing about this is, they feel it will have 
application to the factors behind those who find themselves in 
a position of choosing suicide in the civilian sector, as well.
    We will receive reports, on a quarterly basis, to try to 
make sure that we're implementing hopeful and developing 
procedures to try to do a better job.
    So, whether it's alcohol abuse programs, with more money, 
more counselors, more availability; mental health; military 
life; family consultants; people to talk to; people to go to, 
to try to receive more help--we've taken a very holistic 
approach to this. We're doing a better job, but, as you noted, 
Mr. Chairman, the stresses continue, and those stressor 
indicators, across the board, continue to be troubling to us.
    Chairman Inouye. General, would you care to add to that?

                                SUICIDE

    General Casey. If I could, Chairman Inouye. Frankly, I'm 
personally frustrated with the effort that we have put on this 
over the last 3 years, and then particularly over the last 
year, that we haven't stemmed the tide. And we've increased by 
about 18 suicides a year since 2004. In this past year, with 
all the effort we made, we increased by about 20. And as I 
looked at this over the past years, it was clear that we were 
shooting behind the target with a lot of these programs. And 
that's why we instituted the Comprehensive Soldier Fitness 
Program, to give the soldiers and family members and civilians 
the skills they need on the front end to be more resilient and 
to stay away from suicide to begin with. It's a long-term 
program, but I think that is the only way that we are 
ultimately going to begin to reduce this.
    And the last thing I'd say is this is not just an Army 
problem. There was an op-ed in The Washington Post this morning 
talking about the impact of suicide in society; we all have to 
go at this together. I think this National Institute of Mental 
Health study that we've done is going to help everybody.
    Thank you.
    Mr. McHugh. Mr. Chairman, can I add just one point? We 
know, both intuitively and, as the chief mentioned in his 
comments, by the findings of the mental health advisory teams 
that we employ, that the operations and personal tempo--OPS and 
PERSTEMPO--and the boots on the ground (BOG)/dwell inadequacies 
are critical, across the board, to all of those stressor 
indicators, and suicide is primary amongst them. So, as we 
continue to do a better job on keeping people back home between 
deployments, we're hopeful that'll have a positive effect on 
the suicide rates, as well.
    Chairman Inouye. I thank you very much.

                                STRYKER

    General, I'd like to ask a few questions on the Stryker. 
We've been watching media reports from Afghanistan that suggest 
that these Strykers are quite vulnerable to the explosive 
devices; and also they suggest that the Strykers' weight may be 
a bit too heavy to give it the necessary mobility it needs in 
this Afghanistan theater. What are your thoughts on this?
    General Casey. Well, as you can imagine, Mr. Chairman, 
we've been watching this very carefully for some time. And, the 
Stryker Unit that went into southern Afghanistan ran into some 
pretty heavy IEDs--I mean, hundreds of pounds of explosive 
weight--and, it did suffer some significant casualties. We've 
been working very hard on this, over time, to increase the 
survivability of the Stryker. I will tell you, it is more 
survivable than the up-armored Humvee and less survivable than 
the mine resistant ambush protected (MRAP), and we knew that, 
going in there.
    Before we sent it in, we implemented a number of 
survivability enhancements to the vehicle, and we are in the 
process of evaluating whether those are enough to operate in an 
IED environment. We are actually in the process of exploring a 
V-shaped hull kit, much like we were developing for the manned 
ground vehicle with the Future Combat Systems Program, that 
could enhance the survivability of the Stryker against 
underbelly improvised explosive devices. But, again, we've 
implemented a range of different options to enhance the 
survivability.
    I'm less concerned about the weight and the decrease in 
mobility. The Strykers have been remissioned, actually, to a 
mission of road security that actually takes advantage of the 
mobility that they provide.
    Last thing I'll say is, they served for me in Iraq in an 
IED environment, and we were not nearly as challenged in that 
environment as we were in Afghanistan. So, it's still a very 
important vehicle in an element of our force mix.
    Mr. McHugh. Well, the only thing I would add is that, as 
we're finding in these theaters, not all equipment fits in all 
circumstances. The Stryker, something that I was a big 
supporter of when I was on the Armed Services Committee, has 
proven to be enormously effective. It's had 11 successful 
deployments in these two theaters, and we expect more. In terms 
of the feedback from the commanders forward-deployed, they view 
it as a very valuable resource. Can we make it better, more 
survivable? As the Chief mentioned, we're doing that on a 
variety of R&D programs. And the V hull--double V hull is 
preeminent amongst them. But, we think this is a very important 
program, and we have a great deal of confidence in it.

                              RECRUITMENT

    Chairman Inouye. Mr. Secretary, we'd like to congratulate 
you on your recruiting program. You have recruited all the 
numbers you need, and the quality of personnel. My question 
would be, can you maintain this trend? And are you funded 
sufficiently?
    Mr. McHugh. The answer to the first question, sir, is, we 
hope so, and we're working to try to make sure that happens. 
General Ben Freakley, who's the head of our Accessions Command, 
I think has done an amazing job. But, the most effective thing 
he's done is to try to recognize that we, in our recruiting and 
retention efforts, are, to a very significant degree, the 
beneficiaries of this economy. As Americans, we hope the 
economy turns around quickly, but that will change the 
environment in which we send out these recruiters and bring 
people--young people into the force. And we're trying to 
prepare and revamp and refigure our efforts and our programs to 
be prepared for that.
    The money, for the moment, is significant. One of the major 
complaints I had, when I was chairman of the Personnel 
Subcommittee in the other body, was that we had an up-and-down 
on recruiting resourcing. And you have to maintain, in my 
humble judgment, a certain level of consistency to make sure 
you're not eroding away your base, not eating your seed corn. 
Now, it's totally appropriate, in this environment, that we cut 
back on some of the inducements, some of the bonuses we're 
paying. They're not necessary in this environment. But, we have 
to maintain that. I'm hopeful we're going to do that, I think 
we're poised to do it, but we'll have to keep a very close eye 
on it in the future.
    Chairman Inouye. I thank you, sir.
    General Casey. If--Mr. Chairman, if I could.
    Chairman Inouye. Yeah.
    General Casey. To your point about stress on the force we 
measure a lot of things to tell us about whether the force is 
under stress. And it is. But, also to alert us that we may 
break the force. Last year, over 260,000 men and women enlisted 
or reenlisted in the Army, the Army Guard, or the Reserve. 
That's a very positive indicator of their commitment and their 
willingness to continue to serve.
    Chairman Inouye. Mr. Secretary and General, I'll be 
submitting for your consideration questions on the brigade 
combat team modernization, on the future role of the MRAP, the 
Aerial Scout helicopter; the question on SDS, and the question 
on joint cargo aircraft.
    As you know, we are attending the memorial services for our 
great friend, and a great patriot, the Congressman from 
Pennsylvania.
    So, if I may, at this stage, call upon Senator Shelby.
    Senator Shelby. Thank you, Mr. Chairman.

                                STRYKER

    I'd like to pick up on the area dealing with the Strykers, 
and so forth, that the chairman was getting into. It's been my 
understanding, from serving on this subcommittee many, many 
years, and the Armed Services Committee, before this, when they 
were developing, you know, the Stryker.
    The Stryker has been very good in a lot of areas, as the 
Secretary alluded to. The question, I guess, now, General 
Casey, is, How long would it take, if we do go a double V-, or 
something like that, -shaped hull on the Stryker, to give them 
the MRAP-like protection, give them more protection? Because 
our troops need that in Afghanistan. And where are you in that 
regard?
    General Casey. I can't tell you exactly how long it's going 
to take----
    Senator Shelby. Okay.
    General Casey [continuing]. Because we're in the early 
design stages of it. But, we are moving rapidly to get it 
built, tested, and into the hands of the forces as quickly as 
we can.
    Senator Shelby. But, from an engineering standpoint, it 
looks to me, from what I've been briefed on, that that could be 
a probability, more than a possibility, to do this stuff. In 
other words, to reequip and make the Stryker more safe.
    General Casey. Absolutely. In fact, as I said, we developed 
a V-shaped hull kit for the manned ground vehicle, the future 
combat systems vehicle. So, the technology is out there, and 
it's available. And, I think it has great promise.
    Senator Shelby. Thank you.
    Do you agree with that Mr. Secretary? I know you--you've 
been a supporter of the Stryker----
    Mr. McHugh. Yeah----
    Senator Shelby [continuing]. As I have.
    Mr. McHugh [continuing]. I have, and--although the 
environment has changed dramatically. That's not a step----
    Senator Shelby. You have to----
    Mr. McHugh [continuing]. Back----
    Senator Shelby [continuing]. Change with it----
    Mr. McHugh [continuing]. From----
    Senator Shelby [continuing]. Though, don't you?
    Mr. McHugh. Yes, you--absolutely, sir.
    I think it's worth noting that the manufacturer stepped out 
and recognized this early on, and has been working--not 
extrajudiciously, but been working on this and studying it for 
some time. And, that's a great compliment to them, to recognize 
they want to keep this platform as relevant and as safe as 
possible.
    I'm optimistic, at this time, that we can field this. We've 
done it with the MRAP as a start-from-the-ground-up system, we 
have the Stryker out in the field. I'd like to think, and have 
enough faith in our engineering capability, that we can pull 
this off, and do it in a timely fashion.
    Senator Shelby. If we can do that, though--the Stryker has 
a lot of utility that some of the other vehicles don't have, 
right?
    Mr. McHugh. The commanders have told us, time and time 
again--and I just got back from my 15th visit to Iraq and 4th 
to Afghanistan--that they like and value this platform.
    Senator Shelby. Yeah. We all do.
    General Casey. If I--sorry. Could I just add----
    Senator Shelby. Yes, sir, General.
    General Casey [continuing]. Something to this, because I 
think it's important. I mentioned that the ground combat 
vehicle that we're putting in this budget is the first vehicle 
designed from the ground up to operate in an IED environment.
    Senator Shelby. That would take----
    General Casey. Each----
    Senator Shelby. That would take the place of the----
    General Casey. The Bradley.
    Senator Shelby. That would succeed the Bradley.
    General Casey. That's correct. But the issues that we're 
having with the Humvee and the Stryker are all because they 
were developed not necessarily to operate in IED environments. 
So, we're adapting as we go.

                        UNMANNED AERIAL VEHICLES

    Senator Shelby. Mr. Secretary, I'd like to get in the area 
of the unmanned aerial vehicles (UAVs), if I could, which is 
very important to the Army and to our soldiers. One issue that 
continues to be of concern is the Army's ability to continue 
utilizing unmanned systems when and where our soldiers want to 
control them. I continue to hear, from our commanders on the 
ground, about the importance of the Army--of our commanders--
retaining control of tactical UAVs. We've been through this 
before. I know that a great deal of our success in the theater 
hinges upon this capability, command and control. And I'm 
pleased that the Army has not lost many of these systems, due, 
in part, to the fact that the unmanned systems can land 
themselves.
    What I'm concerned about, Mr. Secretary--and I'll bet 
you've been through this--you and General Casey--is enemies 
being able to back into these systems, like we saw with the Air 
Force Predator system last year. Could you describe what the 
Army is doing to mitigate this threat, if you can talk about it 
here, and also talk a little about the cyber initiatives that 
the Army's pursuing in this area? Without getting into 
classified.
    Mr. McHugh. I appreciate your sensitivity there----
    Senator Shelby. Yeah.
    Mr. McHugh [continuing]. Senator. I think I can say, 
generically--first of all, the Army greatly values, and, as you 
noted, sir, correctly, the commanders feel very strongly about 
the Army's need to have these capabilities, particularly at a 
strategic level. The Army's----
    Senator Shelby. And control, too, isn't it?
    Mr. McHugh. Yes, sir. The Army is going forward with an 
unmanned systems program that starts with the extended range 
multi-purpose (ERMP), which is provided for in this budget, 
future development, right down to the Raven, which provides 
command-and-control opportunities for us, as well.
    As to what we read about in the press, I think I can say 
that all the services recognized that potential vulnerability 
early on, and have reacted very aggressively to it. And, for 
the moment, we feel comfortable as to the security systems in 
place. I'd be happy to go into closed session----
    Senator Shelby. Sure.
    Mr. McHugh [continuing]. And provide you----
    Senator Shelby. Whenever the chairman wants to get into 
that, sure.

                            MI-17 HELICOPTER

    One last question, Mr. Secretary. The Mi-17 helicopters. 
The Department of Defense, as you well know, has spent about $1 
billion of funding to noncompetitively purchase nearly 50 
Russian Mi-17 helicopters for Iraq, Afghanistan, and Pakistan. 
I've expressed to the Secretary of Defense, not to you yet, as 
well as this subcommittee, my grave concerns regarding the use 
of U.S. taxpayer dollars for Mi-17s, based on what we believe 
are false assumptions, a total lack of requirements and no 
analysis of alternatives.
    The Army has been very involved with the procurement of 
these helicopters. And until I raised this concern, last fall, 
it appeared that the Army was completely fine with funneling 
millions of dollars to the Russians to equip the Iraqis and 
Afghans, based on nothing more, as we understand it, than the 
fact that these militaries had once seen an Mi-17 in the area.
    I'd like to point out that the Mi-17s have an exceptionally 
high, as you well know, maintenance requirement, parts and 
services, and they're not ready available for in theater. And 
the U.S. trade sanctions, I believe, were violated in the 
initial procurement.
    Finally, it's also my understanding that this platform 
specifically violates the U.S. Army airworthiness requirements, 
document AR 70-62. The question--I'm getting to it, Mr. 
Secretary, slowly--now, that the Army has been designated as 
the lead service for the Mi-17 procurement and has established 
a nonstandard rotary-wing program management office, why are 
there still no requirements or analysis of alternatives to 
this?
    And, if I could, Mr. Secretary, I'd like to just remind the 
subcommittee--our subcommittee, here--that the 2010 Defense 
appropriation bill requires a report detailing the current and 
anticipated demand for Mi-17s for Iraq, Afghanistan, and 
Pakistan; the anticipated availability or shortage of 
additional airframes; the sustainability of the airframe slated 
for use; an analysis of alternative airframes; and the future 
cost and funding sources available for procuring Mi-17--C-17s 
within 60 days of the enactment of the bill. That was 74 days 
ago, Mr. Secretary. Where are we, here?
    Mr. McHugh. After 5 months----
    Senator Shelby. That was a----
    Mr. McHugh [continuing]. In the----
    Senator Shelby [continuing]. Long statement----
    Mr. McHugh [continuing]. Building, I've had a----
    Senator Shelby [continuing]. I know that.
    Mr. McHugh [continuing]. Great time to analyze what your 
question suggests is a very complex problem, Senator. And, I 
would answer in this way.
    First, I would beseech you for the opportunity to sit down 
with you and to go into----
    Senator Shelby. Absolutely.
    Mr. McHugh [continuing]. Greater detail.
    Second of all, as I--as you stated correctly, and as I 
think it needs to be further expanded upon, this is a DOD-
directed program. The Army has been--as you again correctly 
noted, been designated the lead agent and administrator on 
this, but that is to implement DOD policy. The procurement 
program is intended, and has been explained to me, to meet 
current and near-term needs on the battlefield. And both the 
Iraqis and Afghanistans have seen the Mi-17s. It's been 
explained to me----
    Senator Shelby. Probably flying around.
    Go ahead.
    Mr. McHugh. It's been explained to me that those pilots--
and I know you understand the development of the personnel and 
the specialists to serve in both the Iraqi and the Afghan 
security forces, to actually pilot and to do other specialty 
military occupational specialists (MOSs), in their ranks, is 
somewhat strained. But, in the near term, those who have seen 
it have also flown it and are prepared to operate in those 
particular platforms.
    You're correct, as well, their maintenance scheduled needs 
are somewhat of high operations tempo, but in complexity they 
are somewhat simple, in that--and I'm probably the last person 
in the world to be talking about this, but--in that the 
mechanics and the opportunities for repair and maintenance are 
relatively routine.
    Having said that, and as a Buy American kind of individual, 
I think it's totally appropriate, as we go forward, that we 
continue to assess the program. And at such time as it's 
appropriate, when perhaps the theater needs growth, we 
reexamine exactly which way should--we should go in future 
platforms. But----
    Senator Shelby. Well, that would include alternatives as 
you analyze the needs, right?
    Mr. McHugh. As directed by the Department of Defense. And 
as everybody in theater, including the Iraqis and Afghanistans, 
get more sophisticated across the board, I assume their needs 
and their capabilities will expand.
    Senator Shelby. Well, I'd like to meet with you sometime, 
and we'll expand this a little bit further.
    Mr. McHugh. I'd be honored to.
    Senator Shelby. Mr. Chairman, thank you.
    Chairman Inouye. Thank you.
    Senator Brownback.
    Senator Brownback. Thank you very much, Mr. Chairman.
    Secretary, General, good to see you.
    Let me start off just thanking you for your work you're 
doing on the--both the suicide and post traumatic stress 
disorder (PTSD)--traumatic brain injury (TBI)--work. I think 
it's--one of the startling things to me, when I came in as 
Congressman, was the number of veterans that we were having in 
our office and coming by that were having a lot of long-term 
difficulties from the Vietnam war and era.
    And I think one of the things we didn't get on top of was 
what was happening to them mentally after they came back from 
combat. And I--boy, I see that thing playing out again, if we 
don't get on top of it. And, it seems like the military's 
recognizing that and saying, ``No, something's going on here, 
and we need to get on top of this.'' Because, otherwise, you're 
going to get a lot of long-term problems, difficulties. And 
it's like almost anything, the sooner you get on top of it, the 
more likely you are to be successful with your options, and the 
more options you generally have available. So, I really applaud 
that.
    And I also applaud that I think we can find things out, 
here, that could be helpful to the broader society. Suicide 
rates in our young people is the third highest cause of death 
in teenagers. And you're going, ``You know, why on Earth is 
that?'' You know, when you live in a great country like this, 
and opportunities that are here. But, you know, people really 
develop a thought that there's just no hope. And when they get 
to that point in time, then options for doing very drastic, 
dramatic, self-harmful things grows, and the more likelihood 
there is that it happens.
    You're doing some work on brain mapping studies, that I'm a 
big fan of, because I think that may teach us what's going on 
mentally, inside of a person. And the brain is the final 
frontier for us as a--as an organ. I mean, it's just 
phenomenal, and it's complex, and we don't understand it very 
well. But, you guys' work on this could really help us 
understand a lot of those complex inputs, and how they're 
processed, and what happens. So, I really want to urge you, and 
support that effort.
    A final thought in this area, my own personal experience 
and view has been that the resources are available, but it's 
that there are plenty of resources that are there, but 
generally when a person gets into this stage, they've blown 
through most of their relationships. They've blown through, 
maybe, a spousal relationship, family relationship, friends, 
and they're on their own now. They're alone in it.

                           SUICIDE PREVENTION

    And that's when you get in trouble, in that if there's a 
way that we can look at encouraging those, or spotting the 
people when they start moving to a loner status, I'd--that's, 
to me, the whole key of it. And that's very hard to do. I think 
it's on a front-end basis, where we try to encourage the 
building of more relationships, and be very systematic about 
it. You know, you've got a buddy program in the military, 
you're always watching for the guy next to you. If there's a 
way we expand that, get the volunteer community around these 
bases, around Fort Riley and places like that to do it; faith 
communities, very happy to step in and work in a relationship-
building setting because I think that, at the core, is where we 
lose it. It's not technology, it's old fashioned ``I care for 
you.'' And having somebody there that actually cares for them, 
and through thick and thin, and when--this is generally when 
it's getting really thin, and people self-treating places and 
ways, and I've seen plenty of it. And that's at the core, but 
what you've got to get at is that relationship building.
    So, I really want to support that effort, because I think 
you can help us out in the broader society, and we need to 
address it as a military.
    I've got two narrow Kansas issues I want to push out to 
you. And this is, by virtue of the things you've identified 
here today, this is very small potatoes. So, you can look at it 
as such. They're important to us. We've got two major Army 
installations, a number of Guard installations in the State. 
Fort Leavenworth, Fort Riley, we're very proud of in our State, 
and we love them. And we really are very appreciative of those 
installations, those units.

                        NEW MILITARY/VA HOSPITAL

    At Fort Leavenworth, there's not a military hospital there. 
And I know we've looked at the numbers on this and said, 
``Well, it's not a size, yet.'' We do have the disciplinary 
barracks that's there, we do have a small Veterans 
Administration (VA) that's there. And I think it may be one, if 
you look into your future plans, that you may look at and 
decide a combined military/VA hospital might be the way to go 
with this, because it's got a large military community, a large 
military retiree community. I understand, in Chicago, you've 
done a combined Army/VA center. And in our future, I think 
we've just got to be less stovepipe and a lot more 
interconnected. And I think this may be a classic one where it 
actually could work pretty well and also fit the disciplinary 
barracks that's there, too.
    [The information follows:]

    Recapitalization of the Munson Army Health Center, Fort 
Leavenworth, Kansas, is in the very early phases of planning. 
The next planning visit is scheduled for March 22-26, 2010 to 
clarify requirements and determine full replacement costs or 
program amount. The replacement project will compete in the 
Department of Defense's Capital Investment Decision Making 
(CIDM) process for likely programming in the fiscal year 2012-
17 Defense Health Program Future Years Defense Plan. While the 
Army Medical Command and Department of Veterans Affairs (VA) 
have opened dialogue at the local level, the currently 
developed project that will be presented in this year's CIDM is 
a modern 175,000 gross square foot replacement Army Health 
Center. Collaborative efforts between the Army and the VA 
concerning this project are not ready for consideration in this 
year's CIDM process.

    Senator Brownback. A second issue--and this, again, is a 
narrow one--at Fort Riley, with bringing the Big Red One back, 
which we are delighted to have--the community, the area, is 
just delighted their headquarters is back from Germany. We're 
busting at the seams on our grade school, middle schools, with 
the numbers coming back in. And if you can look at if there's 
any way to help out with that, because we want to make sure we 
provide a good family experience for these young men and women 
in uniform, and their families. And we're having difficulty 
meeting that.
    So, as I say, those are small potatoes, relative to the 
other things.
    And overall, I want to commend you for what you're doing in 
Iraq and Afghanistan. I think this military has performed very, 
very well. It has been tough circumstance, difficult to do, but 
I'm really proud of what you're doing. I'm proud of how the 
military is operating.
    Thank you, Chairman.
    [The information follows:]

    The Army has no specific authority to fund public school 
construction.

    Chairman Inouye. Thank you very much, Senator.
    Senator Dorgan.
    Senator Dorgan. Mr. Chairman, thank you very much.
    Mr. Secretary and General, thank you for being here.
    Let me ask a couple of questions. First, the issue of the 
Sky Warriors. I know that my colleague is very interested in 
that issue, and has been for some while. I have wondered aloud 
and questioned why we have almost identical programs run by 
both the Army and the Air Force: Sky Warriors, the Warriors, 
and the Predators.

                         DUPLICATION OF SYSTEM

    And when I came to Congress, several decades ago, I joined 
a group then, with Senator Gary Hart, talking about trying to 
change the procurement process and try to stop the duplication. 
Because every level of service wants to do everything that 
everybody else does, and they're pretty successful in making 
that happen. And as I watched the growth of the Predator and 
the Warrior program, it looked to me like you've got two 
branches of the service that have done exactly the same thing. 
And I've been enormously frustrated by that.
    So, the question is, How will the Army Sky Warrior's UAVs 
integrate with the 50 Air Force UAV caps that are planned for 
2011? I mean, are you working with the Air Force trying to--
tell--try to----
    Mr. McHugh. We are, Senator. In fact, we have been for some 
time. In fact, I started working with ``Buzz'' Moseley on UAV 
employment a couple years ago. It's not only the procurement 
side of it, it's the employment side of it. And as we sat down, 
we realized that we were talking past each other a bit. If you 
look at the levels of war, it was pretty clear to us that the 
Air Force had the strategic UAV requirement. That was their 
baby, nothing for the Army in there.
    At the tactical level, that was really the Army's purview, 
because we need to maintain pretty tight control so we can 
shift them around based on changing tactical situations.
    At the theater level, the operational level is where we 
were bumping up against each other. We worked with the Air 
Force to build a--we call it a CONOP, concept of operations--
that gave the Air Force the higher--not altitude, but the 
higher-level requirements for the theater commander; and the 
Army had the lower-level operational requirements for the core 
commanders. I think we've done a good job of differentiating 
that. Probably not as much progress on the procurement side, in 
differentiating that.
    Now, we--these ERMP, that are basically enhanced Predators, 
that are in this budget, 26 of them, are somewhat different 
than the Predator. But, I ask myself the same question you do, 
Is it so much different that it ought to be a different 
program? And could we not gain efficiencies working with one 
program? And I have not cracked that one with the Air Force 
yet.
    Senator Dorgan. I hope you will, because I have thought 
there should be an executive agency for UAVs in the Pentagon so 
that we don't have different levels of service doing the same 
thing, and duplicating the research, duplicating the management 
of the program, and so on. I--it is frustrating to see. And I 
understand that most services want to do everything, and even 
some things another service is doing. It's been a battle we've 
fought for 30 years; mostly unsuccessfully, I'm afraid. But, 
thank you for that answer.
    I want to just mention to you that I'm going to ask the 
chairman, at some point--I've not had a chance to visit with 
him--but, in this appropriations bill, to include an amendment 
that will take a new and completely fresh look at whether 
deciding in LOGCAP to, essentially, contract everything out 
instead of doing it in the service, whether that has been an 
effective thing for the country--whether it's producing food 
for troops, you know, under a contract, or buying towels for 
troops, or moving water to base. I happen to think that the 
LOGCAP, and the contracts under LOGCAP, have produced the 
greatest waste, fraud, and abuse, perhaps in the history of our 
country. I've done 20 hearings in the policy committee on this. 
Let me just go through a couple of them quickly.
    The contract to provide water to the military bases in 
Iraq, that contract resulted in nonpotable water at a number of 
the military bases being more contaminated than raw water from 
the Euphrates River. And I had the internal documents of KBR 
that said this was a near miss, could have caused mass sickness 
or death. Both KBR said it didn't happen and the Army said it 
didn't happen. And yet, I got an e-mail from a commander, a 
woman, a physician with the U.S. Army in Iraq, saying, ``No. 
No. I read these things. It did happen. I'm here. I'm treating 
patients as a result of that nonpotable water that is 
contaminated.'' And I got the Government Accountability Office 
(GAO) to do--or the inspector general, rather, to do an 
investigation. He said, ``Yes. In fact, it did happen.''

                             BAD CONTRACTS

    And it kind of bothers me that--it bothered me then, and 
does now, that the contractor said it didn't happen, the Army 
says it didn't happen, and, in fact, when you investigate, it 
did happen. The sodium dichromate. We now have the Indiana 
National Guard and several others testing troops. Again, we had 
the person who worked for KBR on the site, who was a safety 
inspector, said he warned the contractor. Contractor denies all 
these issues.
    Electrocutions, you're well familiar with. The contractors 
work on providing electricity. And wiring had to be redone, and 
we found massive mistakes. Soldiers have died. Mr. Maseth died, 
taking a shower, because of incompetence, hiring third-country 
nationals, that could barely speak English, to do the work.
    A man showed up, who worked in Saudi Arabia, who was doing 
part of what the Army used to do, he was ordering the supplies. 
He was ordering towels. And he held up a towel, he said, ``Here 
is a towel I was going to order. My boss said no, that towel is 
not the one to order, I want you order this towel. It has our 
company logo on it.'' He said, ``Well, that'll cost three to 
four times more.'' His boss said, ``Doesn't matter. I mean, 
this is a cost-plus contract. We're going to make more money.'' 
So, he ordered the towel with the logo.
    And the list goes on and on. I mean, 22-year-old Mr. 
Diveroli gets $300 million in contracts. He's a 22-year-old 
president of his dad's shell company, and he hires a 26-year-
old masseuse as a vice president, and gets $300 million in 
contracts.
    I had the head of your Army Sustainment Command in my 
office, and we had quite a talk. He said, ``You know what? I'd 
do the same thing today, knowing what I knew then.'' I said, 
``Well, then you wouldn't--if I were running the Army, you 
wouldn't remain in my Army.''
    But, all of those things suggest to me that there's been 
something fundamentally broken in the procurement process, in 
the contracting process. In some cases, we even have contracted 
out contractors to supervise other contractors. I know some of 
that's now going to change.
    I'm going to ask that we include an amendment, in this 
year's bill, to take a fresh look at all that's been done and 
evaluate if there is a better way to have done that, perhaps 
bringing some of those functions back into the Army? But, give 
me your assessment of all that, General Casey, and perhaps 
Secretary McHugh.

                       RESPONSE TO BAD CONTRACTS

    General Casey. Well, first of all, I think your efforts 
have shined the light on some things that needed a light shined 
on them. And all those things that you said, happened. But, I 
think we have learned from them, in advance. I mean, we're not 
where we were 3 years ago, with contracts today. We actually--
Pete Geren, in 2007, had an independent assessment of our 
contracting capability, and it was striking how much work we 
had to do. And since we've set up an Army Contracting Command 
with an Expeditionary Command and a Mission and Installations 
Command, and we have more than doubled the number of trained 
contractor representatives that are out there to supervise 
these contractors. And we're actively training soldiers in 
units before they deploy to give them the skills they need to 
do some of the oversight that was clearly missing in the cases 
that you saw.
    My sense is, your call to re-look this is timely. And it--
I'm not sure how much of this is folklore, but when I talk to 
folks about this, what they tell me is, when we took the Army 
down, back in the late 1980s early 1990s, from 780,000 to 
480,000, some--the mitigation for that was to be able to go to 
contractors to the logistical support. And way back then, they 
did--I'm sure they did cost-benefit analysis and costed the 
cost of a logistics soldier out over the lifecycle of the 
soldier, and they figured it was going to be cheaper to do 
contract for some of those logistical tasks. I think it's high 
time that we go back and see if those assumptions are still 
valid.

                         CONTRACTING CAPABILITY

    Mr. McHugh. Let me echo the Chief's comments to you, 
Senator. And having served a number of years, and watching your 
efforts while I was in Congress, and a big fan of the military 
and the Army, I deeply appreciate it. And I think I can speak 
with some validity in saying that so do the men and women in 
uniform and their families.
    I agree with the Chief. We have taken steps to try to do 
the best we can within the framework that is provided. As you 
know, we're transitioning to a LOGCAP IV that is different. I 
don't want to suggest, at this early date, it is perfect, but 
it does do away with the sole-source and range of potential 
abusive practices that LOGCAP III did, but it may not be the 
perfect answer. And I assure you, the Army will administer and 
implement, to the best of its ability, whatever oversight 
structure that this Congress, in its wisdom, decides to place 
before us.
    I agree. Your final comment was about insourcing. We went 
far--too far, in my humble judgment. And I was part of the 
Armed Services Committee that supported those outsourcing 
initiatives that, perhaps well-intended, I think had difficult 
results. We've already re-brought into house, insourced, some 
900 core capabilities that have provided the Army and the 
taxpayers $41 million in savings and, I would argue, better 
oversight. And we have an objective that is, in large measure, 
supported in this budget, to, by the end of 2015, insource to 
the Army another nearly 4,000.
    Chief mentioned our efforts at the brigade and battalion 
level to provide well-trained and more sufficient numbers of 
CORs, contract oversight officers, and we're going to continue 
to do that.
    But, my experience has been, there's always a better way; 
the challenge is to find that. And to the extent we can be 
supportive in that search, we want to do that.
    Senator Dorgan. I know that the chairman wants to end the 
hearing; I think we have another engagement. But, I--let me 
just make one final point.
    First of all, thank you for your answers. I described some 
negatives; there are many, many positives. And I finished 
reading a book recently, and I think the title was ``A 
Soldier's Life,'' and it is an extraordinary book about what 
soldiers do every day, and what our military does every day. 
And while I talked today about my concerns of some things, let 
me add what I'm sure you've heard from my colleagues, we are 
enormously grateful for the work both of you do on behalf of a 
lot of people today who got up this morning to face danger on 
our behalf. So, General Casey, thanks for your long service. 
Secretary McHugh, I'm glad you're where you are.
    And thank you very much.
    Chairman Inouye. I thank you very much, Secretary McHugh 
and General Casey, for your testimony.

                     ADDITIONAL COMMITTEE QUESTIONS

    I have two questions here, submitted by Senator Cochran, 
who cannot be with us, so I will submit them for your 
consideration.
    We look forward to working with you in the coming months. 
And I can assure you that we will do our utmost to make certain 
that the men and women in uniform are given whatever is needed 
to make certain that their service to our country is not only 
one that our Nation would appreciate, but it will be good for 
them. And I commend you for the effort being made now to look 
into matters, such as stress, which is very important.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

               Questions Submitted to Hon. John M. McHugh
            Questions Submitted by Chairman Daniel K. Inouye

                BRIGADE COMBAT TEAM (BCT) MODERNIZATION

    Question. Secretary McHugh, the Army's Future Combat Systems 
program, FCS, has been terminated and replaced with a program to 
incrementally field many of the technologies that were developed under 
the FCS program. However, a recent Limited User Test showed that 
despite an investment of almost $21 billion in the last 7 years, many 
of these technologies are unreliable and do not work as intended. This 
raises serious questions about the acquisition strategy pursued by the 
Army for FCS. What lessons has the Army learned from its FCS program 
acquisition strategy and how will you incorporate them into future Army 
acquisition programs?
    Answer. After cancellation of the FCS program, the Army conducted 
an analysis of requirements based on the lessons learned from the last 
8 years of war. We retained the family of systems knowledge base 
acquired during the FCS program as well as technologies related to the 
network, and unmanned/ground vehicles developed during the program. 
This analysis will now support the BCT Modernization Strategy.
    We found that modeling, simulations and scenarios depicting FCS 
capabilities and operations became increasingly complex over time, 
which resulted in fewer scenarios that limited our ability to analyze 
across a wide range of relevant operating conditions. A key lesson 
learned from this experience was that the Lead Systems Integrator (LSI) 
was contracted to produce analytical deliverables that were duplicative 
of what the Army was doing and that were more advocacy than analysis. 
These products were therefore of questionable value. Additionally, 
during critical early program stages, the unique technical expertise 
and capabilities resident within the Army were not leveraged by the 
Program Manager/LSI team, especially for platform survivability and the 
network. The Army has moved away from the LSI model and restructured 
the contract, establishing a Prime Contractor to deliver Increment 1 
capabilities to our Brigade Combat Teams.
    While retaining the effort to integrate, develop and field 
capabilities as a system, the Army is also fully embracing competition 
and Department of Defense Instruction 5000.2 to support our BCT 
Modernization strategy. For example, the Ground Combat Vehicle program 
will be competitive beginning at a Milestone A and using best 
practices, including competitive prototyping through its acquisition 
process.
    Further, FCS did not adequately revalidate operational concepts at 
regular intervals to address lessons learned or reassess technology 
development. The BCT Modernization Plan will focus on technologically 
feasible and affordable solutions, address lessons learned, allow for 
incremental technological development, and have appropriate mitigation 
plans in place. For example, the Army will field Increment 1 
capabilities only when they are mature and will structure the program 
to allow for technological upgrades and refinements even during the 
fielding process.
    Early in development, the Army decided to let Soldiers test and 
evaluate the systems through the Army Evaluation Task Force. As a 
result, Soldier feedback has played a key role in optimizing designs 
throughout the development phase--ultimately leading to a better end 
product. Increment 1 capabilities are now in their third year of the 4 
year test cycle.

                      FUTURE ROLE OF MRAP VEHICLES

    Question. Secretary McHugh, a success story from the wars has been 
the rapid development and fielding of Mine Resistant Ambush Protected 
Vehicles, ``MRAPS''. The Army has taken receipt of 12,000 MRAPs and has 
a requirement for about 5,800 light-weight MRAPs. But despite the 
MRAP's unquestioned success, I get the feeling that these vehicles are 
treated like the ``ugly step-child''. The Army has no funded plan to 
integrate them into its force structure, and you are developing another 
tactical vehicle that won't deliver for several years.
    Mr. Secretary, given the difficult fiscal times and Secretary 
Gates' guidance to focus on the 80 percent solution that can be 
provided immediately instead of developing gold-plated exquisite 
systems that don't show up for years to come, what is the future role 
of MRAPs in the Army?
    Answer. The Army has developed an allocation plan for MRAPs as they 
return from theater. This plan, and associated courses of action, was 
briefed to the Under Secretary of the Army (USA) and the Vice Chief of 
Staff of the Army (VCSA) on December 22, 2009. The plan included 
placing MRAPs in task organized sets, select units, and the training 
base. The USA and VCSA directed the proponents to conduct a detailed 
cost benefit analysis on two courses of action for task organized set 
placement. The results of this cost benefit analysis will be presented 
to the USA and VCSA on March 25, 2010.

                     ARMED AERIAL SCOUT HELICOPTER

    Question. The fiscal year 2011 budget continues to modernize Army 
aviation units at a rapid pace. However, one key program, the 
replacement of the aging Kiowa Warrior helicopter, has been set back by 
the failures of the Comanche and the Armed Reconnaissance Helicopter.
    The Army is conducting new studies on how to replace the Kiowa 
Warrior and the studies are reportedly examining new concepts of 
``teaming'' helicopters with Unmanned Aerial Vehicles (UAVs). However, 
it is not currently known how many years it will be before a prototype 
Armed Aerial Scout helicopter will fly.
    Secretary McHugh, the Secretary of Defense has warned about the 
dangers of pursuing exotic and costly weapons systems, while ignoring 
the 80 percent solution. Do you feel the Army is taking the right 
approach to the Armed Aerial Scout helicopter?
    Answer. In July 2009, the Defense Acquisition Executive directed 
the Army to conduct an Analysis of Alternatives (AoA) to meet Armed 
Aerial Scout capabilities and to determine a replacement for the OH-58D 
Kiowa Warrior. This AoA will determine the appropriate materiel 
solution(s) to address any capability gaps and meet Army requirements. 
The base for analysis is the current Kiowa Warrior, but the review will 
also include ongoing improvements to the Kiowa Warrior as an option. 
The AoA will be conducted in two non-sequential phases with the 
preliminary results completed in December 2010 and final results 
published in April 2011.
    On April 14, 2009, the Secretary of the Army approved a strategy to 
reinvest in the Kiowa Warrior helicopter to address obsolescence and 
sustainment issues until a viable replacement is ready. The strategy 
includes a funded ACAT II program called the Cockpit and Sensor Upgrade 
Program (CASUP). The CASUP addresses obsolescence, safety and weight 
reduction so the aircraft performs better in the current combat 
environment. The Army expects to sustain the Kiowa Warrior until 2025.

               ARMY FUNDS RUNNING OUT IN FISCAL YEAR 2010

    Question. In fiscal year 2010, the Department of the Army was 
appropriated $141 billion in baseline funds and an additional $78 
billion for an entire year of Overseas Contingency Operations. When the 
budget request was submitted last month, it included a fiscal year 2010 
supplemental to send an additional 30,000 troops to Afghanistan. Much 
of those expenses are for Army operating costs and in total, the Army's 
request to support the new policy is $20 billion. Secretary McHugh, 
with the current resources available to the Army in fiscal year 2010, 
how far do you think you can make it into the fiscal year before 
running out of funding?
    Answer. A critical portion of the fiscal year 2010 supplemental 
request is the Operation and Maintenance, Army (OMA) funding for 
increased operations in Afghanistan. Because OMA comprises the majority 
of the Army's funding, this account becomes the measure by which we 
project a run-out date at the end of June, beginning of July. Passage 
of the supplemental prior to Memorial Day would make funds available in 
June, and would minimize the risk of impact on theater operations, base 
operations support, readiness and family programs. It would enable the 
Army to maintain required execution flexibility across all 
appropriations.

                          JOINT CARGO AIRCRAFT

    Question. Secretary McHugh, I have a couple of questions on the C-
27 Joint Cargo Aircraft--the plane that will replace the Army's fleet 
of C-23 Sherpas. Last March, the Congress was told that the Army needed 
54 of the 78 aircraft planned for procurement. In May, the Department 
announced that it would procure just 38 aircraft, less than half the 
number in the original plan, and transferred management to the Air 
Force. Has your staff reviewed the analyses which produced the lower 
requirement and are you satisfied that the Army's lift needs will be 
satisfied with the planned buy of 38 aircraft?
    Answer. The Army has a validated requirement for 75 cargo aircraft, 
per the Joint Cargo Aircraft Analysis of Alternatives (AoA) and 
addendum. Office of the Secretary of Defense Program Analysis and 
Evaluation (OSD PA&E) completed a sufficiency review validating the 
Army's acquisition objective of up to 75 aircraft. The Army's initial 
procurement was for 54 Joint Cargo Aircraft (C27J). However, in April 
2009, the SECDEF directed the Joint Cargo Aircraft (C27J) program be 
transferred from a joint Army led program to a single service Air Force 
program. He further reduced the initial joint procurement from 78 
aircraft (54 for Army and 24 for Air Force) to 38 aircraft. The SECDEF 
has directed that the lift requirements be met by the Air Force, 
leveraging their entire fleet mix.

                            TACTICAL RADIOS

    Question. Secretary McHugh, the Army successfully incorporated 
commercial radio technology into the Joint Network Node system in the 
last decade. Is the Army planning to leverage other commercial 
technologies as part of the Joint Tactical Radio System? In particular, 
has Army looked at commercial technologies to meet the wide band 
networking requirements?
    Answer. The Army has leveraged commercial technologies to fill 
urgent operational capability gaps; however, there are no commercial 
alternatives to the JTRS programs that meet all the Joint Service 
requirements. Commercial off-the-shelf alternatives may offer an 
attractive up-front price over the JTRS programs; however, they only 
provide limited solutions and potentially make it more difficult for 
the DOD to achieve interoperability of our joint secure communications.
    Question. Secretary McHugh, what is the Army's position on fielding 
additional AN/PRC-117G radios to meet contingency needs?
    Answer. In certain situations and missions, forces in contingency 
operations have expressed urgent operational requirements for a 
wideband networking radio capability. The Army Staff is currently 
analyzing each request carefully to determine the proper materiel 
solution for validated requirements. In some cases, the AN/PRC-117G is 
the best solution available to satisfy these needs. The Army has 
sufficient stocks of AN/PRC-117G on hand to meet all known contingency 
operations requests, and plans to resource/field any approved requests 
from these stocks only. The Army is not currently planning to purchase 
additional AN/PRC-117G to meet contingency needs. The preferred 
approach is to accelerate Joint Tactical Radio System (JTRS) 
capabilities, wherever possible, to satisfy wideband networking radio 
requirements.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy

                    ARMY GUARD AND RESERVE EQUIPMENT

    Question. How much funding is included in the President's fiscal 
year 2011 for Army Guard and Reserve Equipment? How does this compare 
to the relative size of the Army Guard and Reserve compared to the 
active duty Army? Does the Army support a separate budget line item 
that annotates equipment procurement for the Guard and Reserves? 
Wouldn't this provide greater transparency?
    Answer. Funding requested for equipment procurement is as follows: 
$15 billion (76 percent) for the Active Component (AC); $3.6 billion 
(18 percent) for the Army National Guard (ARNG); and $1.1 billion (6 
percent) for the U.S. Army Reserve (USAR). There are some deviations of 
funding versus size (based on requirements). However, a more telling 
comparison is requirements versus equipment on hand, which shows that 
we are funding to increase readiness in all components equally.
    The Army does not support a separate budget line item, as it would 
limit the Army's fiscal flexibility, which is required in a constantly 
changing world.
    The Department of Defense (DOD) has provided the Services with 
implementation instructions on how to attain transparency. The 
instructions direct the Services to provide component-level funding 
data for the AC, ARNG, and USAR on annual budget exhibits. The Army has 
complied with this by providing the data on the P-40 (Budget Item 
Justification) and the P-21 (Production) budget exhibits for both the 
fiscal year 2010 and fiscal year 2011 budget requests.
    The DOD instructions also direct the Services to provide quarterly 
reports that track the execution of Reserve Component funding and 
procurement. The DOD intends to provide those reports to Congress on a 
semiannual basis. The Army fully supports and is in compliance with the 
DOD implementation instructions and has provided the required reports 
for fiscal year 2009 and 1st Quarter fiscal year 2010.

                       DIRECTOR OF THE ARMY GUARD

    Question. In what stage of the nomination process are we for the 
position of the Director of the Army Guard? When can the Senate 
anticipate receiving a new nominee for this position?
    Answer. Currently, the Army and the National Guard are in the 
selection phase of the nomination process. The Senate can anticipate 
receiving a nominee as soon as the selection phase is complete, which 
is estimated to be within a few weeks.

                        HOMELAND RESPONSE FORCE

    Question. How will the Department of Defense organize Emergency 
Management Assistance Compacts between the state that owns a Homeland 
Response Force and the other states in the region that share it? Under 
what emergency circumstances would you envision Federalizing the 
Homeland Response Force and taking command and control away from the 
Governor in favor of U.S. Northern Command? Was the decision to 
establish the Homeland Response Forces made jointly by DOD and DHS?
    Answer. Emergency Management Assistance Compacts (EMACs) are 
arranged and entered into by the states and territories in order to 
provide mutual assistance and support of one another. They are not 
compacts with the Department of Defense.
    The Department is drawing on existing National Guard forces to 
build a Homeland Response Force (HRF) in each of the ten Federal 
Emergency Management Agency (FEMA) regions. Creation of HRFs within the 
existing National Guard force structure recognizes the need for 
increased Chemical, Biological, Radiological, Nuclear, and High-Yield 
Explosives (CBRNE) response capabilities and capacity in the event of 
catastrophic CBRNE incidents. It also takes into account the 
operational experience states and territories have in supporting each 
other using National Guard forces in either State Active Duty (SAD) or 
Title 32 statuses.
    As is the case for the states that currently maintain National 
Guard CBRNE Enhance Response Force Packages (CERFPs), the Adjutant 
General of the state or territory that gets an HRF agrees in writing 
that the HRF is a national response capability, which can be employed 
outside of the state to provide support within the FEMA region or in 
other FEMA regions, as necessary. The 17 existing CERFPs are employed 
in state, out of state, regionally and nationally to respond to CBRNE 
incidents regardless of the unit's location.
    The HRF will have the same early, life-saving capabilities of the 
CERFPs (e.g., Search and Extraction, Decontamination, Emergency 
Medical, and Command and Control (C\2\)), as well as security and 
Brigade level C\2\ for synchronizing multiple CBRNE units. Each HRF 
will have approximately 566 personnel.
    States generally have jurisdiction over the welfare of their 
citizens. However, in many circumstances the President, by law, has 
preeminent jurisdiction to handle certain incidents (e.g., terrorism, 
most nuclear or radiological events and/or environmental impacts). He 
or she also may have the political/moral obligation to assist 
regardless of the nature/size of incident. Accordingly, it is essential 
to facilitate a unity of effort as Federal forces integrate with 
ongoing State responses.
    The HRF is designed to be employed in SAD or Title 32 statuses. 
Only in an extreme situation, such as a state's incapacitation to 
govern and/or control the emergency situation (continuity of 
government/continuity of operations), is it possible that the President 
would Federalize the HRF and place it under the command and control of 
the Commander, U.S. Northern Command (USNORTHCOM).
    Historically, over 90 percent of all incidents are handled at the 
local level; approximately 6 to 8 percent involve state level 
engagement, and an even smaller percentages have a Federal response. As 
such, the Department does not envision the likelihood of placing the 
HRF into a Title 10 status under the command and control of USNORTHCOM. 
However, USNORTHCOM will command the follow-on CBRNE Consequence 
Management Response Forces (CCMRF) when requested to augment the 
consequence management efforts of State and local first responders, 
National Guard forces and Federal agencies by providing complementary 
and unique capabilities when the effects of a CBRNE event exceed their 
capabilities.
    The Department of Homeland Security participated in both the 
initial consequence management study and observed the Quadrennial 
Defense Review. FEMA provided information about Federal, state, and 
local consequence management capabilities for inclusion in the 
consequence management study. State involvement, in the form of the 
Adjutants Generals, was facilitated by the National Guard Bureau.

                           TITLE 32 LINE ITEM

    Question. In each of the past several years, the Department of 
Defense has paid for Title 32 funding requests for domestic disaster 
relief missions as requested by State Governors and approved by the 
Secretary of Defense. Naturally, paying for these much needed 
operations out of regular Army Operations and Maintenance accounts 
shortchanges other programs. Does the Army have plans to create a Title 
32 line item in its Operations and Maintenance accounts? If not, why 
not? If such a line item already exists, please provide the 
identification numbers used in the Army budget justification documents.
    Answer. Under the Robert T. Stafford Disaster Relief and Emergency 
Assistance Act, Public Law 106-390, October 30, 2000, DOD may be 
required to provide assistance to Federal agencies and state and local 
governments in response to major disasters or states of emergency 
declared by the President.
    In fiscal year 1990, Congress established the Defense Emergency 
Response Fund (DERF) to reimburse DOD for providing disaster or 
emergency assistance to other Federal agencies and to state and local 
governments in anticipation of reimbursable requests. The Treasury 
index symbol for the DERF is 97X4965 and was initially funded at $100 
million. The purpose of DERF is to allow DOD to provide disaster and 
emergency relief assistance in response to natural or manmade disasters 
without depleting the funds it needs to accomplish its mission. DOD 
Financial Management Regulation (DODFMR), Volume 12, Chapter 6 provides 
for the policy and procedures governing the Defense Emergency Response 
Fund.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray

                      NATIONAL GUARD AND RESERVES

    Question. Secretary McHugh and General Casey, the National Guard 
and Reserves have been called upon to support the efforts in Iraq and 
Afghanistan. Despite their dedicated service they often come home to 
hardships, especially in the current economy. In the state of 
Washington, National Guard unemployment is over 14 percent vice the 9.5 
percent unemployment rate statewide. In the last year there have been 
seven suicides with 70 percent of those tied to the Guardsman's 
financial situation. 2,100 Washington National Guardsmen live at or 
below the poverty line as a result of their employment situation. I am 
concerned for these soldiers mental and emotional well-being as they 
are returning from serving their country to possible unemployment and 
financial instability instead of a happy family reunion. What is the 
Army doing across the nation to help these National Guard and Reserve 
soldiers and their families when they return from deployment to 
financial hardship?
    Answer. The Army Reserve Yellow Ribbon Reintegration Program (YRRP) 
provides information, services, referral, financial planning and 
assistance, and other proactive outreach programs to Soldiers of the 
Army Reserve and their Families through all phases of the deployment 
cycle.
    The goal of the Yellow Ribbon Reintegration Program is to prepare 
soldiers and families for mobilization, sustain families during 
mobilization, and reintegrate soldiers with their families, 
communities, and employers upon redeployment.
    When a soldier or family member contacts the Army Reserve Family 
Programs Office for financial counseling or assistance, the staff will 
support the soldier or family member by providing the appropriate 
assistance and/or connect them to community resources based on 
individual needs. Local Army Reserve Family Programs personnel also 
provide referrals to professional financial counseling services for 
deploying soldiers and their family members.
    In-person financial counseling is now available in most locations 
through Military OneSource in partnership with National Foundation for 
Credit Counseling (NFCC). NFCC provides financial education and 
counseling services at hundreds of local offices nationwide. Military 
OneSource arranges for soldiers and family members to meet face-to-face 
with a financial consultant in their community. This program is 
specially designed to provide short-term, solution-focused financial 
counseling for service members and families, who may be experiencing a 
financial setback. Up to 12 counseling sessions per issue, per calendar 
year are allowed for each National Guard or Reserve soldier (regardless 
of activation status) and families located in the continental United 
States. For those unable to attend in-person counseling or who are in 
locations where in-person counseling is not available, Military 
OneSource will provide telephone consultations.
    Additional assistance for returning Reserve Component soldiers is 
available through the Employer Partnership Office portal. The U.S. Army 
Reserve created the Employer Partnership Office (EPO) of the Armed 
Forces with the goal of assisting soldiers and family members with 
access to employment when they return from deployment. Launched in 
2007, the program expanded in 2009 to include the Army National Guard.
    EPO regularly participates in Yellow Ribbon Reintegration events, 
job fairs, Wounded Warrior events and visits to units to advise 
soldiers and family members of the hundreds of thousands of jobs 
available to them. Through EPO, service members have access to more 
than 500,000 jobs listed by nearly 1,000 employers who have partnered 
with EPO. Additional assistance includes personal contact with EPO's 
Program Support Managers who serve as caseworkers, advising service 
members not only about employment listed on the EPO portal, but about 
in-kind services offered by many of our partners and military service 
organizations. Services include mentoring and career development, job 
counseling, resume writing assistance, how to negotiate salaries, how 
to dress for success, tips on how to succeed in positions which are 
competitive and how to find jobs that compliment their military 
service.
    Question. How has this affected the readiness of our National Guard 
and Army Reserves?
    Answer. Financial hardships, caused by possible unemployment for 
redeploying Reserve Component (RC) Soldiers, have not had a measureable 
impact on readiness. During the beginning OIF and OEF, RC readiness did 
decline. With the implementation of the ARFORGEN model and the 
additional resources provided by Congress for RC units, however, 
overall readiness has been steadily improving since early 2009.
    Question. How is the Army assisting these soldiers to improve their 
job skills to make them relevant and competitive in the current job 
market?
    Answer. In addition to the highly valued skills Soldiers learn in 
the military, the Army has a number of programs to assist Soldiers as 
they transition into the civilian workforce. One of the newest, and 
most innovative programs is the Employer Partnership Office (EPO) 
launched in 2007 by Lt. Gen. Jack C. Stultz, Chief, Army Reserve. The 
program was designed as a collaborative effort between employers and 
the Army Reserve to provide a continuum of career for our service 
members. In July 2009, the Army National Guard joined the EPO. 
Currently nearly 1,000 companies have signed non-legally binding 
memorandums of agreement with the EPO. Many of our partners are Fortune 
500 and Fortune 1000 companies; others are nonprofit organizations who 
contribute in-kind support to our service members as they transition 
into or back to the civilian job market.
    Through EPO, service members have access to program support 
managers and business partners who can assist with resume writing in 
order to capture the skills and talent these men and women earn while 
they're serving in the military. Other services include interviewing 
skills and how to dress for success. EPO program support managers can 
identify partners who offer internships and apprenticeships or offer 
assistance with relocation or continuing education. EPO also regularly 
briefs Soldiers and families at events such as Yellow Ribbon 
reintegration events, Veterans events, Wounded Warrior events, job 
fairs and briefings to individual units. Many of the skills that reside 
in the Reserve Components are shared skills Soldiers use in their 
civilian employment such as the medical field, transportation, city 
planning, management and military police. Due to these shared skills, 
through the EPO, we are currently developing pilot programs that would 
provide cross-training opportunities. One such program to be unveiled 
in the coming months represents a partnership between a major American 
automotive manufacturer and EPO to offer RC Soldiers an opportunity to 
train on the manufactures' fleet training package. In the second phase 
of this pilot, the partnership will embed Soldiers in industry to train 
as mechanics on hybrid vehicles before hybrid vehicles are used on the 
battlefield. Additionally, we are reviewing ways in which a Soldier can 
earn credit towards a Commercial Drivers License (CDL) while learning 
to be a truck driver.

                                FAMILIES

    Question. Secretary McHugh and General Casey, I applaud your 
efforts in making the families of our soldiers a top priority. Family 
readiness and support is crucial for the health of the Army. The 
health, mental health and welfare of Army families, especially the 
children has been a concern of mine for many years. This also includes 
education, living conditions, and available healthcare. How are you 
meeting the increased demand of healthcare and mental health 
professionals to support the families? If not, where are the 
shortfalls?
    Answer. The Army listens to Family members who want easier access 
to care. Attempts to improve access to care include two new Army 
programs associated with the new Child, Adolescent and Family 
Behavioral Health Proponency (CAF-BHP). The CAF-BHP focuses on two new 
innovative clinical programs to bridge the access gap: School 
Behavioral Health and Child and Family Assistance Centers (CAFAC). 
Breaking tradition, the School Behavioral Health program proactively 
brings care to the children rather than requiring them to travel to the 
clinic in the military treatment facility. Similarly, the Military and 
Family Life Consultant program provides care closer to where Soldiers 
work and Families live. Clinicians provide short-term, situational, and 
problem-solving consultation services outside the walls of the clinic, 
which breaks down some of the traditional barriers to care. The CAFAC 
is a model designed to be established at the installation level. The 
CAFAC brings together under one ``roof'' all the services on an 
installation providing for Army Families who are experiencing the 
stress of multiple deployments. This model creates a single point of 
entry for family members seeking help, thus allowing for more effective 
triage and efficient allocation of behavioral health resources while 
increasing access to care and reducing the associated stigma.
    However, due to the national shortage in Child Psychiatry, 
shortfalls remain and we are having difficulty filling the numerous 
Child Psychiatry provider vacancies throughout the Army. As a result of 
these shortages, some locations experience an inadequate number of 
therapists to help Families during the deployment cycle. The Army is 
continuously working to improve both military and civilian provider 
recruitment and retention. Recent incentives, including bonuses and 
relocation allowances, aid in these efforts.
    Question. What improvements have been made with respect to the 
children of soldiers and meeting their special requirements? What 
programs have you implemented to assist the children of servicemembers 
with coping with frequent deployments, re-integration, and other 
stresses of military families?
    Answer. The health and welfare of our children is tremendously 
important to the Army, and we recognize the difficulties frequent 
deployments cause. As a result, the Army has taken great strides by 
creating and bolstering numerous Child, Youth, and School Services 
infrastructures, programs and services to help our children cope with 
the full spectrum of the deployment cycle.
    Army Families receive reductions in child care fees during the 
deployment cycle and Child Development Centers have extended operating 
hours. They offer many options to support Family Readiness Groups and 
the Chaplains' Strong Bonds program. No-cost respite child care has 
increased from 5 to 16 hours per child, per month.
    Operation Boots On and Operation Boots Off help children understand 
and prepare for their parents' deployment and redeployment. Child 
Behavioral Health Consultants are embedded in our programs to provide 
social, emotional, and behavioral support for both children and staff. 
Military Family Life Consultants provide non-medical, short term, 
situational, problem-solving counseling services in schools with high 
military-connected populations. Army School Liaison Officers serve as 
advocates for military-connected students and assist them through 
school transitions and with school-related issues. Academic support 
services help students compensate for parental absences with on-post 
homework centers, and 24/7 online tutoring support for students 
regardless of where they live.
    Army-sponsored Community Child Care Programs such as Operation 
Military Child Care and Military Child Care in Your Neighborhood 
provide fee assistance to geographically dispersed Families to reduce 
out-of-pocket child care expenses. Operation Military Kids coordinates 
networks of citizens and organizations in every state to support 
military children impacted by deployment.
    Detailed information about these programs is available at the Army 
OneSource website, www.myarmyonesource.com.
    Question. Jobs have also been a concern of military spouses of 
deployed soldiers or who transition because of a Permanent Change of 
Station (PCS). Especially in the current job market, what is the Army 
doing to assist family members seeking employment after a PCS? What 
about spouses who must quit their job or reduce the number of hours 
worked caused by a deployment and the demands of the family?
    Answer. Families are important to the Army, a priority to soldiers, 
and a vital factor in the Army's overall readiness. A prepared family 
is better able to manage deployment, long-term separations and Army 
life in general. The Army has a myriad of employment support programs 
that are geared towards our spouses, both Active and Reserve Component.
    The Employment Readiness Program provides assistance to family 
members in acquiring skills, networks and resources that will allow 
them to participate in the workforce and to develop a career plan. 
Employment services are available to all Army Components, regardless of 
location. Services include: career counseling and coaching; employment 
training classes; job fairs; Army Spouse Career Assessment Tool; job 
listings and information and assistance on the Military Spouse Career 
Advancement Account.
    The Army Spouse Employment Partnership (ASEP) is an expanding 
partnership that is mutually beneficial to the Army and corporate 
America. ASEP consists of a small group of committed partners from the 
private sector, military and Federal government that have pledged their 
best efforts to increase employment and career opportunities for 
military spouses. The partnership provides spouses the opportunity to 
attain financial security and achieve employment goals through career 
mobility and enhanced employment options.
    The Dependents' Educational Assistance (DEA) Program provides 
education and training opportunities to eligible dependents of deceased 
and/or permanently disabled veterans. DEA reduces tuition by offering 
up to 45 months of education benefits.
    The Stateside Spouse Education Assistance Program (SSEAP) is a 
need-based education assistance program designed to provide spouses of 
active duty and retired Army Soldiers, and widows(ers) of Army Soldiers 
who died either on active duty or in a retired status, and residing in 
the United States, with financial assistance in pursuing educational 
goals. The program assists spouses/widows(ers) in gaining the education 
required to allow them to qualify for increased occupational 
opportunities. SEAP provides for up to $2,500 maximum per academic year 
for fees, supplies, or books.
    In addition to these Army programs, many communities partner with 
their local installations through the Army Community Covenant and host 
job fairs and job centers to help spouses with employment searches, 
resume writing, interviewing techniques and other services to help them 
find meaningful employment.
    More detailed information on all of these programs may be found at 
the Army OneSource website, the Army's online resource for information 
on programs, services and support available to soldiers and their 
families.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran

                        RESILIENCY OF THE FORCE

    Question. Secretary McHugh, I have been informed that a third of 
the suicides this year have occurred at Fort Hood and Fort Carson. What 
measures are being taken alongside the Army Campaign Plan for Health 
Promotion, Risk Reduction and Suicide Prevention to address additional 
stressors at these two forts?
    Answer. As of March 2010, Fort Carson and Fort Hood each had 4 
suicide deaths. These two posts account for 24 percent of Active Duty 
suicide deaths this year (33). At this point last year, the Army had 53 
suicide deaths. The Army's senior leadership is committed to sustaining 
our current emphasis on this problem.
    The Army conducts an extensive review of every suicide death to 
improve our understanding of why Soldiers choose to take their lives. 
The Army's Suicide Prevention Task Force has created a standardized 37 
line report that units use to analyze the factors surrounding each 
Soldier's suicide. Within 30 days after a Soldiers death, this report 
is sent to Headquarters Department of the Army for review, and a 
General Officer must ``back brief'' the Vice Chief of Staff of the Army 
during a monthly senior review board meeting. This back brief is done 
via a world-wide video teleconference, so that leaders across the Army 
can share lessons learned and improve early recognition of at-risk 
Soldiers.
    Additionally, the Army Public Health Command (Provisional) has 
created the Army Behavioral Health Integrated Data Environment (ABHIDE) 
database. This database provides a standardized, enterprise-wide 
capability designed to integrate information from legal, medical and 
personnel databases into a comprehensive health surveillance system to 
support mental, behavioral, social and public health activities.
    By increasing Soldiers' access to behavioral health (BH) care and 
the reducing stigma associated with seeking such care, the Army hopes 
to positively impact the delivery of BH services in garrison. At Fort 
Carson, Mobile Behavior Health Teams (MBHT) were created to meet this 
need. Each MBHT, which provides Soldiers with expedited BH evaluations 
and community-level treatment, can support a full Brigade Combat Team 
(BCT) (3,000-5,000 Soldiers) and has a licensed BH provider assigned 
exclusively to each battalion (500-600 Soldiers) (BCT). This system 
provides a single point of entry into BH care for Soldiers and a single 
point of contact for leaders with questions. The U.S. Army Public 
Health Command (Provisional) has evaluated similar BH outreach 
initiatives at other Army installations, such as Fort Sill's Outreach 
Program in Oklahoma, and is currently conducting a full program 
evaluation of MBHT.
    Preliminary results suggest a downward trend in off-post referrals, 
wait times for Senate Appropriations Committee appointment and key 
suicide indicators. Efforts to measure the impact of MBHT on BH 
accessibility, provider trust, stigma and mission readiness are 
ongoing. A final report is expected in January 2011.
    Fort Hood's Resiliency Campus focuses on wellness for its soldiers, 
families, and retirees. The campus is dedicated to integrating the 
body, mind, and spirit by aiding visitors in reaching individualized 
and measurable wellness goals through education and comprehensive 
programs. The Resiliency Campus is based on the idea of helping the 
soldier and the family before the crisis begins. Through a network of 
support services, the campus hopes to train and empower all soldiers 
and their families to be resilient, to continue fighting in spite of 
life's challenges.
    Question. Secretary McHugh, are resources available to Guardsmen 
and Reservists after they come off of active duty to help build 
resiliency? Is there outreach for their families when these soldiers 
return to a traditional Reservist role?
    Answer. The Army, Army Reserve and Army National Guard (ARNG) are 
working diligently to increase the range and quality of services 
provided to soldiers throughout the deployment cycle and beyond. 
Currently, there are limited resources available through the Yellow 
Ribbon Reintegration Program and the Comprehensive Soldier Fitness 
(CSF) Program. The Yellow Ribbon Reintegration Program contains 
outreach activities to help soldiers and their families with 
transitioning to a traditional role. In CSF, Master Resilience Trainers 
are being trained to teach resiliency to these soldiers. Soldiers and 
families can also use the ARNG's Family Assistance Centers to help with 
reintegration. The ARNG is looking to increase its capability to train 
Master Resilience Trainers.

                         ARMED SCOUT HELICOPTER

    Question. Secretary McHugh, Secretary Gates has been critical of 
recent modernization efforts and has stated that too often we seek a 99 
percent solution over a period of years rather the 75 percent solution 
over a period of months that's required for stability and 
counterinsurgency missions. I don't know what program or programs 
Secretary Gates had in mind when he expressed that view, but the last 
two Army efforts to replace the Kiowa Warrior helicopter fleet--the 
Comanche and the Armed Reconnaissance Helicopter programs--resulted in 
program terminations due to requirements growth, cost overruns and 
schedule delays. In response to these program replacement missteps, 
this Committee recommended the Army consider upgrades to existing in-
service rotorcraft as a low-risk path to a Kiowa replacement.
    Mr. Secretary, I know you have been in your job for less than 6 
months, so you may not have had time to consider the Committee's 
recommendation. If you have had the time to consider the merits of 
upgrading existing in-service rotorcraft, would you share with the 
Committee your thoughts, and if you have not had time to consider this 
approach, would you personally look at this and get back to us with 
your thoughts?
    Answer. Considering the rapidly changing battlefield and new 
developments in Tactics, Techniques, and Procedures, existing in-
service rotorcraft are receiving extensive modifications. 
Unfortunately, modifications often add weight, which has a negative 
effect on overall aircraft performance. An example is the aging OH-58D 
Kiowa Warrior fleet. Although the Kiowa Warrior has performed 
outstandingly in theater, there are materiel limitations. There are 
technology improvements, however, which are available to help address 
capability gaps on a new platform.
    On April 14, 2009, my predecessor approved a strategy to reinvest 
in the Kiowa Warrior until a viable replacement is procured. The 
strategy involves executing upgrades to the fielded fleet, weight 
reduction efforts and the Cockpit and Sensor Upgrade Program. This 
funded ACAT II program will address obsolescence, safety, weight issues 
in order to improve the aircraft's performance in the current combat 
environment. We expect to sustain the Kiowa Warrior until 2025.
    The Army is also exploring all options to leverage existing and 
potential developmental solutions. In July 2009, the Defense 
Acquisition Executive directed the Army to conduct an Analysis of 
Alternatives to meet the Army's aerial reconnaissance mission and 
determine a replacement for the Kiowa Warrior. The AoA will be 
conducted in two non-sequential phases with the preliminary results 
completed in December 2010 and final results published in April 2011.

                BRIGADE COMBAT TEAM (BCT) MODERNIZATION

    Question. Secretary McHugh, what are the lessons learned from the 
terminated Future Combat System program, and what steps are being taken 
to ensure they are incorporated in other Army modernization efforts?
    Answer. After cancellation of the FCS program, the Army conducted 
an analysis of requirements based on the lessons learned from the last 
8 years of war. We retained the family of systems knowledge base 
acquired during the FCS program, as well as technologies related to the 
network and unmanned/ground vehicles. This analysis will now support 
the BCT Modernization Strategy.
    We found that modeling, simulations, and scenarios depicting FCS 
capabilities and operations became increasingly complex over time. This 
resulted in fewer scenarios that limited our ability to analyze across 
a wide range of relevant operating conditions. A key lesson learned 
from this experience was that the Lead Systems Integrator (LSI) was 
contracted to produce analytical deliverables that were duplicative of 
what the Army was doing and that were more advocacy than analysis. 
These products were therefore of questionable value. Additionally, 
during critical early program stages, the unique technical expertise 
and capabilities resident within the Army were not leveraged by the 
Program Manager/LSI team, especially for platform survivability and the 
network. The Army has moved away from the LSI model and restructured 
the contract, establishing a Prime Contractor to deliver Increment 1 
capabilities to our Brigade Combat Teams.
    While retaining the effort to integrate, develop, and field 
capabilities as a system, the Army is also fully embracing competition 
and Department of Defense Instruction 5000.2 to support our BCT 
Modernization strategy. For example, the Ground Combat Vehicle program 
will be competitive beginning at Milestone A and using best practices, 
including competitive prototyping through its acquisition process.
    Further, FCS did not adequately revalidate operational concepts at 
regular intervals to address lessons learned or reassess technology 
development. The BCT Modernization Plan will focus on technologically 
feasible and affordable solutions, address lessons learned, allow for 
incremental technological development, and have appropriate mitigation 
plans in place. For example, the Army will field Increment 1 
capabilities only when they are mature; but they will be part of an 
incremental process that will allow for technological upgrades and 
refinements even during the fielding process.
    Early in development, the Army decided to let soldiers test and 
evaluate the systems through the Army Evaluation Task Force. As a 
result, soldier feedback has played a key role in optimizing designs 
throughout the development phase--ultimately leading to a better end 
product. Increment 1 capabilities are now in their third year of the 4 
year test cycle.

            MINE RESISTANT AMBUSH PROTECTED (MRAP) VEHICLES

    Question. Secretary McHugh, considering Mine Resistant Ambush-
Protected vehicles are being incorporated into unit formations and the 
Army may maintain a presence in Afghanistan for a very long time, do 
you foresee an increasing production requirement for MRAP vehicles, and 
do you plan to look at maintaining a production capability instead of 
cycling production and the workforce between full production and idle 
production lines?
    Answer. Current MRAP production will end in December 2010, and no 
follow-on production is planned at this time. This will satisfy every 
known MRAP requirement received to date. However, given the evolving 
nature of the MRAP warfighting requirements, the Department is 
confident in the industrial base's capacity and ability to respond to 
any future requirements. As of December 2010, 25,700 MRAP vehicles will 
have been produced to meet Joint Requirements Oversight Council (JROC)-
validated requirements from all Services (19,368 for the Army). This 
includes 8,104 MRAP All-Terrain Vehicles (M-ATV), the latest MRAP 
variant designed specifically for the OEF environment. Of the 8,104 M-
ATVs to be produced, 5,776 will be for the Army.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell

                                SUICIDES

    Question. Congress has established a national suicide hotline for 
returning troops, as well as increased funding for mental health 
programs for active duty military personnel. However, there remain a 
high number of soldier suicides. For example, at least 11 suicides 
occurred last year at Fort Campbell. What preventative measures are the 
Department of Defense taking to address this problem? What, if any, 
legislative action would the Department need Congress to take to expand 
suicide awareness and education on posts?
    Answer. The Army has taken unprecedented steps to reduce suicidal 
behavior in both the Active and Reserve Components. Every day, the 
Army's senior leaders address the issue of suicide prevention. For 
example, we conducted an Army-wide Suicide Prevention Stand-Down and 
Chain Teach (March thru July 2009), released an interactive and 
awareness training video and partnered with the National Institute of 
Mental Health to begin a 5-year study into risk and resilience factors. 
In 2010, we are continuing this effort by expanding the training for 
``peer to peer support'' using the Ask-Care-Escort and other 
nationally-recognized suicide intervention models, developing new 
interactive and awareness training videos and increasing access to 
behavioral healthcare thru telemedicine initiatives.
    The Army fully supports the requirement set forth in the 2010 NDAA, 
which requires ``person to person'' behavioral health assessments for 
every Service Member upon their redeployment from an overseas 
operation. Finally, the Army is fully engaged with the Congressionally 
directed ``DOD Task Force for the Prevention of Suicide by Members of 
the Armed Forces,'' which is required to submit a report to Congress 
this summer providing recommended legislative recommendations to 
improve suicide prevention and awareness training and education.
    Army actions in 2009 to combat increasing suicide rates included 
the following:
  --Produced the interactive ``Beyond the Front'' training video.
  --Produced the ``Shoulder to Shoulder: No Soldier Stands Alone'' 
        training video.
  --Updated AR 600-63 (Army Health Promotion) and DA Pam 600-24 (Health 
        Promotion, Risk Reduction and Suicide Prevention).
  --Published Suicide Awareness Pocket Guide for all Soldiers.
  --Increased access to behavioral health and substance abuse 
        counseling.
  --National Institute of Mental Health (NIMH) grant for the Army Study 
        to Assess Risk and Resilience in Service Members (STARRS), $50 
        million/5 year study--quarterly updates to VCSA to accelerate 
        lessons learned.
  --Tele-Behavioral Health screening pilot project with 25th ID, 100 
        percent screening thru face to face, VTC, or Computer Skype-
        like counseling.
  --Approved nationally-recognized best-practice suicide intervention 
        skills training for Army use to assist in early recognition of 
        at-risk individuals
    Army actions for 2010 include the following:
  --Developing interactive ``Home Front'' training video.
  --Developing sequel to ``Shoulder to Shoulder'' training video.
  --Developing an Additional Skill Identifier for certified suicide 
        intervention skills trainers.
  --Expanding Tele-Behavioral Health pilot project, evaluate 
        effectiveness, and determine feasibility for using Army wide.
  --Developing program effectiveness measures.
  --Utilizing the Suicide Specialized Augmentation Response Team/Staff 
        Assistance Team to support commanders by assessing programs, 
        policies, and resources, and identify gaps to improve local 
        suicide prevention programs.

                          COUNSELING SERVICES

    Question. With the current deployment schedule, a heavy toll is 
being placed upon the spouses and children of servicemembers. How 
accessible are counseling services for deployed servicemembers' spouses 
and children? Are these services available on all major military 
installations? What programs are available for those living away from 
major military installations?
    Answer. Counseling services are available for deployed service 
members' spouses and children on all major military installations. 
Spouses and children may access Military and Family Life Consultants 
through the Army Community Service by self referral, without having to 
provide a reason for seeking these services, or via Military OneSource.
    Military and Family Life Consultants are Licensed Clinical Social 
Workers, Professional Counselors, Marriage and Family Therapists, and 
Psychologists. They provide six free informal and confidential 
counseling sessions. No records are kept and flexible appointment times 
and locations are offered. Military and Family Life Consultants are 
also available to assist soldiers who are experiencing difficulty 
coping with daily life concerns and issues.
    For those family members who do not live near a military 
installation, the Department of Defense developed Military OneSource. 
Military OneSource is a free information center and website where 
family members can seek assistance 24 hours a day, 7 days a week. 
Counseling is provided by phone or in person by Masters-level 
consultants on issues such as family support, emotional support, debt 
management and legal problems for up to 12 sessions at no cost to the 
soldier. Military OneSource can also assist with the identification of 
a consultant in the family's local area. Military OneSource does not 
release information about users of the services, with the exception of 
issues of child abuse, elder abuse, spousal abuse and/or risk of harm 
to self or others. Military OneSource can be accessed at 
www.militaryonesource.com or 1-800-342-9647.
    Family Members may complete a free, voluntary online behavioral 
health self-assessment, and obtain referrals at 
www.MilitaryMentalHealth.org. This is an approach to assist soldiers 
and family members with identifying symptoms and getting assistance. It 
provides confidential and immediate feedback, as well as referrals to 
TRICARE, Veterans Administration Centers, and Military OneSource.
    In addition to the behavioral healthcare services offered at our 
military treatment facilities, the Army Medical Command recently 
established the Child, Adolescent and Family Behavioral Health 
Proponency (CAF-BHP). CAF-BHP, located at Joint Base Lewis McChord 
(JBLM), addresses Army-wide family behavioral health needs. Its mission 
is to support and sustain a comprehensive, integrated, behavioral 
health system of care for military children and their families. The 
CAF-BHP collaborates with national subject matter experts and 
professional organizations to develop and promote evidence-based 
behavioral health treatments for military children and their families. 
The CAF-BHP is developing media-driven information campaigns to address 
military culture and the stigma associated with seeking behavioral 
healthcare.

                                HOSPITAL

    Question. Ireland Army Community Hospital at Fort Knox is one of 
the oldest hospitals in the Army. With the new Brigade Combat Team 
stationed at the post, I am concerned over the state of the current 
hospital and its ability to meet the increased demands placed upon it. 
What is the status of the Army's decision on whether and when to build 
a replacement?
    Answer. The Army ranks the Fort Knox Hospital replacement as our 
second highest priority, behind a significant addition/alteration 
project at Tripler Army Medical Center, Fort Shafter, Hawaii. However, 
the final decision to replace the 52-year old facility will be made by 
the Department of Defense (DOD). DOD Health Affairs uses a Capital 
Investment Decision Model (CIDM) process to rank order the consolidated 
military medical construction priorities for all three Services. The 
CIDM determines the Services' priority projects according to weighted 
and scaled criteria, and by assigning scores by a 12 member Tri-service 
Capital Investment Review Board. The results of the most recent CIDM 
for the fiscal year 2012-17 POM are expected in mid to late May, and 
will determine if and when Ireland Army Community Hospital is 
programmed for replacement.

                                PTSD/TBI

    Question. What are the typical steps taken to identify soldiers who 
may have post-traumatic stress disorder (PTSD) and traumatic brain 
injuries (TBI) to ensure they get the proper care? Are there any 
further legislative steps that Congress could take to improve screening 
and the delivery of care to soldiers with PTSD and TBI?
    Answer. Screening Army Soldiers for PTSD and TBI is intensive. The 
Army recently implemented new guidelines for identification and 
treatment of TBI in Theater. Upon return from deployment, there is 100 
percent screening for PTSD and TBI exposure using the Post-Deployment 
Health Assessment (PDHA). The PDHA is mandatory within 30 days 
following deployment. An enhanced version of the PDHA replaced the 
April 2003 version in January 2008. A panel of mental health experts 
constructed the PDHA questions, and periodically reviews it to ensure 
it meets the intent.
    Many soldiers experience an initial ``honeymoon'' period when 
returning from a combat tour, when symptoms do not manifest themselves 
immediately. Accordingly, we initiated the Post Deployment Health Re-
Assessment (PDHRA) in 2005. The PDHRA occurs between 90 and 180 days 
post-deployment. A review and enhancement process has been underway for 
the PDHRA, and the January 2008 edition replaced the original 2005 
version. In addition to the PDHA and PDHRA, the Army requires soldiers 
to complete a Periodic Health Assessment annually, which again screens 
for TBI and PTSD. Army Knowledge Online (AKO) now integrates all of 
these screening requirements with a readiness stoplight (i.e. red, 
green, amber) status, so both the soldier and his or her commander are 
aware when a screening is overdue. All primary care providers receive 
training in the identification of PTSD and TBI. As part of the Respect-
Mil Program (http://www.pdhealth.mil/respect-mil/index1.asp) all 
enrolled soldiers are screened for PTSD and depression.
    In summary, the typical soldier is assessed and reassessed for TBI 
and PTSD at several points throughout his or her first year back from 
combat, and periodically thereafter. The Army is fully engaged in 
screening, as well as research to improve early detection, care, and 
treatment. Additionally, we are working to further de-stigmatize help 
seeking behaviors and to protect Service Members from adverse career 
consequences. We do not request any legislative action.

                          BRIGADE COMBAT TEAM

    Question. With the recent addition of the Brigade Combat Team at 
Fort Knox, what is the Army doing to ensure that the installation is 
capable of deploying the unit with dispatch?
    Answer. Fort Knox is currently designated as a power support 
platform (PSP) with the mission of strategically deploying individuals 
and units from all Services to include Department of Defense civilian 
employees and Reserve Components. Even with the addition of an Infantry 
Brigade Combat Team, Fort Knox has sufficient capacity to support all 
deploying units.
    The Army is working on several methods to maintain Fort Knox's 
ability to support deploying units, including Forces Command providing 
additional resources to support movement/deployment operations under 
Title 10 requirements. Additionally, future military construction 
projects will be programmed to improve Fort Knox's services, 
infrastructure and deployment readiness as part of the Army Power 
Projection Upgrade Program (AP3).

                            HOUSING BARRACKS

    Question. In light of heavy deployments, I am concerned that many 
installations, including Fort Campbell, are still housing soldiers in 
Korean War-era barracks. What is the Department of Defense doing to 
ensure housing is brought up to date to help increase morale for our 
already overly taxed troops?
    Answer. At Fort Campbell the Army presently has barrack 
construction projects underway and programmed for fiscal year 2011, 
2012 and 2013. Completion of these projects will eliminate the need to 
occupy Korean War-era barracks at the installation.
    In 2008, the Army completed the Permanent Party Barracks Upgrade 
Program (BUP) using Army Sustainment, Restoration, & Modernization 
funding. BUP eliminated many inadequate barracks through modernization 
of existing facilities where feasible.
    Additionally, the Permanent Party Barracks Modernization Program 
(BMP) is scheduled for completion in the fiscal year 2013 MILCON 
program. BMP Military Construction eliminates the Army's barracks 
shortfall and eliminates inadequate barracks where modernization with 
Restoration and Modernization funding was not feasible.
    However, neither BUP nor BMP specifically address buyout of certain 
types of buildings. Facility modernization not included in BUP or BMP, 
typically involves gutting the building to its structural slab and 
columns then reconfiguring it to a 1+1 standard and adds approximately 
30 years to the life of the facility.
    The Army continuously reviews its capital investment strategy to 
validate the plans for replacement and sustainment of barracks 
facilities, a major feature in the Army Campaign Plan. These plans 
address Korean-War era, Vietnam-War era and any other barracks built 
before 1980.

                         BLUE GRASS ARMY DEPOT

    Question. Why is the Blue Grass Army Depot chemical weapons 
stockpile in central Kentucky not being monitored around the clock?
    Answer. The Blue Grass Chemical Activity (BGCA), which is 
subordinate to the U.S. Army Chemical Materials Agency, is in charge of 
the safe storage of chemical weapons at Blue Grass Army Depot. The 
stockpile is stored in earth covered steel reinforced concrete bunkers. 
The bunkers are in a secured area with intrusion detection, and armed 
guards on roving patrols providing surveillance 24 hours a day.
    The BGCA relies on multiple safeguards to monitor the chemical 
munitions stockpile to ensure public and workforce safety. These 
safeguards include monitoring in accordance with our Kentucky 
Department of Environment Protection permit, visual inspections and 
application of munitions lot leaker data from both BGCA and other 
chemical agent storage sites. These safeguards, as well as an active 
Chemical Stockpile Emergency Response Program have been in place at 
BGCA and all Army chemical stockpile storage sites for decades. History 
has proven their effectiveness at protecting both the workforce and the 
public.
    Question. It is my understanding a directive, FRAGO 10-041, was 
recently promulgated mandating that several restaurant concepts at 
military bases in Afghanistan be closed. What is the policy 
justification for this action? Why were some concepts chosen but not 
others? Might this limitation on food options have a negative impact on 
morale among our warfighters?
    Answer. FRAGO 10-041 was issued on February 3, 2010 by the United 
States Forces--Afghanistan Commander to implement a 60-day closure plan 
for specific commercial activities available in Afghanistan. This 
included all commercial fast food restaurants brought in by the Army 
and Air Force Exchange Service. Afghanistan is a war zone, which has 
very limited ground routes into and within it. The Commander's intent 
is to eliminate all non-mission essential traffic, because of higher 
priority cargo needing to be transported over those routes.
    Our forces have access to various high quality meals in military 
dining facilities and therefore commercial fast food restaurants are 
considered as non-mission essential. Furthermore, those fast food 
restaurants were only available to our forces operating on the larger 
bases. This decision levels the unequal lifestyle between those forward 
deployed and those living on fixed bases. We do not expect a 
significant morale issue to result.
                                 ______
                                 
              Questions Submitted by Senator Sam Brownback

                                SCHOOLS

    Question. Secretary McHugh, I wrote to you in December to raise the 
issue of overcrowding in schools on Fort Riley. The Army's response to 
that question was that the issue is being studied, but in the meantime, 
the problem is getting worse.
    The community around Fort Riley has spent all of its available 
resources but can't keep pace with the influx of students. For that 
reason, General Brooks, the First Infantry Division Commander, 
requested help from the Army and from the Department of Defense to 
address the overcrowding problem.
    I also understand other installations that gained forces under the 
most recent round of BRAC, such as Fort Lewis in Washington, face 
similar problems.
    What is the Army's plan to handle this issue?
    Answer. The Army has no specific authority to fund public school 
construction. However, we recognize that some of the school districts 
serving our military children are experiencing school construction 
funding challenges, specifically, Fort Riley and Joint Base Lewis 
McChord (formerly named Fort Lewis), in Washington.
    To better understand the issues for all school districts serving 
our military Families, the Army recently completed a comprehensive 
condition and capacity inventory of all on-post schools in the United 
States. Results indicate that over 50 percent of the 122 on-post 
schools are in need of renovation or replacement. Our plan is to work 
with the Department of Defense, the Department of Education and the 
Congress to develop solutions for those districts that have exhausted 
local and state funding options. Please note that, although operated by 
the local school district, six of the seven schools at Joint Base Lewis 
McChord are owned by the Department of Education. Department of 
Education has the responsibility to fund necessary renovation or 
reconstruction for these schools, hence our need to work with them to 
develop solutions. Army owns the remaining school.
    Question. Does the Army require additional money to handle the 
issue of over-crowded schools at posts that gained forces through BRAC 
and Grow the Force? Was such funding included in the fiscal year 2011 
budget request, and if not, why not?
    Answer. Public school construction is normally a state and local 
responsibility. Because the Army has no specific authority to fund 
public school construction, we have not included such funding in the 
fiscal year 2011 budget request. Additional authorization and 
appropriation legislation would be needed for the Department of Defense 
to construct public schools.
    Question. Does the Army need any statutory changes to facilitate 
on-post school construction or modification?
    Answer. Yes, the Army would need a legislative change to assist 
local public school districts with school construction. One potential 
avenue would be through the use of American Recovery and Reinvestment 
Act funds specifically targeted to school districts that have been 
significantly impacted by Base Realignment and Closure or Grow the Army 
stationing decisions.
                                 ______
                                 
             Questions Submitted to General George W. Casey
            Question Submitted by Chairman Daniel K. Inouye

                          EQUIPMENT IN THEATER

    Question. General Casey, the Army has massive amounts of equipment 
in Iraq which, as U.S. forces withdraw, require evaluation and transfer 
for reset, use in Afghanistan or disposal. We hear that the drawdown is 
well underway and that over 300,000 containers are moving equipment out 
each month. General, what is the prospective timeline for retrograde 
and who is in charge of this effort?
    Answer. The Commanding General, USARCENT (the Army component of 
U.S. Central command), is in charge of orchestrating the retrograde of 
Army materiel from Iraq. He has considerable support from the Army 
Materiel Command, which has a substantial presence in both Kuwait and 
Iraq. As directed by the President, the timeline for the drawdown in 
Iraq is to reduce our military presence to 50,000 U.S. forces by August 
31, 2010 and to have all U.S. forces out of Iraq by the end of December 
2011. We have developed synchronized and coordinated plans for the 
drawdown of personnel and for the redistribution and disposition of the 
equipment and supplies in Iraq. As you noted, that process is well 
underway. In fact, we are ahead of schedule against the our established 
monthly targets in every measurable area (e.g., personnel drawdown, 
vehicles, supplies, base closure, etc.).
                                 ______
                                 
             Question Submitted by Senator Patrick J. Leahy

                            RECAPITALIZATION

    Question. As the Army undertakes its recapitalization program, are 
there any differences in the rates of recapitalization for Army 
National Guard and Reserve units and the recapitalization of active 
duty Army units? Can you explain the rationale for the discrepancy if 
one exists?
    Answer. The Army recapitalizes equipment based on equipment type, 
not Army components. There is no difference in recapitalization of 
equipment between Reserve Components and Active Duty units.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray

            COMPREHENSIVE SOLDIER FITNESS AND MENTAL HEALTH

    Question. General Casey, I received a brief on Comprehensive 
Soldier Fitness by General Cornum early last year (February 2009) year 
and you spoke about it earlier today. This program is a valuable tool 
for equipping and training our soldiers and family members to maximize 
their potential and face the physical and psychological challenges of 
sustained operations. What is the status of this program?
    Answer. Comprehensive Soldier Fitness (CSF) is a rapidly maturing 
program designed to develop psychological and physiological resilience 
across the entire Army community, including soldiers, family members 
and Department of the Army civilians. To date, over 420,000 soldiers 
have taken the Global Assessment Tool, which is a web-based strengths 
assessment. Eight web-based training modules that target resiliency 
skills are currently available to soldiers once they complete the 
Global Assessment Tool, and 20 modules will be available by the end of 
fiscal year 2010. Additionally, CSF has trained 829 Master Resilience 
Trainers at the University of Pennsylvania and satellite locations, 
with a goal of training at least 1,800 trainers by the end of fiscal 
year 2010. These Master Resilience Trainers lead resilience development 
training in their units and local communities. CSF is currently 
budgeted for $42 million annually over the next 5 years.

                             MENTAL HEALTH

    Question. General Casey, your efforts to reduce the stigma of 
mental health has been worthwhile. I understand that the number of 
soldiers who feel there is a stigma has been reduced from 80 to 50 
percent. However, there is a difference between those who feel there is 
a stigma versus those who are actually coming forward to seek mental 
health treatment. Despite the reduced number of soldiers who feel there 
is a stigma, are more soldiers coming forward to seeking treatment?
    Answer. Yes, more soldiers are coming forward to seek treatment. 
Our behavioral health utilization data shows that active duty 
utilization of behavioral health services has nearly doubled from 2005 
to 2009.
    Question. What actions is the Army taking to continue to reduce the 
embarrassment around seeking mental help and encourage soldiers to seek 
treatment?
    Answer. The Army is aggressively working to address perceived 
stigma and/or fear of negative repercussions associated with seeking 
behavioral healthcare. We have developed programs not only to help 
decrease stigma, but to also provide an increased layer of privacy.
    The Re-Engineering Systems of Primary Care Treatment in the 
Military is a program designed to decrease stigma by placing these 
services within primary care facilities. Through this program, any 
visit a soldier makes to his/her primary care physician for any reason 
is an opportunity to screen the Soldier for symptoms associated with 
post-traumatic stress disorder (PTSD) and/or other behavioral health 
diagnoses. This program is also accessible via the web, where soldiers 
can self-refer. Services provided are confidential, with the exception 
of the determination that a Soldier is at risk of harm to self or 
others.
    The Soldier Evaluation for Life Fitness program incorporates 
behavioral health as a routine component of the health readiness 
process for all soldiers returning to their home stations following 
deployment. Since every soldier receives a consultation on-site, no one 
is stigmatized when seen by a behavioral healthcare practitioner. 
Through the Soldier Evaluation for Life Fitness program, soldiers first 
complete a computer-based self-assessment. On-site clinicians review 
the results of the assessments immediately, allowing them to tailor 
their consultations to meet each soldier's unique needs. Soldiers can 
then be evaluated for individual health risks that may range from PTSD 
and other behavioral health diagnoses to physical health conditions.
    Military OneSource is a free information center and website, where 
soldiers can seek assistance 24 hours/day, 7 days/week. Counseling is 
provided by phone or in person by Masters-level consultants on issues 
such as family support, emotional support, debt management, and legal 
issues at no cost to the soldier for up to 12 sessions. Military 
OneSource does not release information about users of the services, 
with the exception of issues of child abuse, elder abuse, spousal 
abuse, and/or risk of harm to self or others. Military OneSource can be 
accessed at www.militaryonesource.com or 1-800-342-9647.
    Soldiers may complete a free, voluntary online behavioral health 
self-assessment, and obtain referrals at www.MilitaryMentalHealth.org. 
This is an approach to assist soldiers and family members with 
identifying symptoms and getting assistance. It provides confidential 
and immediate feedback, as well as referrals to TRICARE, Veterans 
Administration Centers, and Military OneSource.
    Military and Family Life Consultants are also available to assist 
soldiers who are experiencing difficulty coping. Military and family 
life consultants are licensed clinical social workers, professional 
counselors, marriage and family therapists, and psychologists. They 
provide six free informal and confidential counseling sessions. No 
records are kept, and flexible appointment times and locations are 
offered. Soldiers may access military and family life consultants 
through the Army Community Services by self referral, without having to 
provide a reason for seeking these services, or via Military OneSource, 
which can assist Families with the identification of consultants in the 
local area.
    Question. Does your plan include the mental health of families, and 
if so what is that plan?
    Answer. The Army is committed to the Army Family Covenant, which 
recognizes the strong commitment and many sacrifices that families 
make. The Army also knows that the strength of soldiers is largely 
dependent upon the strength of their families. To address the 
behavioral health needs of families, the Army supports many deployment-
related programs. For example, two well-developed programs include the 
Exceptional Family Member Program, which focuses on assistance for 
families with special needs; and the Family Advocacy Program, which 
strengthens family relationships and provides assistance and referral 
to victims of domestic violence and sexual assault.
    The Army also supports the Military and Family Life Consultant 
Program (MFLC), which provides deployment-related problem-solving 
consultation services for families and children in schools on post and 
in the local community. The Army has instituted Soldier and Family 
Assistance Centers (SFAC) at all the Warrior Transition Units. The SFAC 
is a soldier and family-friendly environment that has become a popular 
location for Warriors in Transition and their Families. The Center 
provides individualized, integrated support services.
    To augment the Military Treatment Facility's behavioral healthcare 
services, the Army Medical Command recently established the Child, 
Adolescent and Family Behavioral Health Proponency (CAF-BHP) at Joint 
Base Lewis McChord, Tacoma, Washington. This new Proponency 
specifically addresses family behavioral health needs; its mission is 
to support and sustain a comprehensive, integrated, behavioral health 
system of care for military children and their families.
    The CAF-BHP collaborates with national subject matter experts and 
professional organizations, including the American Academy of 
Pediatrics, American Academy of Child and Adolescent Psychiatry, and 
American Psychological Association, to develop and promote evidence-
based behavioral health treatments for military children and their 
families. The CAF-BHP focuses on two new innovative clinical programs, 
the School Behavioral Health (SBH) and Child and Family Assistance 
Center (CAFAC). CAFACs are being developed and deployed to help 
mitigate traditional stove piping of behavioral health services. The 
CAFAC will provide adult and child family members with 24/7 telephone 
triage and to mental health services at a single location. Services 
include psychiatric, psychological, social services and community 
resourcing. This integrated, comprehensive behavioral healthcare 
delivery system promotes military readiness, wellness, and resilience 
in Army children and Families.
    Schofield Barracks has an established CAFAC and we are pursuing 
initiatives at JBLM and Fort Carson. In the next couple of years, we 
expect to establish the program at Fort Hood, Fort Bragg, Fort Bliss, 
Fort Campbell, Fort Sill, and Fort Drum. To promote evidence-based 
treatments and best practices, the CAF-BHP trains primary care 
providers and their staff in screening, diagnosing and treating common 
behavioral health concerns. The CAF-BHP also designs marketing 
strategies to decrease the stigma associated with seeking behavioral 
healthcare.

                            STRYKER V HULLS

    Question. General Casey, as you well know, three Stryker brigades 
from Fort Lewis Washington are on deployment today. Two are in Iraq and 
another in Afghanistan. It is my understanding the Army has gone to 
great lengths to enhance the safety of these troops by adding armor 
kits to the vehicles to defeat various threats. It is also my 
understanding that a so-called double-V hull--something similar to the 
MRAP vehicle--has been developed for the Stryker to further increase 
the protection of our soldiers. Can you explain the utility of the 
double-V hull and if this is something we should be doing to protect 
those brave Stryker brigade soldiers?
    Answer. The Double V-hull enhancement shows great potential for 
increasing survivability and mitigating the blast effects of Improvised 
Explosive Devices. The Double V-hull is an accelerated portion of the 
current Army acquisition strategy for Stryker modernization. The 
Double-V shaped hull will potentially provide Mine Resistant Ambush 
Protected vehicle-like protection to a proven fighting vehicle in the 
Army's most highly demanded Brigade Combat Team.
    If testing proves successful, the Army anticipates fielding an 
initial capability of Double V-hulled Strykers in late fiscal year 
2011, with a complete brigade set (minus Mobile Gun System and Nuclear 
Biological Chemical Reconnaissance Vehicle) to Operation Enduring 
Freedom by late fiscal year 2012.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran

                         RESTORING BALANCE/RISK

    Question. General Casey, over the past few years, we have heard 
about efforts to restore balance to the Army. In your prepared 
testimony, restoring balance is discussed, and it is noted that the 
Army lacks sufficient strategic flexibility and continues to accumulate 
risk to meet the challenges you may face in the future. Can you expand 
on this statement and explain what it means, and over time, how much 
risk has accumulated and is now being accepted by the Army. Does the 
Army and our Armed Forces find themselves in the same situation as the 
proverbial frog in a pot of water--the frog is cozy as the water slowly 
heats-up and doesn't recognize the danger it is in?
    Answer. The Army's forces are committed to prevailing in the 
current fight by ramping up in Afghanistan as we responsibly draw down 
in Iraq. Thanks to the support of Congress and the American people, the 
Army is receiving the resources it needs to restore readiness, but the 
continuing pace of operations means we are consuming that readiness as 
fast as we produce it. The commitment of the Army to Iraq and 
Afghanistan limits the choices available to our national leadership if 
another crisis--whether humanitarian or armed conflict--arises. It also 
means the Army cannot train all units to standard on full spectrum 
operations, which is necessary to provide a trained and ready force for 
the variety of possible missions in a world of persistent conflict.
    We are making progress in restoring balance, reaching a sustainable 
and predictable force rotational cycle in 2012 of 2 years at home 
station for every year deployed for our Active Component, and 4 years 
at home station for every year mobilized for our Reserve Component. 
However, even after the end of major combat operations in Afghanistan, 
we expect a few challenging years of recapitalizing and repairing 
equipment, re-integrating with our families, and training forces for 
full spectrum operations, before we can provide true strategic 
flexibility to our leaders.
    With Congress' continued support, the Army will restore balance by 
achieving sustainable deploy-to-dwell ratios; adequately providing for 
soldiers, civilians, and families; and with reliable, timely, and 
consistent funding, resetting our equipment and pre-positioned stocks. 
These measures will restore readiness and the strategic flexibility 
necessary to provide trained and ready forces for full spectrum 
operations and future contingencies at a tempo that is predictable and 
sustainable for our All-Volunteer Force.

                     ARMY UNMANNED AERIAL VEHICLES

    Question. General Casey, I am informed that the Army plans to 
modify the Shadow Unmanned Aerial Vehicle to meet requirements that the 
terminated Fire Scout program was expected to fulfill. The fiscal year 
2011 budget request includes over a half billion to begin this work. 
General Casey, can you share with the Committee the thought behind the 
Fire Scout termination, and will this $500 million investment in Shadow 
provide your soldiers with the full capability needed to conduct their 
missions?
    Answer. With the termination of Future Combat Systems, we 
determined that the Fire Scout did not fulfill a requirement in the 
modular Brigade Combat Teams (BCT). The improvements that we are making 
to our Shadow fleet will sufficiently address the most critical 
capability gaps in the BCTs. Some of these improvements include 
retrofit kits to increase endurance while adding reliability, laser 
designation capability and NSA Type I encryption. Our BCTs, Fires 
Brigades, Battlefield Surveillance Brigades and Special Forces 
formations will benefit from the additional capabilities funded in the 
fiscal year 2011 President's budget. This improvement effort will 
continue beyond fiscal year 2011 to provide full capability to our 
soldiers.

                        RESILIENCY OF THE FORCE

    Question. General Casey, does the fiscal year 2011 budget continue 
to fully support Army Resiliency initiatives? What other efforts are 
included in this year's budget which was not part of the fiscal year 
2010 program?
    Answer. Yes. Comprehensive Soldier Fitness is fully funded in 
fiscal year 2011 at $42.5 million. Future efforts include expanding the 
Master Resilience Trainers (MRT) program by establishing an MRT course 
at Fort Jackson, South Carolina; reaching out to family members through 
voluntary participation in the Global Assessment Tool; and increasing 
the online Comprehensive Resilience Modules.

                BRIGADE COMBAT TEAM (BCT) MODERNIZATION

    Question. General Casey, over $20 billion has been invested in 
technologies developed under the terminated Future Combat System 
program. The Army now plans to field some of these technologies to Army 
brigades under the Brigade Combat Team Modernization program. What 
systems or technologies are going to be fielded under this effort, and 
how have they performed in recent testing?
    Answer. Increment 1 of Brigade Combat Team (BCT) Modernization 
contains systems from the FCS program. It provides enhanced war fighter 
capabilities to the Current Force in two primary areas. First, it 
provides enhanced situational awareness, force protection and lethality 
through the use of unattended and attended sensors and munitions. 
Second, it provides a communications network backbone for Infantry BCT 
and Battalion Command Networks. Increment 1 capabilities consist of the 
following systems: Unattended Urban and Tactical Ground Sensors, Small 
Unmanned Ground Vehicle, Class I Block 0 Unmanned Air Vehicle, Non Line 
of Sight-Launch System, and Network Integration Kit (for the HMMWV).
    During the 2009 Limited User Test, Increment 1 capabilities met or 
partially met 14 of 15 Army test criteria. The systems did not meet 
reliability criteria. User tests revealed issues with equipment and 
software reliability, availability and maintainability. The program 
office, in coordination with the U.S. Army Test and Evaluation command 
and U.S. Army Training and Doctrine Command, is taking steps to correct 
these issues. To date, more than 94 percent of the hardware issues have 
been corrected and the program is continuing to integrate software 
changes and increased capability in preparation for the 2010 test 
cycle.

            MINE RESISTANT AMBUSH PROTECTED (MRAP) VEHICLES

    Question. General Casey, when Secretary Gates announced his 
adjustments to Defense acquisition programs last year, he terminated 
the manned ground vehicle portion of the Future Combat System. One of 
reasons cited for the termination was that the Army's current vehicle 
program did not include a role for the Mine Resistant Ambush-Protected 
vehicles which has received more than $30 billion of investment. What 
is the Army plan for incorporating Mine Resistant Ambush-Protected 
vehicles across your unit formations?
    Answer. The Mine Resistant Ambush Protected (MRAP) family of 
vehicles has performed well in theater and provides critical protection 
to soldiers against mines and improvised explosive devices. The Army 
plans to place over 15,000 MRAPs and M-ATVs in the force structure. 
Vehicles will be allocated to task organized sets, and deployed when 
MRAP levels of protection are required; used by units to fill existing 
capability gaps; and used in a robust training fleet to assist soldiers 
in maintaining proficiency.
    We will place 9,284 vehicles in the following task organized sets: 
11 Infantry Brigade Combat Teams; 6 Heavy Brigade Combat Teams, 3 
Stryker Brigade Combat Teams and a Multifunctional Support Brigade. The 
Army is currently analyzing set positioning options.
    The Army will place 3,631 vehicles on Transportation, Explosive 
Ordnance Disposal and echelon above brigade Medical unit MTOEs. We will 
also place 1,755 vehicles in training sets around the world and 495 in 
Sustainment Stocks and War Reserve. TRADOC will determine allocation of 
the additional 1,460 MRAP All Terrain Vehicles and 1,300 MRAPs placed 
on contract in February 2010.

                        RESET OF ARMY EQUIPMENT

    Question. General Casey, resetting or recapitalization of Army 
equipment used in operations the past 8 years is requiring 
unprecedented funding levels. It's pointed out in the prepared 
testimony that resetting Army equipment will need to continue an 
additional 2 to 3 years after major deployments end. How does the Army 
plan to maintain equipment reset funding levels and complete this 
necessary process considering the 5 year budget plan projects only 1 
percent annual real growth and an annual Overseas Contingency 
Operations budget that is more than $100 billion less than it is today?
    Answer. The Army will continue to request reset funding levels to 
meet the incremental costs of war in our Overseas Contingency 
Operations (OCO) budget. Since 2001, Congress has fully funded the 
reset of Army equipment returning from contingency operations and the 
Army used these funds to reset units for full spectrum operations. 
Reset funding for fiscal year 2010 and fiscal year 2011 is adequate to 
complete the reset of 25 brigades this year, 31 brigades in fiscal year 
2011 and represents approximately $11 billion per year.
    Current funding ensures that equipment can be rapidly repaired or 
replaced to meet operational requirements. We will continue to use our 
Reset Cost Model to forecast future reset costs based on force 
structure and equipping scenarios. Enduring requirements that are no 
longer part of the OCO will transition to our base budgets. This 
approach, with corresponding budget request adjustments, will align 
with the 5-year budget plan projections and OCO budget.
    If OCO Reset needs are not resourced in the year required, it would 
cause either the deferral of requirements or impact other programs 
resulting in equipment not being reset (repaired or replaced). The net 
result would be less reliable equipment or equipment shortages that 
would impact readiness and potentially put soldiers at risk. Equipment 
Reset and the associated funding is essential to maintaining equipment 
readiness and restoring balance to the Army. In partnership with 
Congress, the Army will continue to identify equipping Reset 
requirements that are cost effective, timely, and ensure readiness for 
future operations.
                                 ______
                                 
           Questions Submitted by Senator Christopher S. Bond

                          MODERNIZE THE FORCE

    Question. Tell me about the Army's plan to modernize the force and 
what this means for soldiers in the next 2-3 years, specifically 
regarding the ``spin-outs'' and the priority delivery plan for the Army 
Infantry Brigades and others. Were any specific ``spin-outs'' cut as a 
result of the changes to Future Combat Systems (FCS)?
    Answer. After cancellation of the Future Combat Systems (FCS) 
program, the Army transitioned to a Brigade Combat Team (BCT) 
Modernization Plan. The Army now refers to ``spin-outs'' as 
``capability packages.'' This plan is supported by comprehensive 
lessons learned from more than 8 years of war, focuses on the evolving 
needs of our warfighters in a rapidly changing security environment and 
exploits the knowledge and technologies developed under the FCS 
program.
    The BCT Modernization Plan aligns the fielding of capabilities with 
the Army Force Generation Model, so that soldiers will have the right 
capabilities at the right time to accomplish their mission. In the next 
3 years, the Army plans to field the first increment to three Infantry 
Brigade Combat Teams (IBCTs). We anticipate fielding the first brigade 
set of Increment 1 equipment in 2011 and two additional sets in 2012.
    Rather than making one modernization decision and applying it over 
two or more decades (as typically done in the past), the BCT 
Modernization Plan recognizes that modernization decisions must be made 
incrementally to stay ahead of the demands of the security environment 
and the needs of our warfighters.
    After the program's cancellation, we reevaluated FCS systems in 
light of our evolving needs. This led to the cancellation of the Class 
IV Unmanned Air System, the Multifunction Utility/Logistics and 
Equipment Transport (MULE-T) and the MULE-Countermine (MULE-CM) 
unmanned ground vehicles. Our analysis concluded that the Class IV UAS 
was no longer a cost-effective solution because current UAS, with some 
improvements, can sufficiently meet most requirements. Likewise, the 
two large robots (MULE-T and MULE-CM) did not meet rapidly changing 
threats or address critical future mission needs.
    Question. What is the Army's plan to integrate the Guard into its 
modernization efforts with respect to a proportional and concurrent 
delivery of the equipment needed to modernize?
    Answer. Because the Army has operationalized the Reserve Components 
to support Combatant Commanders, the Active Component (AC) is no longer 
a major factor in determining the order in which we field modernized 
systems. The goal of this strategy, which is based on the Army Force 
Generation Model, is to provide units with the equipment they need to 
perform their next mission. The Army's equipping strategy provides the 
most modern, capable equipment to deploying units without regard to 
whether they are AC, Army National Guard (ARNG), or Army Reserve. 
Additionally, we remain committed to ensuring ARNG units are equipped 
to at least 80 percent of their critical dual use items (despite 
significant overseas contingency operations and reset requirements) 
with a goal of reaching 100 percent. This is designed to ensure ARNG 
preparedness to support civil support missions.
    Between September 2008 and September 2010, ARNG equipment on hand 
percentages will increase by approximately 6 percent, and ARNG 
equipment modernization levels will increase by approximately 4 
percent. Both of these increases surpass the ACs improvements over the 
same time period.
    The Army is continuing to invest in ARNG modernization by procuring 
equipment that will complete ARNG modernization in several key areas 
over the next year or two. For example, the Army will soon complete the 
ARNG fielding of Force XXI Battle Command Brigade and Below and the 
M777 howitzer system. We will also complete 96 percent of the ARNG 
Warfighter Information Network-Tactical systems.
    For ARNG aircraft, the Army is working toward modernizing the 
fleet. The Light Utility Helicopter (LUH) is a key element of this 
strategy. The Army will field 88 of 210 LUHs by fiscal year 2011. The 
ARNG has the first two HH-60M equipped Medical Evacuation companies in 
the Army, as well as the second UH-60M equipped assault battalion. The 
ongoing modernization of the UH-60A series aircraft (A-A-L) will 
continue to reduce the number of non-modernized Blackhawks fleetwide in 
all components. We have already modernized four of the eight ARNG 
attack battalions with AH-64D model Apaches and plan to convert the 
remaining four battalions in fiscal year 2013-14. The ARNG is receiving 
three CH-47F models for its training base, and will begin receiving CH-
47Fs for their operational units in fiscal year 2011.
    Question. If the current rotary wing modernization plan for the 
Army Guard is any indication of how the effort is going, I am not 
hopeful. It is my understanding the President requested funding for 
only 2 upgraded Blackhawk ``M'' models for the Army Guard in fiscal 
year 2011? Is that enough?
    Answer. Yes, two aircraft are sufficient in fiscal year 2011. The 
two HH-60Ms MEDEVAC aircraft included for the Army Guard in the fiscal 
year 2011-base budget will be paired with 10 HH-60Ms procured in the 
fiscal year 2010 base. This will provide enough aircraft to equip one 
Army Guard 12-ship MEDEVAC Company. This MEDEVAC Company is to be 
fielded in fiscal year 2011-12 (1 year after the procurement funding), 
and will bring the ARNG total UH/HH-60Ms to 70 aircraft. The UH-60M is 
the standard configuration for the Assault and General Support units. 
The HH-60M is the Medical Evacuation configuration for the MEDEVAC 
units.

                         MILITARY CONSTRUCTION

    Question. The fiscal year 2011 Army budget request for military 
construction increased by almost $300 million, so our Guard soldiers 
and their families thank you for that. I have voiced concern in the 
past that the military construction funding has not kept pace with the 
essential needs at Guard installations across the country for 
modernization and replacement of aging facilities. I applaud the 
increase in funding from $246 million to $374 million to replace the 
Guard's aging facilities. In your view, is this amount appropriate to 
support Army Guard training and readiness requirements?
    Funding spent on the renovation and creation of new armories across 
the country spurs economic growth and enhances the Guard's and the 
Reserves' ability to carry out their missions. The benefit of these 
construction projects are two-fold because they serve as both military 
readiness spaces and public locations for community gatherings. As you 
know, training, maintenance and readiness is hampered by inadequate, 
unsafe and unhealthy facilities. The high level of mission readiness 
required of Guard soldiers needs to be supported by functional 
facilities, so I thank you for your support.
    Answer. The fiscal year 2011 level of funding provides for 48 
projects nationwide. At this level of funding, the average age of an 
Army National Guard (ARNG) Readiness Center will increase from 41 to 49 
years over the next decade. The current level of funding provides for 
major renovation of ARNG facilities every 30 years. Accordingly, at 
this level of funding, the ARNG will continue to be challenged in 
meeting its readiness requirements.

       TRANSIENTS, TRAINEES, HOLDEES AND STUDENTS (TTHS) ACCOUNT

    Question. The Army National Guard is the only service component 
that doesn't have a Transients, Trainees, Holdees and Students (TTHS) 
Account. As such, units continue to witness taxing instances of 
personnel and equipment ``cross-leveling'' when they are mobilized. 
Would creating such an account decrease some of the pressure placed 
upon soldiers' dwell-time and help the force get ``back in balance?''
    Answer. Yes. In fact, the Army is creating an 8,000 slot TTHS 
account in the ARNG. Although this is a relatively small account, it is 
a significant step forward. It will allow the ARNG to place non-
deployable soldiers in the TTHS account, thereby freeing spaces in 
units for trained, deployable personnel. The Army Training and Doctrine 
Command has worked extensively with the ARNG to increase the number of 
training seats available to Guard soldiers when recruits are available 
for training. The result has been a much smaller number of untrained 
soldiers occupying deployable unit positions.
    Question. Can a TTHS account be implemented without increasing Army 
Guard end-strength?
    Answer. Yes. Because of certain force design updates, the Army 
National Guard (ARNG) Force Structure Allowance is approximately 
350,000. The Congressionally mandated end strength of 358,200 personnel 
provides a deviation of approximately 8,000 soldiers. The ARNG can 
manage a small 8,000 soldier Trainees, Transients, Holdees and Students 
account (TTHS) with this deviation. This will allow the ARNG to remove 
non-deployable soldiers from operational units, as well as to reduce 
the untrained recruit population in mobilizing formations. Reducing 
force structure allowance any further, however, would destabilize the 
readiness of formations, increase the rate of unit rotations overseas, 
reduce the ARNG's accessibility to the Active Component and reduce its 
ability to function as an operational force.
    Question. Do Army leaders believe the end-strength is adequate in 
the ARNG?
    Answer. Yes, the Army Senior Leaders believe the end strength of 
the ARNG is adequate.
    Question. Is the ARNG experiencing commensurate, or 
``proportionate'' troop growth as compared to the active-component?
    Answer. Since 2005, the Army National Guard (ARNG) has done a 
tremendous job of increasing its end strength within authorized levels. 
Over the past 3 years, the ARNG has met its accession mission 35 out of 
36 months (in September 2009 it achieved a 99.6 percent accession 
rate), and increased its total end strength by approximately 12,000 
(from an End Strength Mission of 346,165 in March 2007 to 358,200 in 
February 2010). During this period, the total ARNG End Strength 
remained between 100-103 percent of the End Strength Mission (only in 
August 2008, did the end strength reach 103.1 percent).
    In 2006, as part of the Grow the Army Initiative, the ARNG's end 
strength authorization grew by 8,200. The current temporary end 
strength increase in the Active Army will benefit the Army National 
Guard by allowing an increased dwell for all Army units.

                          SUBCOMMITTEE RECESS

    Chairman Inouye. This subcommittee will reconvene on 
Wednesday, March 10, at 10:30. And at that time, we will 
consider health programs of DOD.
    And, with that, the subcommittee stands in recess.
    [Whereupon, at 10:35 a.m., Wednesday, March 3, the 
subcommittee was recessed, to reconvene at 10:30 a.m., 
Wednesday, March 10.]

</pre></body></html>
